<html>
<title> - COUNTING EVERY PERSON: SAFEGUARDING THE 2020 CENSUS AGAINST THE TRUMP ADMINISTRATION'S UNCONSTITUTIONAL ATTACKS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         COUNTING EVERY PERSON:
                         SAFEGUARDING THE 2020 CENSUS
                   AGAINST THE TRUMP ADMINISTRATION'S
                        UNCONSTITUTIONAL ATTACKS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2020

                               __________

                           Serial No. 116-108

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-984 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                            
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
                           Janet Kim, Counsel
                          Elisa LaNier, Clerk
                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2020....................................     1

                               Witnesses

Panel 1

Vincent Barabba (remote), Former Director, Census Bureau (1973-
  1976 and 1979-1981)
    Oral Statement...............................................     4
Kenneth Prewitt (remote), Former Director, Census Bureau (1998-
  2001)
    Oral Statement...............................................     6
Dr. John Eastman (remote), Professor, Dale E. Fowler School of 
  Law, Chapman University
    Oral Statement...............................................     7
Robert M. Groves (remote), Former Director, Census Bureau (2009-
  2012)
    Oral Statement...............................................     9
John H. Thompson (remote), Former Director, Census Bureau (2013-
  2017)
    Oral Statement...............................................    11

Panel 2

Dr. Steven Dillingham (in person), Director, Census Bureau
    Oral Statement...............................................    50

* The prepared opening statements and statements for the 
  witnesses are available at:  docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below are available at: docs.house.gov.

  * Pew Research Center, ``20 metro areas are home to six-in-ten 
  unauthorized immigrants in U.S.'', article; submitted by Rep. 
  Palmer.

  * Pew Research Center, ``Five facts about illegal immigration 
  in the U.S.'', article; submitted by Rep. Palmer.

  * Pew Research Center, ``Explore unauthorized immigration by 
  state using our new interactive'', article; submitted by Rep. 
  Palmer.

  * Center for Immigration Studies, ``Map: Sanctuary Cities, 
  Counties, and States'', exhibit; submitted by Rep. Palmer.

  * Migration Policy Institute, ``Profile of the Unauthorized 
  Population: United States'', exhibit; submitted by Rep. Palmer.

  * A list of Committee Hearings; submitted by Chairwoman 
  Maloney.

  * The ``System of Record Notices''; submitted by Rep. Porter.

  * The ``OMB Purpose Statement''; submitted by Rep. Porter.

  * Statement for the record of Vanita Gupta.


 
                         COUNTING EVERY PERSON:
                      SAFEGUARDING THE 2020 CENSUS
                   AGAINST THE TRUMP ADMINISTRATION'S
                        UNCONSTITUTIONAL ATTACKS

                        Wednesday, July 29, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:46 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn Maloney 
[chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Lynch, Cooper, 
Connolly, Krishnamoorthi, Raskin, Rouda, Khanna, Mfume, 
Wasserman Schultz, Sarbanes, Welch, Kelly, DeSaulnier, 
Lawrence, Gomez, Pressley, Tlaib, Porter, Comer, Jordan, Gosar, 
Foxx, Hice, Grothman, Palmer, Higgins, Norman, Roy, Miller, 
Green, Steube, and Keller.
    Chairwoman Maloney. The committee will come to order. 
Without objection, the chair is authorized to declare a recess 
of the committee at any time.
    I now recognize myself for an opening statement.
    Thank you all for being here today. Our Constitution 
requires that every 10 years we count every person living in 
the United States of America.
    We use this count to allocate more than a trillion dollars 
in Federal resources, to draw legislative maps, and to assign 
Electoral College votes to states.
    It is no exaggeration to say that the census is a 
cornerstone of our democracy. Last week, the president issued a 
memorandum directing the Secretary of Commerce to provide him 
with all the information necessary to exclude undocumented 
immigrants from the census count for apportionment purposes.
    Let me be clear. The president's direction is 
unconstitutional, it is illegal, and it disregards the 
precedent set by every other president, beginning with 
President George Washington.
    The Constitution requires the census to count, quote, ``the 
whole number of persons in each state,'' end quote. Federal law 
requires the Secretary of Commerce to report, quote, ``the 
total population,'' end quote, of each state to the president 
and it requires the president to transmit this information to 
Congress.
    In the 230-year history of the census, no president has 
ever tried to manipulate the census count in this way. In fact, 
just two years ago, the Census Bureau reaffirmed its commitment 
to do the exact opposite of what the president is now trying to 
do.
    The Bureau committed to counting every person, regardless 
of citizenship or legal status under the rules of Congress set 
in the Census Act of 1790.
    The president's decision to release this illegal memo now 
appears designed to inflict maximum damage to the accuracy of 
the ongoing 2020 census.
    In just two weeks, the Census Bureau will start visiting 
the homes of millions of people who have not yet responded to 
the census.
    The president's latest attack on immigrants could sow fear 
and confusion in communities across the country and could lead 
many people to decide not to participate. This will hurt 
communities that are already undercounted, underrepresented, 
and underfunded.
    Addressing the chaos caused by the president's memo will 
drain valuable resources from the Census Bureau, which is 
already struggling to administer the 2020 census in the middle 
of an unprecedented pandemic and it will further divide our 
country at a time when we need unity.
    Of course, this is not the first time that President Trump 
has attempted to politicize the census. For more than two years 
he tried to add a citizenship question, even though the Census 
Bureau's own studies showed it would depress response rates in 
many communities.
    When this committee investigated, Secretary Ross and other 
administration officials denied they were trying to exclude 
immigrants from congressional apportionment and, instead, 
claimed falsely that the Department of Justice needed 
citizenship data to enforce the Voting Rights Act.
    The Supreme Court saw through their explanation, calling 
it, quote, ``contrived,'' end quote, and blocking the addition 
of the citizenship question. And when Secretary Ross and 
Attorney General Barr refused to turn over documents about the 
real reason for the citizenship question, the House held them 
both in contempt.
    Now the president is trying again to weaponize the census 
to hurt immigrants and help Republicans. As a Nation, we depend 
on the census to be nonpartisan, fair, and accurate.
    As I told Director Dillingham the last time he appeared 
before us, our Constitution requires it, our communities rely 
on it, and our democracy depends on it.
    We are here today at this emergency hearing because the 
Trump administration is threatening this cornerstone of our 
democracy.
    We will hear from four former Census Bureau directors who 
oversaw the census during both Republican and Democratic 
administrations.
    They will share their views on the president's 
unprecedented attempts to manipulate the census count and why 
it is important to count every person in the United States.
    Then we will hear directly from the current Census Bureau 
director, Dr. Dillingham. I expect Dr. Dillingham to give us an 
honest assessment of how the president's memo could impact the 
accuracy of the census and what the Bureau is doing to address 
this risk.
    I thank all of our witnesses for participating today and I 
look forward to your testimony. I now recognize the 
distinguished ranking member, Mr. Comer, for an opening 
statement.
    Mr. Comer. Chairman Maloney. I appreciate you calling this 
hearing today on the 2020 census.
    Let me begin by saying unequivocally the 2020 census is 
counting every resident in the United States, regardless of 
citizenship status. Any assertions to the contrary are scare 
tactics, which have the consequence of reducing participation 
in the census.
    The census is underway now. I want to encourage every 
American to complete their census form. Starting in August, 
census enumerators will be fanning out across the country to 
count nonresponding households.
    I encourage everyone to engage with an enumerator if they 
come to your door. But if you are concerned about an enumerator 
coming to your door, you can complete your 2020 census online 
now at mycensus2020 or my2020census.gov.
    I truly wish the hearing today were an oversight hearing of 
the 2020 census because COVID-19 has created a lot of 
operational challenges for the census.
    Unfortunately, this committee has conducted no oversight of 
these impacts. Once again, Democrats are focusing their efforts 
on political issues, not the basic good government oversight 
this committee is charged with conducting.
    Last week, President Trump took a very important step to 
ensuring the sanctity of our Nation's elections and equal 
representation under the Constitution.
    The president directed the Secretary of Commerce to report 
an apportionment count for the House of Representatives, which 
includes nonlegal residents in the United States including 
illegal immigrants.
    All Americans should care about who is being included in 
the apportionment count. Including illegal immigrants in the 
count for representation in Congress only dilutes the 
representation of all Americans who vote in elections and makes 
a mockery of our basic principle of one person one vote.
    The president's action restores the concept of 
representational government envisioned by the Constitution. In 
a country so closely divided as the United States, illegal 
immigrants and noncitizens have a material effect on 
representation.
    Representation should matter to everyone. It is a simple 
question of fairness. Predictably, the Democrats' liberal 
interest groups have already filed lawsuits against the 
president. Like the sound and fury surrounding the citizenship 
question, the legal questions about the president's action are 
likely to wind up at the Supreme Court.
    This hearing today is the Democrats' first shot across the 
bow of Chief Justice Roberts and the other Supreme Court 
justices. The intimidation of the Supreme Court begins today.
    I urge us all to focus on the task at hand, the completion 
of the 2020 census count now underway.
    With that, I yield back.
    Chairwoman Maloney. Thank you.
    Now I would like to introduce our witnesses. Our first 
panel is composed for former Census directors. We are grateful 
to have their expertise.
    Our first witness today is Mr. Vincent Barabba, who served 
as Census director from 1973 to 1976 and again from 1979 to 
1981.
    Then we will hear from Kenneth Prewitt, who served as the 
Census director from 1998 to 2001.
    Next, we will hear and go to Robert M. Groves, who served 
as the Census director from 2009 to 2012.
    Finally, we will go to John H. Thompson, who served as the 
Census director from 2013 to 2017.
    The witnesses will be muted so we can swear them in. 
Unmuted so that we can swear them in.
    Witnesses, please raise your right hand. Do you swear or 
affirm that the testimony you are about to give is the truth, 
the whole truth, and nothing but the truth, so help you God?
    [Witnesses are sworn.]
    Chairwoman Maloney. Let the record show that the witnesses 
answered in the affirmative. Thank you.
    Without objection, your written statements will be made 
part of the record, and with that, Mr. Barabba, you are now 
recognized for your testimony.

 STATEMENT OF VINCENT BARABBA, FORMER DIRECTOR, CENSUS BUREAU 
                   (1973-1976 AND 1979-1981)

    Mr. Barabba. Thank you.
    The Thomas Theorem, formulated in 1928, stated that if men 
define situations as real, they are real in their consequences. 
In essence, the Thomas Theorem surfaces the potential that when 
incorrect situations are perceived by people as real, they are 
real in their consequences.
    The real problem with the president's current action is 
that by reintroducing his illegal desire of only counting 
citizens using the many approaches he has taken is to ensure 
that he achieves his real objective.
    That is to make sure less people will be counted in states 
with large minority populations which did not support President 
Trump or the positions he has taken.
    If this occurs, those areas will have their representation 
in Congress and other legislative districts reduced as well and 
they will receive fewer government-approved allocations based 
on the census count.
    However, the incorrect perception of possible direct harm 
by filling out the form by noncitizens is not correct because 
it is against the law for any Census Bureau employee to 
disclose or publish any census or survey information that 
identifies an individual or business.
    This is true even for inter-agency communications. The FBI 
and other government entities do not have the legal right to 
access this information.
    Violating the confidentiality of a respondent is a Federal 
crime with serious penalties, including a Federal prison 
sentence of up to five years, a fine of up to $250,000, or 
both.
    In fact, when these protections have been challenged, Title 
13's confidentiality guarantee has been upheld in the courts.
    I will now provide an example of how the Census Bureau and 
other agencies work together to follow Title 13.
    On August 13, 1980, late that afternoon, four FBI agents 
arrived at the district office in Colorado Springs armed with a 
search warrant authorizing them to seize the census documents 
including completed questionnaires in the course of their 
investigation of a case involving alleged questionnaire 
falsification and payroll fraud.
    I was immediately informed of the situation and contacted 
the director of the FBI. After a brief flurry of telephone 
calls to employees in Colorado, we agreed to a mutually 
satisfactory conclusion that could be reached while the 
disputed questionnaire remained in the custody of the Census 
Bureau.
    Ultimately, the documents were placed in a secure room 
protected by two locks with one key held by the FBI and the 
other by a local census official.
    Under this arrangement only sworn census employees were 
allowed to enter the room. But an FBI agent had to be present 
when the door was open.
    While the door was unlocked, an agent was stationed outside 
the room to monitor the activities of the census personnel.
    The Census Bureau brought in experienced Census Bureau 
enumerators from outside the Denver area to reinterview the 
respondents in the area where the alleged fraud had taken place 
and compared the original questionnaires with those from the 
recanvass.
    Census Bureau officials prepared a report that described 
all significant discrepancies uncovered but did not reveal any 
confidential information.
    As the chairwoman mentioned, I served as Census Bureau 
director through the appointment by presidents of both 
political parties. In 1980, I had the honor of providing the 
Secretary of Commerce with the Census Bureau statement showing 
the population of the states and the number of representatives 
to which each state is entitled, which he then forwarded to the 
president.
    I was also proud of the fact that our outreach program to 
low-income and minority population led to an estimated count of 
nearly 97 percent of our population.
    The 1980 census was also a clear demonstration of the 
nonpartisan manner in which the census should be conducted. The 
1980 census was designed and planned during a Republican 
presidency and successfully implemented as designed and planned 
during a Democratic presidency.
    It will be up to Congress and the press to make sure that 
disinformation being created by the president be addressed 
forcefully and that his true motivation be made clear.
    The census belongs to the people, not the president. The 
entire population of persons in the United States should 
participate willingly in the 2020 census and use the moment to 
reaffirm our Founders' intent that everyone be counted.
    Thank you.
    Chairwoman Maloney. Thank you so much for your testimony 
and your service.
    We will now here from Dr. John Eastman, professor, Henry 
Salvatori Professor of Law, and community service director, 
Center for Constitutional Jurisprudence Dale E. Fowler School 
of Law and Senior Fellow, Claremont Institute.
    Dr. Eastman?
    [Inaudible.]
    Chairwoman Maloney. We seem to have some technical 
problems. We are going to go to the next speaker after Dr. 
Eastman and come back to him because there seems to be a 
problem with connecting with him.
    Thank you.
    We will now turn to Dr. Prewitt.
    Mr. Prewitt, you are now recognized.

 STATEMENT OF KENNETH PREWITT, FORMER DIRECTOR, CENSUS BUREAU 
                          (1998-2001)

    Mr. Prewitt. Thank you very much, Madam Chairwoman.
    We know that this discussion will include concern about 
the--in putting the noncitizens and/or the illegals into the 
apportionment count. I just have to say three things about 
that.
    First, we have never done it. The census has never done it.
    Second, they can't do it by asking questions. You are not 
going to knock on the door and say, are you or are you not.
    And third, the administrative records are inadequate to do 
it. So, even if it was a good idea, we don't know--we don't yet 
know that we can do it--that the Census Bureau can do it.
    With that as my starting point, I want to go on and say 
some things about the larger census, as the ranking member 
invited us to do.
    We all know that we are about 62 percent with respect to 
nonresponse with respect to self-reporting. But that leaves, 
you know, more than a third of the population uncounted.
    I have to really stress this point. Nonresponse followup, 
hard to count, very difficult census territory, as we all know, 
and we are not in control. We as the Census Bureau, the we as 
the Congress, the we as the White House.
    COVID is in control of whether we will be able to--that is, 
the Census Bureau will be able to do this count successfully 
before the end of the year, which they are now on that--on that 
schedule.
    We know about 15 percent of the American population has 
already told us in polls that they do not intend to cooperate 
with the census.
    So, I would like to make two, three quick points.
    How do I define a successful census? The Bureau will know, 
as no other unit of government can, if the numbers will 
accurately reapportion and fairly distribute Federal funds for 
a decade.
    It knows that the census count is the denominator of every 
vital statistics we rely on, whether the number--whether it is 
the number of consumer products, whether it is a differential 
rate of infection across the population subgroups on the 
pandemic, and so forth. Every number that we use for 10 years 
is anchored to the quality of the census.
    Second, the Bureau knows that these statistical facts can 
easily damage the flawed numbers that will be produced will--
that we will inflict on society will create serious damage to 
this society, and it is not pretty.
    Ten years of homeless veterans because we mis locate 
their--mislocate their--sorry, mislocate their hospitals. Ten 
years of tropical storm disaster relief that is too little and 
too late because traffic congestion is underestimated.
    Ten years of foreplanning by local school districts because 
they have flawed estimates of how many first graders are going 
to show up. Ten years of missed Chamber of Commerce--misled 
Chamber of Commerce because predictions of population growth 
and characteristics are off base.
    We know that will be the consequences of a census that does 
not count as best it can, quite separate from who is in the 
apportionment count. We have to start with a good census.
    The third thing I would say about this is the Bureau will 
not want to inflict the damage that flawed numbers will 
produce. The Census Bureau is too honorable, too scientific, 
too proud of its professional standards, too faithful to its 
constitutional duties. The Bureau will struggle with the 
enormous burden of whether to release substandard results.
    I urge the Congress to share the burden. I would ask the 
Congress to please appoint, using the National Academy of 
Sciences or some other apolitical trusted institution of its 
choosing, to produce pre-determined quality metrics that can 
assess if the final 2020 numbers reasonably match what the 
Bureau knows that they should be, and the Bureau has very good 
estimates from ACS, from the demographic analysis. Very good 
estimates of how many people across the states, all the way 
down to census track levels.
    So, if we can have this special group of experts to sort of 
create the metrics by which we will judge if we have an 
adequate census to do what it is supposed to do, and if not, 
what steps should the country take.
    Chairwoman Maloney. Thank you.
    We are going to return to Dr. Eastman, if we have solved 
the difficulties of reaching him.
    Dr. Eastman?
    Mr. Eastman. Let us try--let us try this again.
    Can you hear me now?
    Chairwoman Maloney. Yes, we can.
    Mr. Eastman. Very good. Thank you.

STATEMENT OF JOHN EASTMAN, HENRY SALVATORI PROFESSOR OF LAW AND 
      COMUNITY SERVICE DIRECTOR, CENTER FOR CONSTITUTINAL 
     JURISPRUDENCE, DALE E. FOWLER SCHOOL OF LAW, CHAPMAN 
       UNIVERSITY; AND SENIOR FELLOW, CLAREMONT INSTITUTE

    Mr. Eastman. Chairman Maloney, Ranking Member Comer, and 
other members of the committee, thank you for inviting me to 
participate in this important hearing.
    I actually think President Trump's directive is not only 
good policy but perfectly constitutional, and I want to 
address, real quickly, something Mr. Prewitt said.
    I think there is a confusion here between the two purposes 
that we use the census for. One is for apportionment, set out 
by Article 1 Section 2 of the Constitution.
    The other, exercising Congress's spending power or its 
commerce power, is to do a whole myriad of other things like 
allocate Federal resources, determine where we are going to 
need schools and VA hospitals, and what have you.
    President Trump's order addresses the apportionment part of 
that. It doesn't have anything to do with the broader purposes 
of a total count on the census.
    I think the political theory underlying the reason we have 
the apportionment clause is extremely important, and so let me 
begin with that.
    We get our political theory from the Declaration of 
Independence. It sets out universal principles. All men are 
created equal, that we are endowed by our Creator with certain 
inalienable rights. But we apply those universal principles in 
a particular context. The Declaration starts off by talking 
about one people separating themselves from another.
    The theory of representative government is that it is based 
on the consent of the people to be governed. Not on the consent 
of people elsewhere, but on the consent of the particular 
people that are setting up a government.
    Now, those principles--the consent of the government, the 
representative government theory--find their selves into the 
text of the Constitution.
    Right from the very beginning it says, ``We, the people of 
the United States.'' It doesn't say, ``We, the people of the 
world'' or ``We, the people of any foreign nationals who happen 
to be present when we take a census.''
    It is ``We, the people of the United States.'' That 
language is mimicked then in the apportionment clause. Article 
1 Section 2 Clause 1 says representatives are chosen by the 
people, that same people referring back to the people of the 
United States, now the people in their several states.
    Then in Clause 3, it says that the people, again, and they 
choose their representatives based on the total number of 
persons. That refers back to their representatives. That refers 
back to the people in the several states.
    Proof of this is the clause excluding Indians not taxed. 
That was a clause that was designed to recognize and to exempt 
from the census count those people who were in the states but 
not part of our body politic who were not citizens. As the 
Supreme Court held in Elk v. Wilkins, Indians not taxed are 
excluded from the census for the reason that they are not 
citizens.
    In other words, the whole political theory of the 
Declaration codified into the Constitution is that we are 
counting people for purposes of apportionment in order to 
reflect accurately representative strength and divide equally 
and fairly the representation among the several States based on 
their numbers of people who are citizens, who are part of the 
body politic.
    I will give you an example. If the census--if the 1984 
Olympics was held in 1980 and it happened to coincide with 
Census Day, we wouldn't have added two or three congressional 
seats to California because there were a couple million people 
visiting Los Angeles for the Olympics.
    This has always been our history. Diplomats, visitors have 
never been counted because they are not part of the body 
politic. They don't adhere to the necessity of the theory of 
representative government.
    The Supreme Court has upheld this as well. It is recognized 
in Reynolds v. Sims, for example, which was the equal 
protection one person/one vote case, that it is the equal 
number of citizens. They refer repeatedly to the language of 
citizens rather than total population.
    Now, for most of our history, there wasn't much difference. 
The disparity between citizens and noncitizens was, roughly, 
similar one district to another. So, we didn't have to get into 
this question.
    But we now live in a circumstance where there are vast 
differences state by state between the number of citizens 
compared to the total population, and to continue to count 
total population for apportionment purposes is to give an undue 
weight that people--to states that have large numbers of 
noncitizens living within their borders.
    That is not consistent with the principles of 
representative government. It is unfair to those states that 
continue to have only citizens. It is particularly unfair when 
the number of noncitizens includes large numbers of people who 
are not here legally at all.
    It creates a perverse incentive to encourage illegal 
immigration, to undermine the weight of the votes of citizens 
elsewhere in the country.
    Thank you, Madam Chairman. I look forward to your 
questions.
    Chairwoman Maloney. Thank you.
    I now--next, is Mr. Groves, and I understand that you have 
a hard stop at 11. You will be excused with our thanks, and you 
may have questions for the record.
    Mr. Groves, you are now recognized.

 STATEMENT OF ROBERT M. GROVES, FORMER DIRECTOR, CENSUS BUREAU 
                          (2009-2012)

    Mr. Groves. Thank you, Chairwoman Maloney and Ranking 
Member Comer.
    Since 1790, each U.S. decennial census has sought to 
enumerate all residents in the country. Some of the first words 
in the U.S. Constitution seem to illuminate the intent of the 
Founding Fathers on this score.
    Before the decennial mandate as laid out in Article 1 
Section 2, the prior section, Section 1, notes the 
qualifications of membership in the House of Representatives.
    I quote, ``No person shall be a representative who shall 
not have attained to the age of 25 years and been seven years a 
citizen of the United States, and who shall not, when elected, 
be an inhabitant of that state in which he shall be chosen.''
    So, I note the explicit designation of the word 
``citizenship'' for qualifications of members of the House, and 
the very next section, Section 2, outlining the decennial 
census, the word ``citizen'' is not used, either in referring 
to the census or to the apportionment of the House of 
Representatives.
    Instead, the phrase ``whole persons'' is used. This goal, a 
complete enumeration of all persons, residents, in the country 
has been the basis of all censuses since that conducted by 
Thomas Jefferson in 1790. It has been the basis of 
reapportionment decade after decade. Indeed, the decennial 
census is the only event we have in this country in which all 
persons participate.
    I am not a lawyer and, thus, will not comment on the legal 
basis of the recent memorandum. I will, instead, comment on the 
critical needs of the Census Bureau, going forward, with an eye 
toward quality assurance and transparency.
    I have four points.
    One, the Census Bureau technical staff must be free to 
complete the 2020 census at the maximum level of quality 
possible within the unprecedented constraints of the pandemic.
    As you know, the technical staff of the Census Bureau has 
requested the delay in the delivery of various products. This 
request flows from the delay in the conduct of various stages 
of data collection.
    This delay, no doubt, has saved lives of enumerators whose 
public service will make these efforts successful. I applaud 
the technical staff of the Census Bureau making this decision.
    The decision, however, forces a delay of delivery of 2020 
products. I support this delay and urge Congress to authorize 
it.
    No. 2, all of us need to convey the message again very 
clearly that the 2020 census must enumerate all persons 
resident in the U.S.
    Regardless of the outcome in the administration's 
memorandum, the decennial census has the goal of enumerating 
all persons in the United States. We must double down on this 
message in the coming days.
    No. 3, the Census Bureau should release all quality 
indicators of the measurement of citizens required under the 
July 11, 2019, executive order.
    Rarely in the conduct of censuses throughout the world is 
the responsible agency asked to produce official estimates 
critical to the society without prior testing.
    The attempt to assemble from administrator record systems 
and other sources counts of citizens at small geographical 
areas is unprecedented in the history of the Bureau.
    With unprecedented efforts comes the obligation to inform 
the country of the strengths and weaknesses of a product. I 
urge Congress to assure that evaluations of the accuracy of 
such statistics be presented along with the estimates 
themselves.
    No. 4, the credibility of the 2020 census can be achieved 
only by wide dissemination of quality indicators of the data.
    I urge the Census Bureau, given the unique nature of this 
data collection, to publish intermediate indicators of quality 
of the 2020 census.
    These would include process indicators, comparisons with 
population estimates from demographic analysis in comparable 
tabular form, and initial field data from the post-enumeration 
survey, for example, match rates of households.
    Credibility requires transparency. The sooner the country 
can see multiple indicators of the 2020 census quality, the 
sooner the use case for the census can be made.
    In conclusion, I am pleased to submit this written 
testimony. I look forward to testifying before the committee.
    Chairwoman Maloney. Thank you.
    We will now conclude this panel with Mr. Thompson.
    Mr. Thompson, you are now recognized.

 STATEMENT OF JOHN H. THOMPSON, FORMER DIRECTOR, CENSUS BUREAU 
                          (2013-2017)

    Mr. Thompson. Good morning, Chairwoman Maloney, Ranking 
Member Comer, and members of the committee. Thank you for this 
opportunity to testify before your committee regarding the July 
21, 2020 memorandum for the Secretary of Commerce on excluding 
illegal aliens from the apportionment base following the 2020 
census.
    I am extremely concerned that this action will adversely 
affect the quality and accuracy of the 2020 census. The 
remainder of my testimony will focus on five areas that I 
believe are critical for your committee and the leadership at 
the Department of Commerce and the Census Bureau to consider.
    First, effects of the directive on the 2020 census response 
for the hard-to-count populations. I believe that the 
memorandum has a high potential to reduce the likelihood of 
census participation for the hard-to-count populations 
including noncitizens and immigrants.
    A significant component of the Census Bureau plan to get a 
complete count of these populations is getting out a message 
that the 2020 census is important to local communities and that 
respondent information is kept completely private and not 
shared with any outside entity, including law and immigration 
enforcement.
    I am very concerned that the release of this memorandum 
will increase the fears of many in the hard-to-count community 
that their data will not be safe. The end result will most 
likely be increased nonparticipation and increased undercounts 
of these populations.
    Two, effects of not accepting the Census Bureau 
recommendation to extend the 2020 census deadlines. The Census 
Bureau, through the Department of Commerce, has requested that 
Congress extend the deadlines for providing apportionment 
counts on redistricting data by four months. It is critical 
that these deadlines be extended.
    The effective conduct of the operation to enumerate those 
households that do not self-respond, nonresponse followup, or 
NRFU, is necessary to achieve a fair and accurate enumeration 
for all populations.
    I am concerned that not extending the deadlines will force 
the Census Bureau to make adjustments to the NRFU. These 
adjustments will most likely include reducing the number of 
NRFU visits and increasing the use of statistical methods to 
impute responses into a much greater percentage of housing 
units than in previous censuses.
    The consequence of actions such as this would tend to 
underrepresent the hard-to-count populations and over represent 
other populations.
    Three, the risk of introducing serious errors into the 2020 
census apportionment counts before the quality and accuracy of 
the 2020 census is understood.
    For the 2020 census, little is known at this point 
regarding quality, accuracy, and most importantly, the number 
of undocumented persons that will actually be enumerated.
    I am very concerned that a much lower number of 
undocumented persons will be counted in the 2020 census 
relative to previous censuses due to increased fear that their 
information will not be secure.
    At the same time, a significant portion of legal residents 
could be over counted. It will take very careful analysis to 
understand the properties of the 2020 census and to determine 
how many, if any, undocumented persons are included in the 
enumeration.
    This analysis will not be available when the apportionment 
count is released. Therefore, using the existing estimates of 
the undocumented population to reduce the 2020 census numbers 
would have unknown and possibly serious adverse effects on the 
accuracy of the resulting apportionment.
    Four, there must be transparency in how the estimates of 
the undocumented population are constructed. The 2020 census is 
the foundation of our democracy and there must be assurances 
that any actions that would affect the census are based on 
objective methodologies. A long-held principle of the Census 
Bureau is openness and transparency.
    Five, the importance of not even giving the appearance of 
political interference with the conduct and tabulation of the 
2020 census.
    Perceptions that the results of the 2020 census have been 
manipulated for political purposes will greatly erode public 
and stakeholder confidence not only in the 2020 census but in 
our democracy.
    When I was directing the 2000 census as a career executive 
under the leadership of Census Bureau Director Dr. Kenneth 
Prewitt, we went to great lengths to assure all stakeholders 
that data-driven decisions were being made and that there was 
no consideration of politics in the conduct of the census.
    I would strongly urge the current Census Bureau and 
Department of Commerce senior officials to follow these 
principles for the 2020 census.
    In conclusion, thank you for this opportunity and I look 
forward to answering any questions that you may have.
    Chairwoman Maloney. Thank you. The chair now recognizes 
herself for five minutes for questions. I would like, first, to 
thank all of you for joining us today.
    It is powerful to hear from four former Census directors 
who have been appointed by presidents of both parties. 
Collectively, you have served Richard Nixon, Gerald Ford, Jimmy 
Carter, Bill Clinton, George W. Bush, Barack Obama, and Donald 
Trump.
    On July 21, the president issued a memo directing the 
Secretary of Commerce to provide him with the information 
necessary to exclude undocumented immigrants from the census 
count for apportionment purposes.
    Many people have opined already that the president's 
memorandum is unlawful and unconstitutional. I have studied it 
closely and believe it violates the clear language of the 
Constitution and existing Federal laws.
    But I want to ask each of you the same question for a yes 
or no answer.
    In your opinion and based on your knowledge and experience, 
does the president's July 21 memo seeking to exclude 
undocumented immigrants from the apportionment base appear to 
violate existing Federal law and historically enduring views of 
the Constitution, yes or no.
    Mr. Barabba?
    Mr. Barabba. Yes.
    Chairwoman Maloney. Dr. Eastman?
    Mr. Eastman. No.
    Chairwoman Maloney. Mr. Prewitt?
    Mr. Prewitt. Yes.
    Chairwoman Maloney. Mr. Groves?
    Mr. Groves. Yes.
    Chairwoman Maloney. Mr. Thompson?
    Mr. Thompson. Yes.
    Chairwoman Maloney. Second question. Based on your 
knowledge and experience, does the Constitution require the 
census to count every person living in the United States at the 
time of the census, including undocumented immigrants?
    Mr. Barabba, yes or no?
    Mr. Barabba. Yes.
    Chairwoman Maloney. Dr. Eastman?
    Mr. Eastman. No.
    Chairwoman Maloney. Mr. Prewitt?
    Mr. Prewitt. Yes.
    Chairwoman Maloney. Mr. Groves?
    Mr. Groves. Yes.
    Chairwoman Maloney. Mr. Thompson?
    Mr. Thompson. Yes.
    Chairwoman Maloney. A third question. Based on your 
knowledge and experience, do you agree that the Federal law 
requires the president to send Congress an apportionment count 
based on the census count of the total population of the U.S., 
including undocumented immigrants?
    Mr. Barabba, yes or no?
    Mr. Barabba. Yes. Yes.
    Chairwoman Maloney. Dr. Eastman? Dr. Eastman?
    Mr. Eastman. No. No.
    Chairwoman Maloney. Mr. Prewitt?
    Mr. Prewitt. Yes.
    Chairwoman Maloney. Mr. Groves?
    Mr. Groves. Yes.
    Chairwoman Maloney. Mr. Thompson?
    Mr. Thompson. Yes.
    Chairwoman Maloney. And, last, and is it correct that all 
previous censuses and apportionment counts in the history of 
the United States have included both citizens and noncitizens, 
including undocumented immigrants?
    Mr. Barabba, yes or no?
    Mr. Barabba. Yes.
    Chairwoman Maloney. Dr. Eastman, yes or no?
    Mr. Eastman. No.
    Chairwoman Maloney. Mr. Prewitt?
    Mr. Prewitt. Yes.
    Chairwoman Maloney. Mr. Groves?
    Mr. Groves. Yes.
    Chairwoman Maloney. Mr. Thompson?
    Mr. Thompson. Yes.
    Chairwoman Maloney. Thank you. I think that all of these 
answers speak for themselves. The president may not pick and 
choose who is included in the census count or the apportionment 
base.
    The Constitution, Federal law, and the historic practice of 
the Census Bureau dating back more than two centuries all 
require the census count and the apportionment base to include 
every person in the United States, regardless of their 
immigration status.
    I now yield to the distinguished ranking member for five 
minutes for questions.
    Mr. Comer. Dr. Eastman, thank you for testifying today, and 
let me be crystal clear. I strongly support the president's 
order. I want to start with a few basic questions.
    What is the constitutional and legal justification for the 
president's apportionment decision, briefly?
    Mr. Eastman. Well, the Constitution says count all persons 
in the several states. That refers to the people of the several 
states. That refers to the people of the United States.
    As the Indians in the tax exclusion clause makes clear, it 
was designed to cover citizens. Those are the people that we 
are choosing representatives to represent. It doesn't include 
people who are here visiting and, certainly, not people who are 
here visiting unlawfully.
    Mr. Comer. Right. So, why is using total population not a 
good metric for an apportionment count?
    Mr. Eastman. Well, for many of our nation's--much of our 
Nation's history, total population was, roughly, approximate in 
district by district to citizen population.
    That is no longer the case, and the political theory and 
the text and the reference to the people that is contained in 
the Constitution suggests that we now take account of the fact 
that we have great disparities, district to district, for 
apportionment purposes on the number of citizens versus the 
total population.
    Mr. Comer. Will you briefly explain the principle of one 
person one vote?
    Mr. Eastman. Well, the idea of one person one vote, set out 
by the Supreme Court in Reynolds v. Sims is tied to the idea of 
representative government, that we should each have an equal 
vote in who our--we are going to choose as our representative.
    We are not talking about other people in the world having a 
say in who we choose as our representatives. It is one person, 
and that means one citizen one vote because those are the 
people that are choosing who is going to represent them in this 
particular place in this particular government.
    It is not a world government. It is a government of the 
people of the United States.
    Mr. Comer. So, for the issue at hand, can you explain how 
counting illegal immigrants for purposes of apportionment 
dilutes the political power of citizens and legal immigrants in 
states with fewer illegal immigrants?
    Mr. Eastman. Take two states, like California, 2.5 million 
estimate illegal immigrants. That is, roughly, three or four 
additional congressional seats beyond what the citizen 
population would allow, and you are diluting the votes of 
citizens in other places that have not encouraged such illegal 
immigration into their states.
    If our representative government is going to be based on 
citizens, then diluting the vote of citizens to overweight the 
apportionment in the number of seats, and it is not just seats 
in Congress.
    It is seats--it is votes in the Electoral College for 
president as well. And this is not partisan. California and 
Florida and Texas would all lose seats if the president's order 
is upheld. That is, you know, some on the Democrat side, some 
on the Republican side.
    This goes more to the basic notion of representative 
government, and who it is our elected representatives are 
supposed to be representing, and it is citizens here. It is not 
people from elsewhere in the world.
    Mr. Comer. So, doesn't counting illegal immigrants for 
purposes of the apportionment base distort the principle of one 
person one vote?
    Mr. Eastman. It most certainly does and it dilutes the 
votes of legitimate citizen voters in states that have low 
numbers of illegal immigrants or other foreign nationals 
present within their borders.
    Mr. Comer. My last question. How does the president's 
memorandum on apportionment restore equal representation in 
apportionment in the House of Representatives?
    Mr. Eastman. Well, it gets back to the apportionment base 
that I think our Constitution envisioned, certainly, the theory 
of our Declaration of Independence envisioned, and that is the 
one people that are choosing our representatives we are going 
to apportion that people according to state and allot the 
number of congressional seats based on that, not however many 
people we can cram into the state leading into the census to 
bolster up our numbers.
    It is citizens who are choosing representatives. It is 
citizens those representatives are representing and, therefore, 
the apportionment ought to be tied to citizenship.
    Mr. Comer. Well, Dr. Eastman, you have done an excellent 
job explaining this issue that I think an overwhelming majority 
of Americans support. I appreciate your testimony and look 
forward to further questions.
    Madam Chair, I yield the balance of my time.
    Chairwoman Maloney. Thank you.
    The chair now recognizes Representative Norton.
    Ms. Norton. Thank you, Madam Chair, and this is an 
important hearing and I appreciate this hearing.
    I would like to approach this--my question from a 
constitutional basis, as I practiced constitutional law before 
I was elected to Congress.
    The Trump administration's attempt to exclude undocumented 
immigrants from the citizen count appears to me to be plainly 
unconstitutional.
    The language of the Constitution is pretty clear. Article 1 
Section 2 says that the apportionment of representatives shall 
be based on, quote, ``the actual enumeration of,'' and here are 
the words, ``the whole number of persons.'' Persons. I am 
underlining that.
    The Fourteenth Amendment says, ``Representatives shall be 
apportioned''--again, I am quoting--``among the several states 
according to their respective numbers, counting the whole 
number''--here again is that word--``of persons in each 
state.''
    Persons. I don't see citizens and I don't see any other 
word, such as voters. So, I really don't need to have taught 
Constitutional law the way I did.
    You don't need a law degree of any kind or a dictionary to 
go through the exercise I have just gone through. Whole number 
of persons in each state, every single person. Since most of 
you have been directors of the Census Bureau, for the record, I 
would like your answers to the following.
    Does--in your understanding, does the term ``whole number 
of persons'' in each state include undocumented immigrants 
living in the United States?
    Mr. Barabba?
    Mr. Barabba. Yes.
    Ms. Norton. Mr. Prewitt?
    Mr. Prewitt. Yes.
    Ms. Norton. Mr. Groves?
    Mr. Groves. Yes.
    Ms. Norton. Mr. Thompson?
    Mr. Thompson. Yes.
    Ms. Norton. I would like to ask each of you, based on your 
experience--your actual experience--a related question. During 
your tenure as director of the Census Bureau did you have any 
doubt that the Constitution requires the census count to 
include undocumented immigrants living in the United States?
    Mr. Barabba?
    Mr. Barabba. No, I did not have any doubts.
    Ms. Norton. Mr. Prewitt?
    Mr. Prewitt. No.
    Ms. Norton. Mr. Groves?
    Mr. Groves. No doubts.
    Ms. Norton. Mr. Thompson?
    Mr. Thompson. No doubts.
    Ms. Norton. Let me direct you--if the Trump administration 
had any doubts they might go to the Census's own website. Here 
is a question from that website--Bureau's website--entitled, 
Fighting 2020 Census Rumors. Setting the Record Straight.
    Question: Are noncitizens counted in the census? Answer: 
Yes, everyone counts. The 2020 census counts everyone living in 
the country including noncitizens. I put this on the record 
because anything this hearing--conclusions we come to should be 
based on just such documented evidence.
    The administration might also have looked at a letter sent 
to Congress from the Justice Department in 1989 when George H. 
W. Bush was president and Attorney General Bill Barr was the 
head of the department's Office of Legal Counsel.
    That letter affirms the department's--the Justice 
Department's conclusion that both the enumeration clause and 
the Fourteenth Amendment, quote, ``require''--and here I am 
quoting them--``the inhabitants of states who are illegal 
aliens to be included in the census.''
    Mr. Thompson, as the most recent Census director on this 
panel, could you briefly explain why you believe it is 
important that the census include everyone, every living 
person, in the United States, not just citizens or voters?
    Mr. Thompson. Certainly. So, the Census Bureau is charged 
with a very difficult task and that is counting everyone in the 
United States.
    The Census Bureau has no enforcement powers whatsoever. 
They are a statistical agency. So, they wouldn't even have the 
ability to try to ascertain someone's legal status or not legal 
status.
    Now, I might add, that if they tried to do that then they 
would produce counts that were seriously flawed.
    Ms. Norton. Thank you very much. Thank you, Madam Chair. I 
yield back.
    Chairwoman Maloney. The chair now recognizes Representative 
Gosar.
    Mr. Gosar. Thank you very much, Madam Chairman.
    Dr. Eastman, in your testimony and opinion piece you wrote 
in June of last year, you connected the citizenship question to 
the fundamental notion engrained in our system of government, 
the consent of the governed.
    Representation is based on such consent and this notion was 
confirmed in the Fourteenth Amendment, which excluded Indians 
not taxed because they were not part of the political body. You 
conclude then that citizenship is at the core of 
representation.
    However, in today's discussion, we are again addressing the 
question of whether we can allocate representation based on the 
known presence of millions of individuals who are not citizens.
    Question to you, do you feel that President Trump's 
memorandum calling for an apportionment count that tallies only 
the number of citizens and legal residents in a state is in 
line with the core founding tradition of the Fourteenth 
Amendment?
    Mr. Eastman. I do. Not only is it in line with it, I think 
it is compelled by it. The notion of consent of the governed 
requires that we apportion our representatives based on who is 
going to be governed, not on people who are here illegally or 
people who are temporarily visiting, or Indians not taxed. I 
think the Supreme Court's decision in Elk v. Wilkins is very 
clear.
    The reason that clause is there, Indians are not taxed or 
excluded from the count, is because they are not citizens. 
Well, the Indians not taxed right now are illegal immigrants or 
foreign nationals who are visiting this country that are not 
part of our body politic. The same principle applies.
    Mr. Gosar. That has a lot to do with application of our 
laws to the governed as well as trying to make sure that we are 
beholden to the country, would it not?
    Mr. Eastman. It does. Look, the very notion of consent of 
the governed is that a particular people decide on the kind of 
government they are going to have and who the representatives 
in that government are going to be to govern them in order to 
best secure the inalienable rights that they have from nature 
and nature's guide.
    It is not designed to give other people a voice. I mean, 
why have we spent the last three years concerned about Russia 
interference in our election if we think anybody from the world 
over ought to have a say in the choosing and the allotment of 
our representatives?
    The fact of the matter is it is the body politic, the 
particular people that choose our representatives to govern 
ourselves and to apply laws to other people while they are 
visiting here, but they are not the governing body. They are 
not the political regime.
    Mr. Gosar. Dr. Eastman, you actually heard the discussion 
from the gentlewoman from the District of Columbia. You know, 
she says that the--specifically that citizens are not 
enumerated. Can you address that?
    Mr. Eastman. Sure. So, it says counting the number of--
whole number of persons, but it says their representatives, and 
the ``their'' refers back to the people in the states, in the 
several states.
    ``The people'' refers back to the very opening language of 
the Constitution, ``We, the people of the United States,'' 
allotted according to the people in the states and it is those 
persons that we are going to count.
    We have never in our history counted every single 
individual who happens to be within the state at the time of 
the census. We have not counted visitors. We have not counted 
Indians not taxed. We have not counted diplomats.
    The principle of reason why we don't count such folks is 
they are not part of the people. They are not persons that form 
part of the people in the states that are the people of the 
United States.
    You can't read that one word in isolation, as she did. It 
is part of the larger language of Article 1 Section 2 as well 
as the Preamble and it is part of the principles that are set 
out in the Declaration of Independence tied back to the very 
notion of consent of the governed.
    Mr. Gosar. Thank you.
    Finally, Madam Chairwoman, I would like to express my 
concern with the actions of this body over the past several 
years. Partisan leadership has forced this committee to 
consider this simple question of having a person identify 
themselves as citizen on numerous times.
    However, we have only had a few hearings on the topic of 
issues like hard-to-count populations, an issue for my district 
and I am sure districts of several other members of this 
committee.
    This misdirection has forced this committee to deal with 
how we ask one question to non-Americans more so than how we 
ensure Americans in these hard-to-count populations so it can 
participate in the entire census, even though the majority 
constantly states its intentions to count every person.
    American voters and American tax dollars send us all to 
Washington, DC, to provide for and oversee the census. Yet, 
partisan leadership has neglected its true intention, which 
concerns members like myself who are focused on ensuring their 
constituents get their proper representation and protection 
from their Federal Government.
    Maybe we ought to entertain that if we are going to give 
another stimulus what we ought to do is ask that they fulfill 
filling out their census if you wanted to get everybody's vote. 
Maybe that is an incentive that we could go by.
    I yield back.
    Chairwoman Maloney. The chair now recognizes Representative 
Lynch.
    [No response.]
    Chairwoman Maloney. We now recognize Representative Cooper.
    Mr. Cooper. Thank you so much, Chairwoman Maloney, and also 
I would like to honor Delegate Norton. Your line of questioning 
has exposed the fact that for those not keeping score back home 
that virtually every living director of the census supports 
your view that the president has taken a unilateral and 
outrageous version of the Fourteenth Amendment, which is 
probably unconstitutional.
    You would think that a country as old and as distinguished 
as America would be able to reputably count its own citizens 
and follow the precedent established by every living Census 
director to count not only citizens but others such as 
undocumented people in each district.
    There are countless questions surrounding the census and an 
issue we are facing in my congressional district is this. I am 
told that outreach specialists, partnership specialists, will 
have their contracts terminated September 30 and that the 
census will continue until October 31.
    So, I would like to find out from the previous Census 
directors what effect this could have on the accuracy of the 
count when partnership specialists are terminated a month 
early, a month before the census has ended.
    I do not know the impact of this decision on enumerators 
themselves, but it would seem that partnership specialists 
would not have been hired unless they added some value to the 
process.
    So, I would like to hear from Mr. Prewitt, Mr. Groves, Mr. 
Barabba, and Mr. Thompson about the effect of this premature 
and early termination of census specialists on the accuracy of 
the count.
    Mr. Barabba. This is Mr. Barabba. Let me speak first.
    In fact, yesterday I talked to the individual who is 
responsible for the area in which I live and she was very 
concerned that we would be--her contract would be eliminated 
one month before the activity is completed.
    She had reached out to many, many organizations throughout 
the area and keeping in contact with them is important to the 
absolute completion of the census, particular in areas that we 
have in our district in our area like Salinas and other areas 
which have significant minority populations.
    Mr. Groves. Let me--this is Bob Groves. Let me just 
comment.
    If there is one piece of evidence that we have with great 
assurance it is that local community leaders that have the 
trust of diverse communities in their areas are key to the 
original response, the self-response, as well as the 
nonresponse followup stage.
    We know this from several decades of work. Any interference 
in their performance will affect the quality of the census and 
we should avoid it whenever possible.
    Mr. Cooper. Is it going too far to say that the----
    Mr. Prewitt. This is----
    Mr. Cooper. Go ahead.
    Mr. Prewitt. Sorry. Just one more
    [Inaudible] of this. We have a vast pro bono labor force 
out there trying to help us do the census. This was launched in 
the 2000 census.
    It had never existed before, and it is responsible for the 
fact that we have a self-response and a nonresponse of the 
people who don't respond. It is attributable to that crowd of 
people, and they are in the thousands, in the thousands.
    They are school teachers, they are union leaders, they are 
Chambers of Commerce leaders, in the thousands to help us do 
this census and they think their job is to count everyone.
    Mr. Cooper. What can communities do to prevent the 
termination of these partnership specialists or to, if need be, 
supplement or substitute the work of these specialists in that 
crucial month of October?
    Mr. Thompson?
    Mr. Barabba. I am not sure what communities could do but 
the Congress can certainly do something, and that is to make 
sure that the period is extended.
    Mr. Thompson. So, as my former colleagues have all said, a 
really important component of getting a complete count is 
getting--is getting the message out on the local level that the 
census is very important to your community and, very 
importantly, that the census is completely confidential, which 
is not a message that can go out from Washington.
    We started these programs in the 2000 census and we saw 
some dramatic decreases in the undercounts of various hard-to-
count populations.
    So, for the month of October, it is critical that local 
communities, local leaders keep getting those messages out 
about why the census is important to their community and that 
it is completely confidential. The census doesn't share 
information with anyone.
    Mr. Cooper. I thank the chair. I see that my time has 
expired.
    Chairwoman Maloney. The gentleman yields back.
    The chair now recognizes Congressman Jordan.
    [No response.]
    Chairwoman Maloney. Congresswoman Foxx?
    Ms. Foxx. Thank you, Madam Chair.
    Dr. Eastman, the president's memorandum notes the 
interpretation of the Fourteenth Amendment term, quote, 
``persons in each state,'' end quote, is subject to judgment. 
Leading up to each decennial census, the Census Bureau releases 
a detailed rule on determining residency for each decennial 
census count. Do you agree that the standard for residency is 
subject to judgment?
    Mr. Eastman. I do, and we have routinely altered that. We 
have included people who are long-term residents in the state 
but not short-term residents.
    We have included people who are no longer residents in a 
state but are abroad because of work or military service or 
what have you, and every census those parameters.
    Ms. Foxx. So, do you believe it is appropriate for 
residency criteria to change to exclude illegal aliens?
    Mr. Eastman. I do.
    Ms. Foxx. Mr. Thompson, when you were director you drafted 
the current residency rules for the 2020 census. Is that 
correct?
    Mr. Thompson. Yes, it is, Congresswoman.
    Ms. Foxx. So, it is fair to say that you support counting 
every person residing in the United States, legal or illegal. 
Is that correct?
    Mr. Thompson. That is correct.
    Ms. Foxx. OK. When you were director, did you support 
changing the rules for military residency?
    Mr. Thompson. I did.
    Ms. Foxx. So, let me understand this. There are many 
Americans who reside overseas including military personnel, yet 
they are enumerated as if they were residing in the United 
States.
    But they aren't residents because they are not present on 
April 1, 2020. So, using your logic, military personnel 
deployed abroad should be excluded. Is that correct?
    Mr. Thompson. No, ma'am. We did a lot of review of the 
previous census residence rules. We put them out in the Federal 
Register for comment, and based on a lot of input, we made the 
decision that we should count the overseas military in the 
United States.
    Ms. Foxx. OK. Well, that is absolutely the way it should 
be, in my opinion. But because we recognize these individuals 
are normally U.S. residents but were asked to serve abroad and 
will return when their short service is over.
    They are serving the country and deserve to be counted and 
represented. But their representation is diluted by illegal 
aliens being counted, even though they have broken our laws to 
come here.
    Mr. Thompson, another question for you. The 2020 census 
residency criteria changed how prison inmates are counted. For 
the 2020 census, prison inmates are enumerated at their prison, 
which is technically their residence on Census Day. Is this 
correct?
    Mr. Thompson. That is correct, and that is where they have 
been counted in most censuses.
    Ms. Foxx. OK. Well, it is very controversial because some 
people believe that they should be counted at their residence 
pre-incarceration because that is their normal residence, not 
the prison.
    Some people argue you are diluting the representation of 
inmates by counting them at their prisonsites. So, you believe, 
though, the prison inmates' representation is diluted--do you 
believe that it is diluted because of how the census enumerates 
their location?
    Mr. Thompson. So, the final decisions on where to count the 
prisoners were made after I actually left government service. 
But I support the Census Bureau's decision to count the 
prisoners where they are incarcerated.
    Ms. Foxx. So, you believe the fair representation of prison 
inmates. Why do you support the dilution of prison inmates and 
other citizens' constitutional representation by supporting the 
counting of illegal aliens?
    Mr. Thompson. Throughout my experience at the Census 
Bureau, which included 27 years as a career employee and then 
four years as a political appointee as director, I operate 
under the guidance that the census was the count everyone in 
the United States, regardless of status.
    Ms. Foxx. Thank you, Madam Chair. I yield back.
    Chairwoman Maloney. Thank you.
    We now recognize Congressman Lynch.
    Mr. Lynch. Can you hear me?
    Chairwoman Maloney. We can hear you.
    Mr. Lynch. Great. Well, thank you, Madam Chair, for holding 
this very important and very timely hearing, and I want to 
thank all of our witnesses as well.
    I would like to ask a question of Mr. Barabba, Mr. Groves, 
Mr. Thompson, and Mr. Prewitt. I notice that back in April you 
each signed a public letter supporting the Bureau's request to 
delay this process, and I think, Mr. Prewitt, you were quoted 
in one of the articles that I read.
    You said that, ``The truth is that the only thing in charge 
of this census right now is the virus, not the Bureau, not the 
president, and the virus will be in charge until it isn't.''
    Mr. Prewitt, would it be correct to say that the 
coronavirus presents an enormous challenge to the Census Bureau 
to conduct an accurate and timely count of the American people 
under these conditions?
    Mr. Prewitt. A huge, huge challenge, unprecedented.
    Mr. Lynch. Yes. Now, the reason that--I am assuming that 
the reason that you requested the delay was to give the Bureau 
more time. I mean, this is--this is the largest and most 
complex census ever conducted in this country.
    Then you add--and that is in normal times. Then you add in 
the pandemic and the limitation on the enumerators and people 
being hunkered down.
    I guess I am assuming that you all wrote that letter based 
on it being in the best interest of the country. Is that 
correct?
    Mr. Prewitt. Yes, sir.
    Mr. Barabba. Yes, sir.
    Mr. Groves. Yes, sir.
    Mr. Thompson. Yes, sir.
    Mr. Lynch. Now, this most recent memorandum that the 
president submitted last week directing the Census Bureau to 
take a whole different approach to this census, in the middle 
of the census, it seems to me that this new memorandum of 
questionable legality, really, will require the Bureau to 
dedicate considerable resources and a huge work around in light 
of the new memorandum. Would that be a correct assumption here?
    Mr. Prewitt. Yes.
    Mr. Barabba. It would.
    Mr. Groves. Yes.
    Mr. Thompson. Yes.
    Mr. Lynch. So, you have got this whole shift in resources, 
this redeployment, and a whole different program that has been 
put in as of last week directing the Census Bureau to change 
their plans, and yet--and yet on Monday the Census Bureau also 
posted on its website that despite this huge demand on 
resources that arose last week with the president's memorandum, 
the Census Bureau says that it is working toward this plan to 
complete the field data collection by October 31, 2020.
    Do you think it is feasible to dedicate all those resources 
to the object of the new memorandum and, yet, not have the 
accuracy of the census impacted?
    Mr. Prewitt. Right now, the Census, I believe, sir, is at 
risk of being inadequate to do the task it is charged to do, a 
serious risk. And I would like to take as much of the burden 
off of them as we can. That is operational burden, timing 
burden, and so forth.
    I was extremely disappointed when it turned out that they 
were not going to get the four-month extension going on into 
2021, which we were counting on and they were planning around 
that, and then suddenly there is a reversal on that decision.
    In my sense, the chances of having a census accurate enough 
to use is unclear. Very, very much unclear whether we will even 
have a census.
    That is why the debate about the illegals or undocumented 
is beside the point if we are not even going to have a census 
that we can take to the American people, and that is what I am 
worried about.
    Mr. Lynch. Thank you very much, Mr. Prewitt.
    Madam Chair, my time has expired and I yield back. Thank 
you.
    Chairwoman Maloney. Thank you.
    I now recognize Representative Palmer.
    Mr. Palmer. Thank you, Madam Chair.
    I have a couple of reports, one of which is from the Pew 
Research Center, about the transient nature of people who are 
here and are here unauthorized, here illegally.
    About 40 percent of the people who are here illegally are 
here--won't even be here for the next census. Given that, the 
transient status of millions of foreign residents in the U.S., 
doesn't it make it even more problematic to include 
unauthorized noncitizens, people who are here illegally and who 
are here temporarily, to be counted for apportionment, Dr. 
Eastman?
    Mr. Eastman. Yes, I agree, and I think it applies to legal 
temporary immigrants as well, people on temporary work visas or 
student visas.
    Mr. Palmer. Well, the point being----
    Mr. Eastman. It is a very transient population, yes.
    Mr. Palmer. Yes, sir. The point being is that these are not 
people who will be here to participate in our government in any 
form or fashion.
    I would like to also point out that 60 percent of the 
unauthorized immigrants, the people who are residing here 
illegally, reside in just 20 metro areas that are self-declared 
sanctuary cities, counties, or states.
    By violating Federal law by establishing themselves as 
sanctuaries for people here illegally, including some who have 
committed felonies, by the way, have these states created an 
advantage for themselves that could cause harm to states that 
aren't declared as sanctuaries?
    Dr. Eastman?
    Mr. Eastman. Yes. Yes, they do. Depending on the 
distribution of the illegal immigrant population, states that 
are encouraging illegal immigration stand to gain a large 
number of seats in the House of Representatives as well as 
votes in the Electoral College president----
    Mr. Palmer. Well, could that----
    Mr. Eastman [continuing]. To the detriment of other states.
    Mr. Palmer. Doesn't that create an incentive for certain 
states and certain places to declare themselves sanctuaries to 
give benefits, to give protection from prosecution for whatever 
crimes they might commit to increase the number of people in 
those areas to give them this advantage? I mean, isn't that a 
rational thing to do if you are already acting in contradiction 
to Federal law?
    Mr. Eastman. Well, it is rational in the short term, 
Representative Palmer, and not so much in the long term. But, 
you know, Alabama is likely to lose a seat in Congress and an 
electoral vote for president as a result of this kind of 
encouragement for illegal immigration to reside in certain 
states like California.
    Mr. Palmer. Well, speaking of rational, and I try to be 
rational. I try to be linear in my thinking so I start and 
follow evidence to where it might lead.
    Your points early on about the right to self-government 
resides with the citizens, not with noncitizens, whether they 
are here legally or illegally, and to make this point, we don't 
allow foreign citizens residing in the United States, whether 
they are here legally or illegally, to run for office, do we?
    Mr. Eastman. No, we don't.
    Mr. Palmer. OK. We don't allow people who are here from 
foreign countries, whether they are here legally or illegally, 
to make campaign contributions to U.S. candidates, do we?
    Mr. Eastman. No, we do not.
    Mr. Palmer. Presumably, we don't allow people who are here 
from foreign countries, whether they are here legally or 
illegally, to vote in our elections, do we?
    Mr. Eastman. It is illegal for them to vote, although we 
have got evidence that large numbers have voted.
    Mr. Palmer. That is why I say presumably.
    So, let me ask each of the other panelists. Are those laws 
fair?
    Mr. Prewitt--Dr. Prewitt, are those laws fair? Should we 
allow foreign citizens to run for office, to make financial 
contributions to candidates, or to vote in our elections? It is 
a yes or no.
    Mr. Prewitt. Let me just--I am sorry. You are asking me a 
question?
    Mr. Palmer. No. No. It is a yes or no. Do we--should we 
allow foreign citizens to run for office, should we allow 
foreign citizens to make campaign contributions, should we 
allow them to vote in our elections whether they here legally 
or illegally? It is a yes or no. Your silence is----
    Mr. Prewitt. That is what the law is now and I agree with 
the law.
    Mr. Palmer. OK. That is a great legal answer.
    Mr. Thompson, yes or no?
    Mr. Thompson. I agree with the laws in the United States.
    Mr. Palmer. That is a--you agree that we shouldn't allow 
that.
    Dr. Eastman, I think I know your answer but give me a quick 
answer, yes or no.
    Mr. Eastman. Yes, absolutely.
    Mr. Palmer. All right. If that is the case, why in the 
world would we think it should be legal to allow people who are 
here illegally or legally to be counted for apportionment to 
influence our government when close to 40 percent of them won't 
even be here for the next census? Can you answer that? It 
doesn't make sense, does it?
    Mr. Eastman. Yes, I don't--it doesn't make sense and I 
don't think it is consistent with the theory and the text of 
the Constitution either.
    Mr. Palmer. I thank the gentlemen. I yield back.
    Madam Chairman, I would like to enter these documents into 
the official record.
    Chairwoman Maloney. May I see what the documents are?
    Mr. Palmer. Yes, ma'am. They are documents from the Pew 
Research Center and one of them is from the Migration 
Population Institute located here in Washington, DC.
    Chairwoman Maloney. OK. Without objection.
    Mr. Palmer. I thank the chairwoman and I yield back.
    Chairwoman Maloney. I now recognize Representative 
Connolly.
    Mr. Connolly. Thank you, Madam Chairman, and thank you for 
your long leadership on trying to preserve an accurate census 
and a fair and transparent process associated with it. Your 
leadership has meant a great deal and has served our country 
well. Thank you.
    I must say, listening to this discussion, Dr. Eastman would 
be apparently very happy with the decision of Roger Taney and 
the Supreme Court that ruled on Dred Scott because in that 
decision they decided that no African American, free or slave, 
was a citizen of the United States deserving of any of the 
privileges of white people.
    But that is actually the language of the ruling and, 
therefore, no blacks would have been counted in the census and 
we would have had millions of Americans declared noncitizens, 
under Dr. Eastman's logic, not counted in a census and we would 
have had no picture of America, especially south--at the 
southern part of America in terms of the actual demographics 
just how tolerable the numbers were of African Americans per 
the Constitution were singled out to be counted as three-fifths 
of a person for the purpose of census which, by the way, 
inflated the numbers of southern representation to the Congress 
at the time.
    You know, immigrants throughout American history have been 
subject to this kind of smear and innuendo we have been 
listening to. You know, they are all criminals. They are all 
trying to cheat. States are using them to inflate their 
numbers.
    You know, there were movements in the 19th century, the 
Know Nothing Party, to ban them, to deny them the vote. Irish 
immigrants--there was a big movement in New York in the mid-
19th century to deny Irish immigrants the right to vote because 
they were illiterate, they were ignorant, they worshipped a 
foreign religion.
    They weren't really Americans. This kind of nativism, this 
kind of bigotry, frankly, has no place in the carrying out of 
the census.
    The language of the Constitution--and for a crowd that 
talks about originalism, well, the language is clear. It says 
persons. It doesn't say citizens. It says persons.
    It wants to get a feel how many people are here at a given 
time. How many people are residing in the United States of 
America. Not what their future intentions are, not what their 
status is.
    Are they residing here, for the purpose of understanding 
the population of the United States at any given time, and that 
is how the census has been carried out.
    Let me ask Mr. Prewitt, and all of the former directors 
could answer this as well. Have we ever adopted, to your 
knowledge, in the carrying out of the census in modern times a 
selective process of not enumerating certain individuals 
because of their status?
    Mr. Prewitt. No, sir.
    Mr. Barabba. Not to my knowledge.
    Mr. Connolly. Mr. Groves?
    Mr. Groves?
    [No response.]
    Mr. Connolly. Mr. Thompson?
    Mr. Thompson. None.
    Mr. Connolly. And why do you think we need to have account 
of the people, the persons, residing in the United States? Why 
is that important? Why isn't Dr. Eastman right--let us only 
count citizens--full-blooded American citizens and nobody else?
    Mr. Prewitt. My quick answer on that is they--they are 
paying taxes if they put gasoline in their car. They are paying 
property taxes if they live someplace. That is, they are 
functioning as people living in a country and, more than that, 
that you have a really difficult, difficult situation to 
uncount from.
    I don't think the under members of the committee have paid 
enough attention to my first point. We do not know--the Census 
Bureau does not know how to do what the president is asking 
them to do and it is going to hurt the census and, therefore, 
we are at risk of not having the census in 2020.
    Mr. Connolly. Mr. Thompson, is it--is it the case that, for 
example, throughout American history this is what we have done?
    We counted immigrants whether they were citizens or not in 
the 19th century at the turn of the 20th century as well as 
currently. Isn't that the case?
    Mr. Thompson. That is the case.
    Mr. Connolly. Yes. So, this--what Dr. Eastman is 
propounding sounds reasonable except it would fly in the face 
of over 200 years of practice and American history and, in my 
view, would flaunt the actual words of the Constitution of the 
United States.
    Thank you. I yield back.
    Chairwoman Maloney. Thank you.
    The chair now recognizes Representative Roy.
    Mr. Roy. Madam Chairman, before I start, may I ask which of 
the experts remain available for response?
    Chairwoman Maloney. I believe--I believe Mr. Groves had an 
appointment at 11 and had to leave but the rest are there.
    Mr. Roy. So, Mr. Barabba, Prewitt, and Thompson are all 
available?
    Chairwoman Maloney. Yes. Yes.
    Mr. Roy. OK. Thank you. Sorry.
    Mr. Eastman, let me ask you just a quick question about the 
law. If I recall correctly, there was a case in which Justice 
Thomas in 2001 in dissent clarified that there was a split in 
the circuits and a split in the law, Ninth Circuit versus the 
Fourth and the Fifth, as to what the court's position would be 
on the question at hand, on apportionment and what we are 
talking about.
    Is that true and would you expound on that? Very briefly, 
because I need to move on.
    Mr. Eastman. Yes. So, it was a case out of Hawaii that was 
dealt with. They wanted to apportion locally based on citizen 
population rather than total population. The court upheld that 
and there was language in it that strongly suggested such was 
compelled by the notion of representative government.
    Judge Kozinski on the Ninth Circuit specifically said that 
even though the decision doesn't absolutely require that 
technically, the logic of it compels it and I think that is 
right.
    If I could go back. Representative Connolly, I know you are 
protected by the speech and debate clause, but that doesn't 
mean I should not respond to the slanderous statement you made.
    I do not defend Judge Taney's decision in Dred Scott. In 
fact, I am a vigorous defender of the dissenting opinions in 
that. It was an absolutely wrong decision. African Americans 
were treated as citizens in this country and Taney was wrong.
    I will not let you get away with the slander just because 
you are protected by the speech and debate clause.
    Mr. Roy. Well, Professor, I was going to give you an 
opportunity to respond. I am glad you did. I was going to ask 
you that question. I thought it was irresponsible of my 
colleague to ask a question along those lines and I am glad 
that you responded.
    It was not appropriate to direct that toward you on a very 
debatable question, a very real question, and at a bare minimum 
we can all agree that there is a split in the jurisprudence or 
a difference of opinion in the jurisprudence on whether or not 
apportionment should be accounted for in the way we are 
discussing, and that this is a live question and that 
citizenship, in fact, matters.
    The citizenship must matter. If we are to be a nation of 
laws and if we are going to have citizens vote, citizens 
running for office, that we should have a robust debate and 
discussion and that, frankly, this body, this Congress, ought 
to act.
    My colleagues on the other side of the aisle spent last 
year fighting every ounce of effort on the part of this 
administration or this body and Republicans in this body to try 
to ask a question, a simple question, on the census as to 
whether or not you are a citizen or not.
    The vast majority of Americans recognize that that is an 
important question to ask. But I would just say again to the 
professor we agree. At a bare minimum, there is a split in the 
jurisprudence on this question. Is that correct?
    Mr. Eastman. That is correct.
    Mr. Roy. Thank you.
    A question here for Mr. Barabba, Prewitt, or Thompson, and 
I am going to go through a few things because I have a limited 
time here, and then I just want to get your yes or no on 
whether I am characterizing this appropriately.
    My understanding of the way the census counts is that we 
have something called count imputation and that we have 
something called characteristic imputation, and that in count 
imputation we have status count imputation, we have occupancy 
count imputation, and we have household size count imputation.
    What does this mean for the average listener? It means that 
we make stuff up. It means that we have situations where we 
literally have an address, we can't find the house, and we 
impute to that address the--or I would say the count of a house 
nearby.
    It means that we go through an occupancy and say, well, we 
find the house and there is somebody there but we can't find 
them. So, we just say well, you know what, the next-door 
neighbor there is five white people in that house so we are 
just going to put five white people in this house. Or that we 
have household size imputation that says well, we don't know 
how many numbers in it.
    Well, we don't know if it is one or two or three but we are 
just going to guess that it is five or ten based on who is next 
door. And that, in fact, we have characteristic imputation 
where we go into race and characteristics, and that this is a 
reality of what our Census Bureau does in order to achieve 
numbers.
    Now, that is what is actually going on. Now, there is a 
whole another thing where we have the community survey, the 
ACS, and I would ask Mr. Eastman, if you would jump in here 
real quick, is it not correct that the ACS is used and that the 
court acknowledges that it is appropriate for it to use those 
estimates and sampling for purposes of the application of the 
Voting Rights Act?
    Mr. Eastman. Yes, that is correct.
    Mr. Roy. So, my question here would be would it not, 
therefore, of course, be appropriate to use, if you are a 
state, for redistricting purposes, not apportionment?
    Let me just ask this question--for redistricting purposes 
the same data if you are going to use it for the Voting Rights 
Act?
    Mr. Eastman. Yes, absolutely, and it is more current 
because it is taken every year instead of just the decennial 
census.
    Mr. Roy. You should use the ACS in this case. If we are 
going to be doing apportionment you can use the ACS for 
apportionment?
    Mr. Eastman. I believe we could, certainly, to coincide 
with the census.
    Mr. Roy. So, my question to the former directors of the 
Census Bureau, am I incorrect that the Census Bureau does in 
fact have to fill holes and make assumptions on data when they 
go house to house when they get into this and that imputation 
is a way that the Census Bureau does that? Just a yes or no, 
and then I will finish my questions, Madam Chair.
    Mr. Thompson?
    Mr. Thompson. Thank you for unmuting me. The Census Bureau 
has used a technique called count imputation because if they 
don't do anything that means they are assuming everything is 
vacant or nonexistent, which isn't the case either.
    Mr. Roy. Mr. Prewitt?
    Mr. Prewitt. Yes, it is a longstanding practice. It is used 
as rare as possible. You would much rather get a direct 
response. But we don't always get direct responses and we don't 
do--just say, oh well, that is too bad, we will just have to 
go. These are well established technical statistical processes 
that have given us a more complete census than we would 
otherwise have.
    Mr. Roy. Thank you, sir. Then Mr. Barabba and then I am 
done, Madam Chairwoman.
    Mr. Barabba. I concur with my colleagues' comments.
    Mr. Roy. Thank you all.
    Chairwoman Maloney. Thank you.
    We now recognize Congressman Raskin.
    Mr. Raskin. Madam Chair, thank you very much. Thanks for 
calling this super important hearing, and it is really 
wonderful to hear all of the prior Census directors who 
converge around a very simple conclusion, which is that the 
president's proposal is a radical break from history and a 
radical break from the text of the Constitution, a radical 
break from the structure and the spirit and the meaning of the 
Constitution.
    So, basically, every methodology we have for interpreting 
what the Constitution means supports the proposition that we 
have been doing it right for more than two centuries. That is, 
we have been counting everybody. That is the way we have done 
it.
    There is no reason to overthrow that right now and what we 
are getting, really, from the administration is a whole series 
of attacks on the election, attack on mail-in balloting, the 
president threatening not to observe the final results of the 
election if he doesn't like it, and so on. This is all part of 
kind of a anticipatory temper tantrum by the president.
    I wanted to correct a couple of things that were floating 
out there, specifically about voting and citizenship, and there 
seemed to be this false equation between voting and 
citizenship.
    The Supreme Court has been very clear that they don't imply 
one another. There are, obviously, large categories of people 
who are citizens who can't vote, starting with children, and 
historically the vast majority of citizens couldn't vote 
because women couldn't vote as well as children, as well as 
people who weren't land owners or property owners.
    Conversely, there were lots of people who could vote who 
were not citizens for the vast majority of American history, 
and even today there are lots of municipalities and localities 
which allow people to vote without regard to citizenship in 
local elections.
    But the way that it--the way that it existed through the 
18th and 19th and, really, up to the early 20th century was 
that what mattered was race qualifications, gender 
qualifications, property and wealth qualifications for voting, 
and if you were a Christian white male property owners, it 
didn't make any difference what your, quote, ``citizenship'' 
was, and that was a confusing concept anyway for more than a 
century whether that was determined at the state level or the 
Federal level. We didn't have these kind of rigid ideas about 
citizenship that are being propounded right now.
    So, that was a conservative position having to do with land 
ownership and property ownership and race and gender for a very 
long time. It wasn't until we started getting immigrants coming 
in from southern Europe and other places that that turned 
around.
    But you should go back and check out the history leading up 
to the Civil War and the admission of Kansas and Nebraska and a 
number of the other states there because it was the Republican 
Party which was the great champion of alien suffrage in 
America, and the advocate of the idea that if you would be 
willing to move out to the Midwestern and the Western states 
you should be allowed to vote before you became a citizen.
    That was Lincoln's position. That was the position of the 
Republican Party. It was the South's position that there were 
all these radical immigrants coming over from Europe bringing 
anti-slavery ideas that they should--it was their position that 
they shouldn't be included for that reason.
    In fact, if you look at Article 1 of the Confederate 
Constitution of the United States it says that you must be a 
citizen of the Confederacy in order to vote, something that we 
don't have in the U.S. Constitution, which is why noncitizens 
could vote for most of our history and in lots of cities and, 
indeed, in corporations.
    I wonder if the position on the other side is that you need 
to be a citizen of the United States in order to be a member of 
a corporate board of directors and to vote in a corporation in 
America or to own stock in America. I mean, that would be a 
really startling position. But it seems to flow from what they 
are saying.
    Let me just ask, I got curious about this whole question of 
the Indians not taxed that was repeated so joyfully by one of 
the witnesses, and I wonder, Mr. Prewitt, if I could come to 
you.
    What is the situation today of Indians not taxed? 
Certainly, there are children who are Native Americans who are 
not taxed but also adults who are not paying taxes. Are they 
counted today as part of the census despite the constitutional 
tax?
    Mr. Prewitt. Yes, they are.
    Mr. Raskin. Huh. OK. That is interesting.
    Let me ask another question of you, Mr. Prewitt. If we were 
actually to go ahead and adopt the president's proposal and now 
we see why, of course, they were pushing for their citizenship 
question, which was struck down by the Supreme Court as lawless 
and a violation of the whole Administrative Procedures Act. But 
now we know why they were doing it.
    But if we were to go ahead with this, how would they 
actually--since we don't know who is a citizen and who is not a 
citizen, how would they go ahead and try to make that work?
    Mr. Prewitt. In my judgment, there is no way. This is what 
worries me about this initiative. The expert on administrative 
records at the Census Bureau for many, many years and I will 
now quote her--she is now at Georgetown University. ``To 
produce a good number, that is, a good number separating out 
the documented from the undocumented, you need to be able to 
draw a clear line between the two categories. But that sharp 
definition doesn't exist in the administrative records 
available to the Census Bureau.''
    This is an article in Science Magazine just published 
yesterday. So, we are all anxious about this initiative, not 
because of the arguments that are being made about so forth and 
so on. It is what it is going to do to the census itself in 
2020. And, look, if we don't come up closer to 100 percent than 
we are now coming----
    Mr. Raskin. Yes.
    Mr. Prewitt [continuing]. Then we are in trouble.
    Mr. Raskin. So, Madam Chair, just to conclude, it is not 
only unrooted in the text of the Constitution an impractical 
but it is a danger to having the real census counted and 
completed.
    Thank you very much for your indulgence, Madam Chair. I 
yield back to you.
    Chairwoman Maloney. Congressman Hice?
    Congressman Hice? He is online.
    You need to unmute yourself, Congressman Hice.
    Mr. Hice. OK. All right.
    Chairwoman Maloney. OK. Great.
    Mr. Hice. Thank you, Madam Chair.
    I want to thank all our witnesses for being here today. 
Unfortunately, I think it is, largely, a waste of your time as 
yet again it is for ours. I mean, we continue not doing our job 
of oversight and in this case specifically as it relates to the 
census.
    We have--here we are four months into the census and this 
is the first time we have had a hearing about it. We have 
only--so 120 days into this we are just now getting around to 
it, and as Mr. Prewitt shared a little earlier, we may not even 
have a census this go around because of the pandemic and other 
issues.
    Yet, the irresponsibility of this committee to do proper 
oversight, this is the only third committee hearing--full 
committee hearing--of the year for my count, and it is just 
unacceptable that my colleagues have been willing to show up 
for work as we have done in the Republican Party.
    Perhaps we would be able to continue our oversight, and to 
somehow think now that we are engaged in an emergency over this 
and even in this emergency hearing we are still not providing 
oversight as to what is happening with the census is 
unthinkable to me and highly irresponsible.
    I would ask the chair if we could get back to the order of 
what this committee is supposed to be involved with. But as it 
relates to right now, to, again, somehow think that it is 
unreasonable or unconstitutional for us as a nation to have the 
number of citizens who are in the country as well as the total 
number of people in this country is just unthinkable to me.
    That this is somehow a radical break for us to know the 
number of citizens as well as noncitizens is, in itself, an 
absurd way of thinking about all of this, to me. But here, 
nonetheless, we are.
    Dr. Eastman, I appreciate the testimony that you have given 
and the answers you have given. I know this has already been 
covered but I think it is worth reiterating again. Is the 
president within his authority to direct a memorandum to the 
Census Bureau?
    Mr. Eastman. I believe he is, and I think the Supreme 
Court's decision in the Franklin v. Massachusetts supports 
that.
    Mr. Hice. Likewise, he is within his authority to ask the 
Bureau to send him an apportionment count that includes 
citizens and legal residents. Is that correct?
    Mr. Eastman. That is correct.
    Mr. Hice. OK. And just reiterate, again, why this is so 
important that we have a count of citizens, not just--illegals 
as well? I mean, we need to know. I am fine if we want to know 
the total number here. But the critical aspect is knowing the 
citizens. Again, emphasize why that is the case.
    Mr. Eastman. The importance of knowing the citizens and 
apportioning according to the citizen distribution is because 
it is the citizens that control that government. It is not 
foreigners that control our government. That is one of the most 
basic premises of the consent of the governed principles set 
out in the Declaration of Independence.
    Mr. Hice. Absolutely. I mean, I don't see what is so 
complicated about this. It is illegal for a noncitizen to vote. 
It is illegal for them to be involved in our political process.
    Yet, now, for all practical purposes, we have a political 
class, a political party, that is determined to give citizens 
of foreign countries the right to vote in our Federal 
elections, to be involved in impacting our Federal elections.
    This whole thing, to me, ought to be deeply troubling and, 
at worst, it should be seen as election interference. For us to 
enable or fight on behalf of individuals who are illegally in 
this country to impact the voting power of the citizens in this 
country is
    [Inaudible]
    Quite frankly, if you look back--I don't know, Dr. Eastman, 
if you caught any of the D.C. Statehood debate that we had 
around here. But it is the same thing then as it is now. It is 
all about gaining and strengthening political power for the 
Democratic Party.
    It shrugs off all norms. It shrugs off common sense. It 
shrugs off the law in itself, and I would just thank you again, 
for you testimony here today and I would implore my colleagues 
on the other side to end these showboat hearings and let us get 
back to the work of good census oversight.
    With that, Madam Chair, I yield back.
    Chairwoman Maloney. Well, I thank the gentleman for his 
testimony, and I would just like to respond to his attack.
    I read the president's census memo carefully and I believe 
that it is blatantly unconstitutional and that complying with 
his memo would violate Federal law. That is why we called this 
important hearing, and I would like to say you don't have to 
take----
    Mr. Hice. Madam Chairwoman is certainly entitled to her 
opinion.
    Chairwoman Maloney. Sir, may--I did not interrupt you. May 
I complete?
    You do not have to take my word for it. All four of--four 
former Census directors that served both Republican and 
Democratic presidents said that they also believe that the 
president's memo appears to violate the Constitution and 
existing law.
    So, this is serious, and I now recognize Congressman Rouda.
    Mr. Rouda. Thank you, Madam Chair.
    It must be exhausting for Republicans when the president 
tweets out lies and you are forced to defend it. It must be 
exhausting to be a Republican when the president of the United 
States holds a press conference and sells snake oil salesmen 
cures for the coronavirus.
    It must be extremely exhausting to come in here and defend 
the president of the United States when he takes 
unconstitutional actions such as he has done here.
    Candidly, I feel sorry for you. I feel sorry that members 
of the House of Representatives of the United States of America 
are afraid to speak their mind, to speak the opinions that they 
hold, to speak the truth that they know in their hearts and 
their mind and defend this president at all costs. Defending 
the indefensible.
    It seems that the primary argument that has been stated, as 
Representative Raskin pointed out, at least a half dozen times 
in this hearing is that Indians not taxed were not counted.
    The utter stupidity in that statement lies in the fact that 
undocumented immigrants last year, according to the Internal 
Revenue Service, paid $9 billion in payroll taxes. According to 
the Internal Revenue Service, undocumented immigrants paid $12 
billion in Social Security benefits more than they received.
    And according to the Institute of Taxation and Economic 
Policy, undocumented immigrants paid $12 billion in state and 
local coffers.
    Yet, here we are. Here we sit today because of this 
memorandum by this president telling us clearly what is most 
important to this president. Yet, we sit here today, 140,000 of 
our fellow Americans are dead.
    Tens of thousands more Americans will die in the coming 
months because of the utter lack of leadership by this 
president. The economic collapse of our country is unfolding 
before our eyes because a president is unwilling to do what is 
necessary as the leader of the United States to ensure that we 
take the actions we need to take to protect Americans, and tens 
of millions Americans are out of work, struggling to figure out 
how to pay rent, pay the mortgage, pay medical bills, and put 
food on the table for their families.
    Yet, here we are today because of this president showing us 
and the minions that follow him what is important to them. Not 
as a Democrat, not as a former Republican, but as an American. 
We are better than this.
    I yield back.
    Chairwoman Maloney. Thank you.
    I now recognize Representative Green.
    Mr. Green. Thank you, Chairwoman and Ranking Member, and 
thanks to our witnesses.
    The right to vote is sacred. As Americans, we are blessed 
to live in a country that respects the time-honored tradition 
of one person one vote. Wars have been fought, marches have 
been led, blood, sweat and tears have been shed defending and 
advancing this fundamental right.
    Unfortunately, Democrats are attacking this very right and 
are trying to disenfranchise American citizens in order to gain 
more power. Some states, such as California, have already 
flirted with openly allowing illegal immigrants to vote in 
state and local elections.
    Currently, in California you can register to vote online. 
All they require is you check a box certifying that you are a 
U.S. citizen and you either provide a Social Security number or 
a California driver's license. But remember, driver's license, 
which they also grant to illegal immigrants.
    Disturbingly, the L.A. Times reported that over 1 million 
illegal immigrants had driver's license in California and that 
was 2018. The fact is today's Democrat Party leadership, they 
don't care about one person one vote.
    They care about obtaining power at any cost, even if they 
have to attack the very foundation of our republic, American 
citizenship, and the right to vote. Now Democrats are 
continuing their offensive on the Constitution by attacking the 
2020 census.
    They have managed to politicize every step in the census 
process, even criticizing President Trump for trying to include 
a citizenship question. Moreover, Democrats are ignoring 
history and the rule of law. The citizenship question has been 
included on most censuses from 1820 to 1950 and as recently as 
2000.
    Additionally, the Supreme Court ruled in 2019 the questions 
inclusive is--inclusion is perfectly legal. Despite this, the 
Democrat shenanigans managed to get the question removed by 
default since it was too late to add the question before the 
surveys were printed.
    The citizenship question, when used to determine 
apportionment, is a simple manner of fairness and common sense. 
American citizens have certain rights that noncitizens do not 
have, the most fundamental of which is the right to choose our 
leaders.
    Democrats are eager to cry foreign interference when it 
comes to the Russian hoax. But if we count illegal immigrants 
in apportionment, particularly those new to our country, how is 
that not foreign interference?
    I guess all Russia has to do is send a few thousand people 
across our porous southern border into California and they get 
an extra vote in Congress.
    How is continuing illegal immigrants--counting illegal 
immigrants in the census or in the apportionment process not an 
assault on the fundamental rights of every American citizen?
    I would like to ask my Democrat colleagues if an illegal 
immigrant can vote, then what is the point in citizenship? Why 
not have France just vote in our elections? What is the point 
of our legal immigration system?
    There is no escaping the fact that including illegal 
immigrants in the apportionment process dilutes the vote of 
every single American citizen.
    Not only is it unfair, it creates an incentive for states 
to accept more illegal immigrations. Authors Hans von Spakovsky 
and Mike Gonzalez have written including illegal immigrants in 
the apportionment process, quote, ``perversely incentivizes 
states to encourage more illegal immigration in violation of 
U.S. laws and the well being of American citizens, all in order 
to gain more congressional representation. Simply put, those 
here illegally should have no say in electing America's 
leaders,'' end quote.
    Make no mistake. The Democrats are simply grabbing power at 
the expense of the American people again. The Democrats have 
actually made the point of the unfairness of counting illegal 
immigrants for apportionment in this committee today.
    Many of the Democrat members have asked in survey fashion a 
series of questions of each of our witnesses. The answer: yes, 
no, yes, yes, each time. The problem is this. It is a biased 
sample.
    They allowed us one witness and they provided three 
witnesses who share their opinion. It is unfair. It is biased 
and it is exactly what we will get if we count illegal 
immigrants in apportionment.
    It will misrepresent the votes of Americans in states that 
abide by our laws. The assertion that the opinion of the Census 
directors is somehow reflective of the people of America is 
absurd. They are three voices out of 330 million people. Their 
opinion counts three out of 330 million.
    Rather than helping to get the Census Bureau an accurate 
count during a very difficult time with the pandemic, Democrats 
are further throwing a wrench in the process by coupling 
statutory relief with the census poison pill provisions.
    It is shameful. But it all goes to show you the truth. 
Democrats are more about power than they are about the 
integrity of our elections or the fundamental right of every 
American citizen.
    Thank you, Chairman, and I yield.
    Chairwoman Maloney. I thank the gentleman for his 
testimony, and I do want to point out that the Census Bureau is 
not asking people about the citizenship status on the 2020 
census, which the Trump administration wanted it to do.
    They tried to do that. But this was struck down by the 
Supreme Court of the United States of America. So, the 
citizenship question was removed.
    I now recognize Debbie Wasserman Schultz, Representative 
Schultz, from the great state of Florida.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    I am going to present some inconvenient facts that really 
fly in the fact of the ridiculous argument that was just made 
by the gentleman who previously spoke, and that is that in the 
section from census.gov labeled the importance of 
apportionment, it reads, ``Article 1 Section 2 of the U.S. 
Constitution mandates that an apportionment of representatives 
among the states must be carried out every 10 years.''
    Therefore, apportionment is the original legal purpose of 
the decennial census, as intended by our Nation's Founders. 
Apportionment is the process of dividing the 435 membership 
seats in the U.S. House of Representatives among the 50 states 
based on the state population counts that result from each 
decennial census.
    The apportionment results will be the first data published 
from the 2020 census and those results will determine the 
amount of political representation each state will have in 
Congress for the next 10 years.
    Not only does the Constitution not qualify what type of 
person or category of individual will be counted for 
apportionment, the Trump administration's own Census Bureau 
specifically leaves out any reference to categorizing the type 
of individual that we are counting and whether or not they will 
count toward apportionment.
    The Founding Fathers intended that everyone living in the 
United States other than originally counting slaves, 
tragically, as three-fifths of a person should be counted for 
the decennial census specifically for apportionment. That is in 
the Constitution, too.
    So, what is going on here is that the U.S. Supreme Court 
scuttled the administration's bigoted plans to try to 
intimidate people who are not citizens from answering the 
census and, thus, being able to be counted and counted for 
apportionment purposes and instead are trying to back door the 
citizenship question by using an executive order to not count 
those who are not citizens in apportionment.
    It is not constitutional, it is not legal, and it is 
transparent in its, really, venomous political intent.
    My question is that we have a number of--a number of 
experts here and I want to just go through a couple of key 
facts. This committee's investigation showed that the likely 
reason for the citizenship question was electoral politics.
    I would like to ask Mr. Barabba do you agree that the 
policies proposed by President Trump's memo last week to 
exclude undocumented immigrants from the apportionment count 
are consistent with the real objective for the proposed 
citizenship question?
    That was for Mr. Barabba. Did you hear the question?
    Mr. Barabba. I did not hear my name. I am sorry.
    Ms. Wasserman Schultz. That is OK.
    Mr. Barabba. Would you repeat the question, please?
    Ms. Wasserman Schultz. So, Madam Chair, if I can have a few 
additional seconds to make sure I don't lose my time.
    Do you agree that the policies proposed by President 
Trump's memo last week to exclude undocumented immigrants from 
the apportionment count are consistent with what their real 
objective was in originally proposing the citizenship question?
    Mr. Barabba. I believe what he is trying to do is to have 
an effect on the outcome of the apportionment process to his 
favor.
    Ms. Wasserman Schultz. Could you be a little more specific?
    Mr. Barabba. Well, if you count fewer people
    [Inaudible] as I pointed out in my testimony, who are low 
income, they are more likely to be people who do not vote for 
the president because of his positions.
    Ms. Wasserman Schultz. Mr. Prewitt, can you explain why 
fears in the immigrant community about the census would depress 
response rates and, ultimately, lead to a less accurate census 
count?
    Mr. Prewitt. Yes, because they are afraid that the answers 
will be used against them as the--it was, unfortunately, 
produced in the 1941 period with the Japanese American 60 years 
ago.
    We are still talking about that. It cast a very long shadow 
over the census, and what we are going through now will cast 
another very long shadow. If they are afraid that it will be 
used against them, as a group, then they have a reason to sort 
of dodge it and not respond to it and hide out.
    Ms. Wasserman Schultz. Thank you.
    Mr. Thompson, after the issuance of this recent memorandum, 
it really is even harder to escape the conclusion that the 
Trump administration is attempting to manipulate the census 
count for political purposes. If this behavior is normalized, 
what impact do you think this will have for the future of our 
democracy and ensuring an accurate count in the decennial 
census?
    Mr. Thompson. So, that is an excellent question, 
Congresswoman. It is incredibly important that the census be 
viewed as a nonpolitical objective enterprise because it is the 
foundation, one of the cornerstones, of our democracy and 
perceptions that it is being politicized, as Dr. Prewitt said, 
will have a long, long lifespan and it will make it very 
difficult to take not only this census but censuses in the 
future.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    I yield back the balance of my time.
    Chairwoman Maloney. Thank you.
    We now recognize Representative Higgins by remote. He is 
online.
    Representative Higgins?
    Mr. Higgins. Madam Chair----
    Chairwoman Maloney. Thank you.
    Mr. Higgins. Thank you, Madam Chair.
    This type of anti-American rhetoric that I am hearing from 
my colleagues across the aisle today is exactly why regular 
American patriots don't like politicians and don't trust the 
government. What are the Democrats trying to hide right now? 
This is the number-one thing. This is the major point that is 
incredibly clear.
    Across America, from sea to shining sea, by hard-working 
American citizens, voting rights in America and congressional 
representation in America belong to American citizens, period.
    Our nation's fabric has changed through the generation. The 
census is conducted primarily for apportionment every 10 years. 
This is a--this is a challenge that has evolved and changed 
over the course of time, and what we now face is the very clear 
fact that illegal residents of our country or illegal occupiers 
of our country have significantly affected representation.
    What are the Democrats hiding? Illegals interfere with our 
republic when it comes to congressional apportionment and 
voting.
    President Trump's new policy would restore congressional 
representation to its rightful owners, the citizens of America. 
What are the Democrats hiding? Why would we not want to know 
how many citizens versus noncitizens are in our country?
    I will tell you why. America, I hope you are paying 
attention. Estimates range from 12 million to 25 million 
illegal aliens in this country. That is 700,000 constituents 
per congressional district. That is 17 to 35 congressional 
districts that can be swayed by illegal aliens within our 
country.
    The 115th Congress majority
    [Inaudible] Republican majority was 47. The 116th Congress 
the Democrats hold a 34-vote majority. The reality is that 
illegal aliens present in our country, if counted for 
apportionment, actually do shift the balance of one man one 
vote away from densities of population of American citizens 
toward densities of population of illegal immigrants.
    My colleagues across the aisle don't want America to know 
that, but I do, because we prefer to speak the truth, and I--
and I take offense to some of the language that has been used 
toward myself and my colleagues by the gentleman prior.
    You don't know our heart, sir--good sir. You calling us 
minions and other things. You are wrong for that and you know 
it. America is watching and they know it.
    Mr. Eastman, you are a constitutional scholar, are you not, 
good sir?
    Mr. Eastman, please unmute yourself.
    Mr. Eastman.
    [Inaudible] unmute.
    Mr. Higgins. My question was are you a constitutional 
scholar, sir?
    Madame Chair, I would like this time observed.
    Mr. Eastman. Let us try again. Can you hear me now?
    Mr. Higgins. Yes, sir. Mr. Eastman, my question was are you 
a constitutional scholar, sir?
    Mr. Eastman.
    [Inaudible]
    Mr. Higgins. Please unmute yourself, sir.
    Mr. Eastman. Yes, I am.
    Mr. Higgins. All right. We are back on track here. Welcome 
to 21st technology that doesn't work for remote committee 
hearings. I urge my colleagues to return to regular order.
    Mr. Eastman, are you familiar with the--with the 
president's new policy that we are discussing today? Can it not 
be challenged in court as constitutional or unconstitutional?
    Mr. Eastman. According to
    [Inaudible]
    Mr. Higgins. Your audio is not functioning, sir.
    Mr. Eastman.
    [Inaudible] Let us try this. Is that better?
    Mr. Higgins. Yes, sir. That is better.
    Madam Chair, I would like this time observed--the delay.
    Mr. Eastman. Yes.
    Mr. Higgins. Mr. Eastman, my question to you is very 
simple. You are familiar with President Trump's policy 
regarding the census that we are discussing today. Can this 
policy be challenged constitutionally in court or can it not? 
Is that not our process?
    Mr. Eastman. Well, it has already been challenged in four 
different cases in court. I believe when it gets to the Supreme 
Court, based on the Franklin v. Massachusetts case, the Trump 
policy will be upheld. But it will
    [Inaudible]
    Mr. Higgins. And if--in the interest of time, if the 
President Trump policy is overturned by the Supreme Court, 
which is our judicial procedure, I would encourage my 
colleagues to wrap their passion up in a judicial challenge 
properly. If the president's policy is overturned by the 
Supreme Court, then that is it, isn't it?
    Mr. Eastman. Well, that is--yes, that is it and Congress 
would certainly have a say with a constitutional clarifying 
amendment. But I believe the Constitution allows for the policy 
already.
    Mr. Higgins. Very well. So, prior Supreme Court rulings 
that have established by majority rule in the Supreme Court 
that an agency's action is final when an agency completes its 
decisionmaking process, specifically as it regards to the 
census, that the president is not required to transmit the 
secretary's report directly to Congress; rather, that he uses 
the data from the census in making his statement. Are you 
familiar with that rule as written by Justice O'Connor?
    Mr. Eastman. Yes, I am. That is the Franklin v. 
Massachusetts case to which I have been referring.
    Mr. Higgins. Yes, sir. It certainly is.
    So, Madam Chair, I thank you for your indulgence. We had 
some technical difficulties from the gentleman.
    I just want to clarify that what is before us today is the 
balance of power of the representative republic if American 
citizens that we are supposed to serve, and if any of my 
colleagues or fellow Americans across the country have a 
problem with the president's decision, then by all means, 
follow the constitutional process by which you would challenge 
that as to Article 3 and the judicial process.
    Madam Chair, I yield.
    Chairwoman Maloney. Thank you.
    I now recognize Congressman Sarbanes from Maryland.
    Congressman Sarbanes?
    Mr. Sarbanes. Thanks very much, Madam Chair. Can you hear 
me?
    Chairwoman Maloney. Yes, we can.
    Mr. Sarbanes. OK. Well, I appreciate the hearing.
    You know, fundamentally, you can't run a country if you 
don't know how many people are in your country, and that is the 
purpose of the census, plain and simple.
    It is not a Democratic power grab. This is a patriotic 
exercise that we engage in every 10 years to know who is in our 
country, how many people, so we know how to provide services 
and resources and function as a country.
    That is what this is about. This is about being able to 
function properly and efficiently as a country so we know where 
to build the roads and the hospitals and the schools. I want to 
know how many people live in my district.
    Whatever district I am representing as a Member of Congress 
I need to know how many people there are living in that 
district so I know what the schools should be, how many 
resources should come behind community health clinics, what is 
the capacity of the hospitals that we need and our other health 
care providers.
    That is the purpose of this, and if we don't take the 
census seriously we are not going to be able to function as a 
country in an effective way. So, that is what this is about. 
This isn't about political power grabs. This is about doing 
what makes common sense and what our Constitution calls upon us 
to do every 10 years.
    Now, I don't want to belabor what the president has done 
because it is very clear, based on the testimony, and I think 
an easy reading of the Constitution that what the president has 
proposed most recently is not only unconstitutional, it is 
completely unworkable.
    I would like the former directors, if they would, to give 
me your perspective on this very delicate line that we are 
walking right now.
    On the one hand, we know that the census needs to be 
completed within a certain period of time so that the data all 
works, and the further we get away from April 1 the more 
potentially compromised that can be.
    On the other hand, we don't want to rush the census in a 
way that would undermine its accuracy and I fear that the 
president is seeking to do that now, from what I understand. He 
is trying to sort of telescope the process here.
    So, could you speak, and any of you are invited to weigh in 
of the former directors--tell me what your greatest concerns 
are right now about our ability to conduct the census in an 
efficient way to gather up the data, to be confident in it, and 
how do we navigate this window that we have to pull that off?
    I will turn it back to the directors.
    Mr. Thompson. I can start. The career people who are 
experts at making the census requested a four-month extension 
of the deadlines that is in their title.
    They know what they are doing. They know what it is going 
to take to get the census done. Not extending those deadlines 
is going to put tremendous pressure on the Census Bureau. It is 
not clear what kind of quality counts they can produce if they 
don't get the extension. So, it could be a really big problem.
    Mr. Sarbanes. Mr. Prewitt?
    Mr. Prewitt. Yes, I would just add to that, as I tried to 
say in my opening testimony, I really do think right now we 
ought to be appointing an independent apolitical groups of 
statisticians and otherwise informed people--National Academy 
of Science can certainly do this--and look at metrics, what 
will be telling us that we have a census that is inadequate for 
the purposes of reapportionment.
    It is inadequate for the purpose of trending over a 
trillion dollars and it is inadequate as a base number for all 
of our other surveys for 10 years.
    I think we are at risk of giving to the country a set of 
numbers which will make what previous--what you said at the 
very beginning. You want to know how many coming to school, how 
many in the hospitals, what is the traffic load, what about 
emergency preparation.
    All of those depend upon numbers, and I am very worried 
that we may not have those numbers at a level at which we are 
able to give them to the president at the end of this calendar 
year.
    So, the extra four months is really important.
    Mr. Sarbanes. Thanks very much, Madam Chair. I appreciate 
the opportunity and I think what we are hearing is the politics 
need to be kept away from this space.
    The president is trying to politicize it. We need to keep 
it in a safe zone and get this right and do it properly for the 
benefit of the country.
    I yield back.
    Mr. Barabba. Chairwoman, can I make a comment, please?
    Chairwoman Maloney. Thank you. Who is wanting to make a 
comment?
    Mr. Barabba. Yes. I would just add to what my colleagues 
have said that the manner in which the president is positioning 
his question on citizenship would me more--it is designed to be 
alarming to noncitizens to be counted, and its approach is 
going to make it difficult for the census to do its job, which 
is to count everyone, every person in this country.
    Chairwoman Maloney. Thank you.
    I now recognize Representative Robin Kelly from remote. 
Kelly.
    Ms. Kelly. Thank you, Madam Chair.
    Chairwoman Maloney. Thank you.
    Ms. Kelly. A couple of points I wanted to make, first, that 
I have been on Oversight for over seven years and most of that 
time I was in the minority, and I never remember the minority 
having more than one witness. I just wanted to make that--make 
that point.
    Then I thought I heard one of my colleagues say that we 
want to have the undocumented count because that will help us 
with our sanctuary cities. Well, Chicago is a sanctuary city 
and New York is a sanctuary city, and we already know that 
Illinois will lose one congressional seat.
    So, counting the undocumented is not helping us over 
another state that you may represent that doesn't want to count 
the undocumented.
    But I wanted to ask Mr. Groves if undocumented immigrants 
do not respond to the census either because they are afraid of 
being identified or are motivated because of this memo, what 
effect do you predict this will have on the distribution of 
Federal funds and would it affect some communities more than 
others?
    Mr. Prewitt. If I am unmuted I will--Dr. Groves has left.
    Ms. Kelly. Oh, I am sorry. That is right.
    Mr. Prewitt. Yes, that is right. Yes.
    Ms. Kelly. I have been waiting so long.
    Mr. Prewitt. I am sorry. I will give you a very quick 
response.
    Look, right now with respect to the 62 percent of the 
public that has sent in a form, that is a highly variable 
number state by state that goes up as high as 72 percent and it 
goes down as low as 52 percent. That is a 20 percent difference 
between those two states.
    If that carries forward for the rest of the census, that 
means you are going to have states that are counted close to a 
100 percent and states that are counted at 80 percent, and that 
is not a functional census.
    Ms. Kelly. Is that by
    [Inaudible]
    Mr. Prewitt. Hugely disproportionate the way the Federal 
funds get spent because the Federal funds is a fixed number and 
it is proportionate to size. So, if somebody is a 100 and 
somebody is 80, the one that is 100 is actually going to get 20 
more because it is going to be spent somewhere. So, it is a 
very serious issue.
    Ms. Kelly. Also the other thing is, when I think about one 
of the counties I represent is Cook County and even if someone 
is undocumented if they need help or care the county or the 
city, you know, they still will help.
    They just don't, you know, leave people to die or to be 
homeless and that kind of thing. They still feel that 
responsibility and none of that is free. You know, it costs 
money.
    Mr. Prewitt. Yes.
    Ms. Kelly. So, that is why it is so important.
    Madam Chair, I yield back early.
    Chairwoman Maloney. Thank you. The gentlelady yields back, 
and I now--Representative Grothman is now recognized.
    Mr. Grothman. OK. Thank you very much and thank you for 
having this hearing. Always enjoyable.
    I think there is some confusion, so the first question I 
have is for Dr. Eastman. The president's memo, as I understand 
it, doesn't include distribution of Federal funds. It is only 
for the purposes of apportionment. Am I wrong on that?
    Mr. Eastman. No, you are absolutely correct on that. The 
two are distinct and actually the constitutional authority is 
different for each of the two.
    Mr. Grothman. OK. So, this idea that if we don't count 
people who are here illegally is going to result in, say, less 
Federal aid to the city of Chicago, that is not accurate, 
right?
    Mr. Eastman. That is not accurate. The count will be there. 
The question is what are the numbers we use for apportionment 
purposes, not for all the other myriad uses for the census.
    Mr. Grothman. OK. Good.
    Now, I want to ask you about other people who are--you 
know, I happen to live in Wisconsin. There are people who could 
be in Wisconsin for a variety of reasons. There could be people 
who were born there and will die there and live there their 
whole life.
    There can be people there who are diplomats from a 
consulate in Chicago who are driving around, seeing what is 
going on up there. You could have tourists who plan on leaving.
    You could have people who spend seven months of the year in 
Florida and five months of the year in Wisconsin. You could 
have somebody coming over from Iowa who is taking care of an 
aging relative and expects to return home.
    Could you comment on these different situations? Are all of 
these people supposed to be counted for apportionment purposes? 
None of these counted for apportionment purposes? If we go 
through them, a diplomat, they are not counted, are they, even 
though they are in Wisconsin?
    Mr. Eastman. No diplomats are counted even though they are 
persons in the state, if you want to take the technical reading 
that has been offered. Visitors are not counted. Temporary 
people passing through are not counted, and I think that is--
Indians not taxed are not counted, we haven't had that category 
since citizenship was offered in the 1920's, broadly, to Native 
Americans.
    But for the first century and a quarter of our Nation's 
history they weren't counted. It is because what the--as the 
Supreme Court said, what we are aiming for here is who is being 
represented, who is in charge, who are the sovereign people 
that are choosing the representatives and allocating the 
distribution of seats in Congress and electoral votes based on 
that.
    Mr. Grothman. OK, and I will give you a specific example. 
Let us say I am in Wisconsin. Let us say a woman moves into 
Wisconsin to take care of her aging mother and expects to 
return home from Iowa, has no intention of staying in 
Wisconsin. Maybe her mother is even in home hospice. Should she 
be counted as a Wisconsin resident?
    Mr. Eastman. I don't believe she should be and I don't 
think the Census Bureau does. They ask where her normal place 
of abode is.
    Mr. Grothman. OK. If I am in this country illegally, how 
under any circumstances--what contortions would you reach to 
say that a person who is here illegally intends to stay 
permanently.
    I would think if I was caught in a country illegally for 
whatever reason, I would expect to return home. Isn't it kind 
of insulting to somebody to say if they are here illegally we 
are going to make the assumption they are there permanently?
    Mr. Eastman. Well, I think so and, you know, you can read 
this into the phrase ``in the state.'' The other argument has 
been, well, anybody that is residing in the state. Well, they 
have added the word ``residing'' to there.
    So, why don't we also add the word, more consistent with 
the theory, ``lawfully residing there?'' That gets more at the 
question of who is being represented--those who are here 
lawfully.
    Mr. Grothman. Well, right. I am going to go back to the two 
situations. If you have someone in Wisconsin taking care of an 
aging relative until they pass away, you know, we consider they 
are a permanent resident another place, right?
    I think, normally, if you have a college student who is in 
Wisconsin for nine months and then returns to Iowa that Iowa is 
considered their place. They don't intend to stay in Wisconsin 
full time.
    By what logic could you say if someone, say, is overstaying 
a visa and, you know, but plans on returning home--you assume 
returning home--how in--what type of legal logic could you have 
to say that we expect that person to stay in Wisconsin 
permanently?
    I don't understand that. Can you imagine a legal theory 
that we are going to assume somebody who comes here illegally 
is going to be considered a permanent resident?
    Mr. Eastman. Well, there is one theory that has been 
floated called virtual representation. Even though they are not 
part of the citizenry of that state or that community they are, 
nevertheless, there and so, therefore, the people would treat 
them as if they are being represented even though they have no 
say in the government. I think that is fundamentally 
incompatible----
    Mr. Grothman. Well, why don't we assume they are going to 
leave, though? That is what I don't understand.
    Mr. Eastman. Yes, I don't--I don't--Congressman, I agree 
with you. I don't understand it either. But I am trying to 
tease out the theory on the other side to try and make some 
sense of it and I can't.
    It is so fundamentally incompatible with the notion of 
consent of the governed that is the cornerstone of our system 
of representative government.
    Mr. Grothman. Well, I just will say on behalf of the 
illegal citizens in my state I think it is insulting to imply 
that in the future they are never going to obey the law.
    Thank you.
    Chairwoman Maloney. Congresswoman Lawrence is recognized.
    Ms. Lawrence. Thank you, Madam Chair. I would like to bring 
the focus back to what the census is established, and that is 
to count every person. I was a mayor and I know that the amount 
of people who are driving over my roads go into the population, 
goes into the formula of how much I come to the Federal 
Government, say I need X amount of bill dollars or any X amount 
of dollars.
    I need to know how many children are going to our schools 
so that we can anticipate the amount of brick and mortar, the 
amount of taxation for educating the children in our community.
    It is so sad that this current administration uses every 
single angle to politicize it and have it to be a Democrat or a 
Republican issue.
    The census has nothing to do with your political 
affiliation. It has everything to do with the enumeration of 
the people who live in this country so that we can 
appropriately allocate the funds to run our country.
    I know in my district there is a very rich and, thank God, 
amazing diversity of people. Strong representation from the 
Middle East and Bangladesh, other countries. We have Jewish. We 
have African. We have India.
    So, when you knock on the door of a home and you say, are 
you legal or not legal, the trust, because of this 
administration's just absolute aggressive immigration 
demoralizing the value of people in our country, it creates 
fear, whether you want to admit it or not.
    Mr. Thompson, are you still here?
    Is Mr. Thompson still here?
    Mr. Thompson. Yes, I am here.
    Ms. Lawrence. OK. Is it true that the immigrant communities 
have historically been undercounted in the census and can you 
explain why this is pragmatic?
    Mr. Thompson. That is an excellent question, Congresswoman.
    So, the Census Bureau has always been measuring a 
differential undercount and that is for the white non-Hispanic 
population they have been measuring slight overcounts and for 
other populations, the African Americans, Hispanics, they have 
been measuring undercounts. American Indians, they have been 
measuring undercounts, and they call it the differential 
undercount.
    So, the implications of that are--filter through all the 
important uses of the census including apportionment, including 
redistricting, and including the allocation of $1.5 trillion in 
Federal funds every year.
    If there is an undercount in a community, then that 
community doesn't get its fair share of any of those resources.
    Ms. Lawrence. So, when a community does not get the proper 
allocation of funds. When we start talking about poverty, when 
we start talking about generational misrepresentation, it is 
all tied to the census and how we count the citizens and the 
people of this--of this country. Is that correct?
    Mr. Thompson. Yes, ma'am.
    Ms. Lawrence. Do you agree that President Trump's executive 
order is likely to make the problem worse by discouraging legal 
immigrants from completing the census?
    Mr. Thompson. Yes. I included in my testimony my concerns 
that the memorandum was going to increase fears among the hard-
to-count populations, which would include immigrants, 
noncitizens, that their data would not be safe, and therefore, 
their nonparticipation.
    Ms. Lawrence. Madam Chair, I just want to be clear on the 
record. The census is not a Democrat of Republican issue. It is 
an issue about how we will fund our country.
    I sit on Appropriations and I say often if you want to know 
where a person's heart is, if you want to know what your values 
are, follow the money. If we systematically eliminate and 
discourage participation, then our values will be very clear 
that if you are a minority, if you are immigrant, you have no 
value.
    Thank you so much. I yield back.
    Chairwoman Maloney. Thank you. Thank you to the gentlelady 
for her powerful statement.
    Congresswoman Miller is now recognized.
    Mrs. Miller. Thank you, Chairman Maloney and Ranking Member 
Comer, and to all of you witnesses who are here today.
    As we will discuss further in the next panel with Dr.--
Director Dillingham, apportionment is drastically different 
than taking the census.
    It is essential that the census count every person living 
in the United States as this data is used to appropriate 
Federal resources to the communities in need. Another use for 
this data is to fulfill the constitutional duty of 
apportionment.
    Apportionment is the essential process that Congress takes 
to make sure that the Members of Congress are distributed 
fairly and proportionally across the United States.
    Allowing some states with a high number of undocumented 
immigrants to subvert the will of American citizens by denying 
other states their fair representation cannot be allowed.
    While many across the aisle actively champion illegal 
immigration and deny the government's duty to protect our 
sovereign border, to turn around and try to distort the 
president's actions to protect American democracy into a 
constitutional crisis is an absolute farce.
    This hearing is just a continuation of the lack of 
leadership that America is so tired of seeing out of 
Washington.
    I support President Trump's memorandum of apportionment and 
reiterate the importance of making sure Americans' voices are 
heard here in Congress and at the ballot box.
    Dr. Eastman, how would counting residents living in the 
United States illegally undermine the representation of legal 
American citizens?
    Mr. Eastman. Well, it would create an apportionment that 
shifts numbers of representatives in the House of 
Representatives and also the electoral votes for president from 
places where there are not large numbers of illegal immigrants 
to places where there are, therefore, diluting the vote and 
political power and sovereignty of the people in the states 
that do not have large numbers of illegal immigrants and 
benefiting those that have violated our law.
    Mrs. Miller. So, how are smaller rural states, which 
already have very few Members of Congress negatively impacted 
by the larger states who are bolstering their census counts 
with undocumented immigrants?
    Mr. Eastman. Well, we have got a number of states that will 
lose or not gain a seat in Congress as a result of counting the 
large number of illegal immigrants that have consolidated in 
particular states--in three or four states, for example. It 
would shift away from the rural states and it would debase the 
votes of American citizens in large portions of the country.
    Mrs. Miller. So, basically, in a congressional district 
where half the population is comprised of undocumented 
immigrants, is that fair representation to a district that is 
comprised entirely of American citizens? Doesn't that dilute 
the representation that citizens have in Congress?
    Mr. Eastman. It does so in two ways. It gives that state 
with the illegal immigrants an additional seat in Congress. 
That creates--that enhances their political power, and it also 
takes each voter in that district and essentially makes their 
vote worth twice as much as the votes in a district where there 
are no illegal immigrants.
    Mrs. Miller. So, historically, why has it been the standard 
to use total population for apportionment instead of the number 
of citizens, and does this actually subvert the democratic will 
of American voters?
    Mr. Eastman. Well, historically, we have used total 
population because there was not a differential between total 
population and citizen population, and so total population was 
a very good proxy for the political representation.
    But we now have a vast disparity between citizen and 
noncitizen areas of the country and that is skewing the 
political authority of the people that are supposed to be 
choosing the representatives to govern.
    Mrs. Miller. Thank you. I yield back my time.
    Chairwoman Maloney. Thank you. I now recognize the vice 
chair of the committee, Congressman Gomez, for five minutes. 
Thank you for coming.
    Mr. Gomez. Thank you, Madam Chair.
    I just want to remind people, I am actually very happy that 
President Trump and the administration revealed its true 
colors.
    For the long time, if we remember back when they were 
trying to add the citizenship question to the census it was 
always about enforcing the Voting Rights Act and they repeated 
it and repeated it and repeated it.
    But even your Republican chair, Trey Gowdy, didn't even 
believe that was the case, right. He even made the argument 
that their logic didn't make sense because they have been 
enforcing the Voting Rights Act--the Justice Department--since 
its existence without having that information on the--of 
citizenship on the census.
    So, we always knew what this was about. It was about Kris 
Kobach. It was about the apportionment expert trying to create 
a scenario that they can make an argument why undocumented 
immigrants and not all people should be counted in 
apportionment. That was what it was always about.
    So, it just revealed their true colors that they put 
forward this executive order and this memo of understanding, 
and the reason why it was always about that because this 
administration and Trump have always attempted to use the 
census as a political weapon to marginalize communities 
throughout the country.
    I believe that this is only the next step because I believe 
the true direction that this administration wants to go and 
some individuals on the right of the political spectrum is to 
undermine the Fourteenth Amendment itself, the idea that any 
person or persons born or naturalized in the United States are 
subject to the jurisdiction of the United States and are 
citizens of the United States.
    That is where, ultimately, they want to go. They, as I am 
talking about the Trump administration, I am talking about the 
people who are on the right who don't see people who are born 
here as valid citizens of this country.
    So, this is just the next step, you know, what President 
Trump has done in these memos. But I believe that it will be 
found unconstitutional.
    I believe that some of the recent rulings by the Supreme 
Court indicate that this court is not a Republican court or a 
Democratic court. It is the Supreme Court of the United States 
of America and I look forward for this case to go forward.
    But the present memo does, I believe, violate the 
Constitution. It also violates Federal statutes as enacted by 
Congress.
    Title 13 states that after the census is complete the 
Secretary of Commerce shall send the president, and I quote, 
``the tabulation of total population by states, which then the 
president must transmit to the Congress a statement showing the 
whole number of persons.'' It doesn't say anything else. It 
says of persons in each state.
    I would like to go down the line and ask each of you a 
question. In your experience as director of the Census Bureau, 
do you ever--did you ever understand Federal law to allow the 
Secretary of Commerce to exclude undocumented immigrants from 
the census count he or she is required to send to the 
president?
    Mr. Barabba?
    Mr. Barabba. No. The answer is no.
    Mr. Gomez. Mr. Prewitt?
    Mr. Prewitt. No.
    Mr. Gomez. Mr. Thompson?
    Mr. Thompson. No.
    Mr. Gomez. Those are some simple questions when it comes to 
this issue, that it has never been allowed and no one has ever 
requested it. But this administration is trying to once again 
use the census for political ends and to marginalize the 
undocumented community and undermine our democracy.
    We have a choice to make. The country is getting more 
diverse. No matter if we throw up roadblocks, no matter what we 
do, the country is changing. But it is not about how--we 
shouldn't allow those changes to determine our character. It is 
how we handle those changes that will determine the character 
and the values of this country.
    I am proud to be an American and a lot of the people who 
are here, undocumented or otherwise, are also proud to be in 
this country and we will fight for our place in this country 
every step of the way until the day that we are no longer on 
this Earth.
    With that, I yield back.
    Chairwoman Maloney. Thank you, Mr. Gomez.
    The chair now recognizes Congressman Keller.
    Mr. Keller. Thank you, Madam Chair. Thank you, Ranking 
Member Comer.
    Last week, the president issued a memorandum directing the 
Department of Commerce to provide him with an apportionment 
count which only includes those in this country legally.
    Since we all know that an apportionment count, a census 
count, and a redistricting are different things, I am concerned 
that the title of this hearing conflates all of these into one 
group.
    Creating the assumption that these terms are all the same 
thing makes the accusation that the president's actions are 
unconstitutional, which they are not.
    Dr. Eastman, can you explain how an apportionment count is 
different from a census count and redistricting?
    Mr. Eastman. Sure. The census count total count that is 
addressed to things like Federal spending and how many schools 
we need and how much space we need on the highway, those are 
exercised pursuant to Congress's power under the commerce 
clause and under the spending clause, and we get a total count. 
It doesn't matter on what basis you are here.
    But apportionment is supposed to be tied to people who are 
choosing representatives, and we can have an apportionment 
count of the persons in the state for that purpose that is 
different from the total population count that would include 
visitors, it would include people on temporary visas, and would 
include all of those other things. We can have two different 
counts.
    The president's memo is directed to the apportionment 
count, what numbers of persons are we going to use for 
distributing our political power in this country based on the 
population of citizens, of we the people.
    Mr. Keller. Thank you.
    This committee has spent endless hours holding hearings, 
conducting investigations, issuing subpoenas, and holding 
administration officials in contempt of Congress all due to an 
issue with the citizenship question on the census.
    While this effort eventually--was eventually abandoned, a 
citizenship question should not be controversial and neither 
should using an apportionment count of only those who reside in 
our country legally. If someone is here illegally they should 
not be represented in the U.S. Congress.
    Dr. Eastman, why did the Supreme Court rule that a 
citizenship question being asked on the census questionnaire is 
in fact constitutional?
    Mr. Eastman. Well, because, first of all, history. We have 
asked that question on almost every census in our entire 
history.
    The only reason it blocked it from the current census is 
because the Supreme Court found that the department had not 
properly gone through the requirements of the Administrative 
Procedures Act. But it went out of its way to say asking about 
citizenship is perfectly constitutional.
    Mr. Keller. OK. Just one thing. I know there has been a lot 
of discussion on why we need to make sure that the 
representation is correct. But I know the--some of the people 
on the left want to do away with the Electoral College.
    By counting people who are not U.S. citizens here legally, 
is that a way to make the Electoral College less relevant or, 
over time, irrelevant by shifting representation away from 
American citizens?
    Mr. Eastman. It does. It has the same effect of diluting 
the votes of citizens that the apportionment of the House of 
Representatives has because the Electoral College votes are 
based on the total number of seats one has in the House of 
Representatives plus the two senators.
    Mr. Keller. So, if I couldn't get an amendment through or I 
couldn't get a national popular vote and I wanted to do away 
with Electoral College, I would--I would want to count people 
for representation purposes who are in our country illegally?
    Mr. Eastman. You certainly would alter the impact of--that 
citizens have on the outcome of elections and that undermines 
the very notion of the consent of the governed.
    Mr. Keller. And the point, I guess, I want to make, by the 
way the Trump administration wants to make sure that we know 
the difference between when we are talking apportionment and 
census and redistricting, we want to take care of everybody 
that is here in our country but we also want to make sure that 
the government is selected by American citizens and not people 
who are not citizens of this country. Is that correct?
    Mr. Eastman. That is correct, and I don't think it is 
partisan. Look, I mean, if you look at the numbers, Texas is 
going to lose seats as a result of this as well as California. 
It is hard to say that that is a partisan outcome. It is a good 
governance outcome.
    Mr. Keller. It is an outcome that means we are exceptional 
because we are Americans and we should have government that is 
decided by American citizens and not people that are foreign 
nationals in our country illegally.
    Thank you, Madam Chair, and I yield back.
    Chairwoman Maloney. I thank the gentleman, and I thank all 
of the panelists for their testimony and remind them that 
they--there will be additional questions that may come to them 
and I would be grateful for their swift response.
    We will now go to the second panel, but first I would like 
to respond to Mr. Hice's request that we have a--he mentioned 
we needed a hearing on the hard-to-count communities and stated 
that we had only had not enough hearings on the census.
    I would like to place in the record that since I have been 
chair there have been five hearings on the census, including 
one on the ``Hard-to-Count Communities in the 2020 Census,'' 
which was January 9, 2020.
    We were also privileged to have Director Steven Dillingham 
here on February 12, and appreciate him coming back very much, 
and we also had one on ``Beyond the Citizenship Question: 
Repairing the Damage and Preparing for We, the People'' in 
2020, and we also had one on ``Getting the Count: The 
Importance of the census for Both States and Local 
Communities,'' and on March 14 we had Commerce Secretary Wilbur 
Ross.
    So, I would like to place in the record these hearings that 
we had, five, and mention to Ranking Member if you would like 
to have another hearing on hard-to-count communities, as Mr. 
Hice mentioned, we would be glad to accommodate having another.
    I would also like to place in the record the listing of 12 
full committee hearings that we have had on different subjects. 
But, obviously, five with both the full committee and 
subcommittees has been a priority, as it should be, for this 
country.
    I would like to place this in the record. Thank you.
    Chairwoman Maloney. So, the first panel is dismissed with 
our great thanks. Thank you for your time. Thank you for your 
service. Thank you for coming back to testify with us from 
across the country. We are very, very grateful. Thank you.
    We are also grateful that we are joined by Mr. Steven 
Dillingham, the current director of the Census Bureau. We thank 
you very much for your time, for your service, and for agreeing 
to be here. We are very appreciative.
    If the witnesses would please rise and raise your right 
hand. Do you swear or affirm that the testimony you are about 
to give is the truth, the whole truth, and nothing but the 
truth, so help you God?
    [Witness is sworn.]
    Chairwoman Maloney. Thank you.
    Let the record show that the witness answered in the 
affirmative. We thank you. Without objection, your written 
statement will be made part of the record.
    With that, Mr. Dillingham, you are recognized for your 
testimony. Again, thank you for your service.
    And I just want to add, the coronavirus has changed 
everything and it has really changed how we have been able to 
conduct the census, and I appreciate your service during this 
very, very difficult time.
    Thank you for being here.

    STATEMENT OF STEVEN DILLINGHAM, DIRECTOR, CENSUS BUREAU

    Mr. Dillingham. Chairwoman and Ranking Member, I don't know 
if you noticed but I had my own specially designed mask, and I 
provided one to you and the ranking member. So, I hope you will 
find it useful, at least for getting the message out. Thank you 
so much.
    Chairwoman Maloney, Ranking Member Comer, and members of 
the committee, I am honored to be with you today. I would like 
to congratulate Ranking Member Comer on his recent appointment.
    I appreciate the support of Congress and this committee's 
commitment to a successful 2020 census. The nonpartisan U.S. 
Census Bureau is the Nation's leading Federal statistical 
agency.
    Its career and noncareer staff work together to advance its 
mission, always in accordance with governing laws and court 
rulings. The Census Bureau does not set policy nor does it 
control the use of its data products.
    The Census Bureau adheres to the highest standards of 
scientific integrity and transparency, and the principles and 
practices of Federal statistical agencies.
    Meeting challenges posed by the unprecedented brutal 
pandemic remains a top priority. The Census Bureau's dedicated 
work force has worked hard and professionally to keep the 2020 
census on track.
    This morning I am pleased to highlight some recent 
developments. On July 21, the president issued a Presidential 
memorandum that has been the topic, certainly, of the first 
panel.
    In response to the memorandum, Secretary Ross called upon 
the Census Bureau to examine the directive and commence efforts 
to develop methodologies for producing a special tabulation for 
apportionment.
    A group of expert career staff will examine possible 
methodologies. Operations are not affected by the memorandum. 
We remain committed to counting every person in the right place 
and only once.
    To help the Census Bureau meet challenges posed by the 
pandemic, the White House Office of Management and Budget 
submitted a request to supplement our hiring pay incentives, 
outreach, and replenish our contingency funding to provide the 
necessary flexibility.
    Despite the pandemic, the 2020 census self-response has 
been a tremendous success. We are now at almost 63 percent with 
more than 92 million households counted. About 80 percent have 
chosen to respond using the internet. Our response system has 
not had a single minute of down time since we first invited 
people to respond online, beginning in March. We successfully 
set up--we sent up--we say up to five mailings because if you 
do answer in self-response you are not receiving, hopefully--
after a period of time, not receiving additional mailings.
    But we successfully sent up to five mailings and an 
additional mailing to areas with post office boxes. Our sixth 
mailing has begun and should reach 34 million nonresponding 
households.
    In September, we will be sending a seventh mailing, 
including questionnaires, to the lowest responding tracts in 
hard-to-count areas.
    Our update leave, which is our operation to hand deliver 
packets to housing units, well, it is generally complete. 
Certainly, 99.--the last I looked was--I think it was about 
99.9 percent. It is basically complete except for some very 
small communities.
    Our counting college students continues to progress. We 
have a special operation to ensure a complete and accurate 
count of college students. College students must be counted 
where they live or stay most of the time as of April 1. 
Congress is considering legislation which was passed by the 
House to alleviate confusion among college administrators.
    The largest component of our field operation nonresponse 
followup is underway and expanding rapidly. We have begun a 
soft launch in selected areas where we could do so safely and 
effectively. The first six area Census offices began work on 
July 16. Six more began on July 23. Tomorrow, 35 others will 
begin work and 40 more will start on August the 6. They will be 
announced today. The remainder will begin this work on August 
the 11th and will be covering the entire nation.
    Today, we are announcing that as part of our nonresponse 
followup operation we will contact some households by phone.
    Health and safety of Census Bureau staff and the public 
remains our priority. The provision of personal protective 
equipment, trainings, and adherence to social distancing 
reflect our commitment to health and safety of the public and 
our employees.
    We require all census employees interacting with the public 
to wear a face mask, regardless of location. We daily monitor 
health conditions nationally and at the state and local levels. 
Our hiring of census takers and staff continues.
    We now have 3 million applicants available as temporary 
census workers. We continue receiving about 1,500 new 
applicants each day.
    Our 248 area census offices are completing the hiring 
process for about a half million temporary census workers. More 
than 900,000 job offers have been accepted.
    Our partnerships are unprecedented, exceeding our most 
ambitious goals. With almost 400,000 partners, we are expanding 
our outreach to hard-to-count populations.
    Despite having to delay the mobile questionnaire assistance 
efforts due to the pandemic, partnership staff have identified 
assistant sites where people go when they leave home, such as 
grocery stores, such as pharmacies and other places, in 
compliance with local, state, and Federal safety guidelines.
    We have seen great examples in New York City, and I know 
that you have participated, Madam Chairwoman, in Kentucky as 
well and probably in all member districts. The 2020 census 
communications campaign continues to expand its reach.
    We increased the communications contract budget from $500 
million to $700 million and increased our media buys, which are 
in progress now.
    We will run many types of advertising in low response rate 
areas, including those with hard-to-count audiences.
    As voices in your communities, thank you for sharing our 
message that participating in the 2020 census is easy, safe, 
and important. We appreciate your strong support for 2020 
census and our operations.
    Our committed employees and volunteers remain on mission 
and are accomplishing tremendous results. Our offices have led 
other Federal agencies in reopening in a rapid, phased, and 
safe manner.
    I could not be prouder of our talented and dedicated career 
and temporary work force soon to become the Nation's largest. 
We are grateful that almost every House and Senate office is 
active as a 2020 census congressional partner.
    We look forward to our continued work together and thank 
each of you for your support. Together, we are reminding 
everyone that the 2020 census belongs to our Nation at large 
and will help shape a better future for all who live here.
    Thank you so much. I look forward to your questions.
    Chairwoman Maloney. Thank you, and the chair now recognizes 
herself for questions, and I appreciate your testimony that the 
census belongs to the people and it is part of our future.
    I do want to report that in New York the census has been 
nonpartisan, professional. They have responded to every request 
from the mayor to attend various meetings from the community. 
They have been at the community boards, the block associations.
    They work weekends, handing out information in the parks 
and have responded to every request my office has made for them 
to join us in getting the word out to the public in a 
nonpartisan professional way, and I want to thank you for that.
    Mr. Dillingham. Madam Chairwoman, I want to thank you that 
I had some particulars with regard to your efforts in the food 
distribution areas of New York City and appreciate you as well 
as your colleagues all across the country.
    Chairwoman Maloney. It is very, very important.
    But I must tell you, Director Dillingham, I am very, very 
concerned about the president's memo, and I have read the 
president's memo very carefully and I believe that it is 
blatantly unconstitutional and that complying with this memo 
would violate Federal law, and I strongly urge you not to 
violate Federal law.
    But you don't have to take my word for it. We had quite a 
lengthy hearing today and all four of your professional 
nonpartisan predecessors testified on the previous panel that 
they believe the president's memo appears to violate the 
Constitution and existing law.
    So, I would like to ask you, do you agree with your 
predecessors that the memo appears to violate the Constitution 
and existing Federal law?
    Mr. Dillingham. Madam Chairwoman, I was able to catch parts 
of that hearing. I know just, perhaps, the latter parts, and I 
was amazed at what a healthy discussion and debate and a very 
livid one at times with regard to policy and history as well as 
law.
    They are in a different position than I am in. I respect 
them greatly and we have many things in common, certainly, the 
completeness and accuracy of the 2020 census.
    We have other things in common and that is the respect for 
the Bureau, the Census Bureau, as well as the principles that 
govern it, the relevance, the credibility, the integrity, the 
independence, et cetera. So, we have much in common.
    But I am not in a position where I can express my opinions 
with regard to the policy, with regard--and it wouldn't be even 
wise with the history and, certainly, not with the legal 
analysis, which is now a subject of litigation.
    So, as I did last year, I have to beg off. I cannot answer 
or even give my personal views because my job as the Census 
Bureau director will be to execute the 2020 census and we do 
abide by court decisions and controlling law.
    So, we will have to wait and see how that legal debate 
comes out and we will do our job. But that is our focus. Our 
mission right now is a complete and accurate count that will 
include everyone living in this country.
    Chairwoman Maloney. OK. Well, in your job executing the 
2020 census did you or anyone else, in your knowledge, from the 
Census Bureau contribute to the president's July 21 memo or 
provide input on it before it was released?
    Mr. Dillingham. Madam Chairwoman, I certainly did not and I 
am not aware of others in the Census Bureau that did.
    Chairwoman Maloney. I understand there are, roughly, five 
political appointees. Did any of them participate in this memo?
    Mr. Dillingham. Madam Chairwoman, I think, including 
myself, we have six now and that is out of more than 6,000 
employees.
    Chairwoman Maloney. OK.
    Mr. Dillingham. But to my knowledge, they did not and I 
would not have reason to think so. We do have--I am sure, as 
you have pointed out, we have two new ones. So, I can't speak 
for actions that occurred prior to them joining the Census 
Bureau.
    Chairwoman Maloney. Well, let us move on to the nuts and 
bolts of the memo. It appears that the president is asking the 
Commerce Department for information that would allow him to 
exclude undocumented immigrants from the apportionment base.
    As we all know, the Census Bureau will not be asking people 
about the citizenship status on the 2020 census. The Trump 
administration tried that. The Supreme Court struck it down.
    So, my question is, Director Dillingham, how will the 
Census Bureau and Department of Commerce be determining the 
number of undocumented immigrants in each state?
    Mr. Dillingham. Madam Chairman, I can tell you that, as you 
refer, the Presidential memorandum has some specifics in it, 
and prior to that we did have an executive order last year that 
also directed us to look at our administrative data.
    The Census Bureau has a long history of collecting 
administrative data that is very valuable in very many 
different ways.
    So, this particular Presidential memorandum, and it 
resulted in the Secretary of Commerce giving us the directive 
and guidance to proceed with the requirements of the 
Presidential memorandum and it calls upon us to look at our 
administrative data and any data that we have in trying to 
determine the number, which is a statistic, on undocumented 
persons in the country and for the use of applying it to the 
apportionment count.
    So, what we are doing we have experts at the Census Bureau 
that are now beginning the process of looking at methodologies 
and we have collected data from many agencies, Federal 
agencies--many of the memoranda were already in existence by 
some additional Federal agencies--to see what we can gain from 
that administrative data and what the methodology might be in 
developing a count of undocumented persons, and that process is 
just beginning. The Presidential memorandum just came out last 
week.
    Chairwoman Maloney. Dr. Dillingham, your testimony says the 
Bureau, and I quote, ``has begun to examine and report on 
methodologies,'' end quote, to let the president exclude 
undocumented immigrants.
    So, my question is, what steps has the Bureau taken and 
will you share any reports with this Oversight Committee that 
has jurisdiction for the census and its operations?
    Mr. Dillingham. Madam Chairwoman, as you are aware, we are 
a very transparent organization, and maybe the precision of 
that statement was--may be a little bit misleading at this 
time.
    We have convened a group. The group was selected by a 
career deputy at the Census Bureau, and they have been tasked 
with this. There have been no reports. There are no draft 
reports.
    But they have previous experience in this area. So, they 
are generally aware of methodologies that have been considered 
to be applied to administrative data and so, for them, this is 
a new tasking to look at. But we--they are just beginning their 
work.
    Chairwoman Maloney. OK. Thank you. I think it is obvious 
that the president is going to try to use some external 
information that does not come from the census count to exclude 
undocumented immigrants.
    So, my question, Director Dillingham, is isn't it true that 
the Bureau cannot provide the president with actual responses 
from every person in the U.S. confirming their immigration 
status?
    Mr. Dillingham. Well, we are to look at the administrative 
data that we have, which we have been collecting, and to 
determine to what extent it might identify and how it would 
identify and how the data could be matched, et cetera.
    We are just--we have just recently--there is still some 
data that hasn't been finalized, but we have received most of 
the data from the other Federal agencies and we are receiving 
data as well, pursuant to the executive order last year, from 
some state agencies.
    So, that process is--again, it is underway. There have been 
no reports. There have been no analysis that I have seen and it 
is--they are moving rapidly as possible to look at the data, 
look at the methodologies, and to--really, to find options to 
see if that is--how that would be done.
    Chairwoman Maloney. Thank you.
    Dr. Dillingham, if the Census Bureau and the Commerce 
Department are going to be relying on external data that they 
have cobbled together to estimate the number of undocumented 
immigrants, then I believe that they, clearly, will be 
violating the Constitution which requires, and I quote, 
``actual enumeration,'' end quote.
    So, I am concerned about that. You testified in February 
before this committee, and I quote, ``We must work together to 
foster public trust,'' and I agree. It seems to me that 
following the words of the Constitution----
    Mr. Comer. Madam Chair?
    Chairwoman Maloney.Federal law and 230 years of precedent 
are essential parts of that public trust, and we owe it to our 
children and to future generations to pass an objective, 
nonpartisan, and fair census, and I hope we can work together 
to reassure the public that the government will follow the 
Constitution.
    And I yield to you for your comments and then to my 
distinguished ranking member for his questions.
    Mr. Dillingham. Madam Chairwoman, you are exactly right 
that everyone, regardless of how they feel about the 
development of a new option with the apportionment data, 
everyone is committed and the Presidential memorandum provides 
that we will count everyone.
    So, we will develop the number, the total count, and we 
want it as accurate and complete as possible. The issue, as you 
have described, is one, is there going to be a new tabulation 
for purposes of apportionment.
    Chairwoman Maloney. OK. I yield to my distinguished 
colleague.
    Mr. Comer. Thank you. Director Dillingham, thank you for 
being here today. Let me begin by thanking you for being here. 
I think you arrived probably three hours ago. I apologize that 
you weren't on the first panel.
    It is unprecedented and somewhat disrespectful that the 
head of such an important government agency would be put on the 
second panel. But, nevertheless, you have had a great attitude 
and I appreciate you being here and I look forward to some good 
questions.
    Let me begin by saying the online response this year has 
been remarkable. Your enumerators are now in the field 
practicing social distancing and utilizing PPE.
    I think it is important to note that you are putting the 
care of your workers and the public at the forefront, and I am 
told the census is well positioned to deliver a timely and 
accurate count.
    Turning to the president's memorandum on apportionment, 
from a fundamental fairness perspective, it is the right thing 
to do.
    We cannot allow individuals unlawfully present in the 
United States to dilute the votes of citizens and lawful 
immigrants who waited their turn to come to this country to 
engage in our democracy, and I am confident a majority of 
Americans share that opinion.
    With respect to the census, it is more complex than a 
simple head count. Let us touch on tourist visas, for example. 
If a tourist overstays their visa and they just don't leave, 
are they considered a resident?
    Mr. Dillingham. Well, we have a historically developed set 
of criteria for residency that we apply, and, as you described, 
if it is a simple tourist who is not usually residing where 
they are found in this country, no, we would not--we would not 
want to count any response from those individuals. They 
should--it should be explained on the form their usual 
residence is the key wording.
    Mr. Comer. So, for purposes of apportionment, if a person 
who stayed longer than 60 days over, which I am under the 
impression that is the legal definition of a United States 
resident by the way the census rules are, this person who 
overstayed their visa they are not lawfully present and, 
therefore, it is fair say that they wouldn't deserve to have 
representation in Congress. Is that correct?
    Mr. Dillingham. Well, again, we apply the criteria of usual 
residency and it will differ by times and circumstances. But 
that is the criteria we use for delivering a complete and 
accurate count.
    Mr. Comer. So, what--back to the earlier question that 
the--Chairwoman Maloney asked, what data bases does the 
president's memorandum propose we use to determine who will be 
included in the apportionment part and who should not?
    Mr. Dillingham. The Presidential memorandum does not really 
specify. But in the executive order of last year it specified a 
number of agencies. I had the listing here but we have some--I 
think it is 16 or 17 agreements in place.
    Some were already in place before that happened. But it is 
a wide variety of Federal agencies, and in addition to that, 
the executive order asked us to begin collecting state data 
where possible.
    There are many uses of the data generally but some of the 
data uses include matching to make sure you have the right 
individual so you are not double counting, duplicating, et 
cetera.
    So, we have some 16 or 17 agreements in place where the 
data has come to the Census Bureau or is in the process for a 
couple of them still coming, and then we have some state data 
that we have available.
    So, we will be looking at that data very carefully, and the 
Census Bureau--administrative data is not new and some nations 
actually do their census based on administrative data, and one 
of the things as well under the executive order is for us to be 
thinking about the next census.
    So, there are a lot of people that actually disagree on 
this question that are very interested in the utility, and as 
the chairwoman pointed out, the accuracy of administrative data 
because it could have many benefits in the future as it does 
now.
    Mr. Comer. So, you are confident that we can get an 
accurate count of legal citizens for the purpose of 
congressional apportionment?
    Mr. Dillingham. I am confident that we are going to analyze 
the data we have and look at the methodologies that might be 
employed for that purpose.
    Mr. Comer. Mm-hmm. Well, I am confident that you can get 
the accurate count and I know the--a majority of Americans 
expect that because what America is seeing now, especially from 
my colleagues on the other side of the aisle, is a Congress 
that continues to spend at an unprecedented rate deficit 
spending.
    They are seeing mayors in certain cities in the United 
States turn a blind eye to vandalism and violence, and they 
expect to be represented fairly and accurately in the U.S. 
House of Representatives, and this is very important.
    I don't think anyone here questions the importance of the 
census. One thing that many of my colleagues on the other side 
of the aisle have tried to imply and imply falsely is that 
citizens would not be counted. The census is going to count 
everyone, correct, and not leaving anyone out?
    Mr. Dillingham. That is correct. That is correct.
    Mr. Comer. But what the president----
    Mr. Dillingham. What the----
    Mr. Comer. Exactly.
    Mr. Dillingham. Those few that you mentioned, perhaps.
    Mr. Comer. Exactly. What the president's memorandum states 
and what the Census Bureau is going to implement is the fact 
that law-abiding citizens, legal citizens of the United States, 
should not be at a disadvantage with respect to congressional 
apportionment.
    I think that the memorandum is constitutional. I think it 
is the right thing to do. If anyone out here questions how this 
is going to impact funding, it is not going to impact funding 
because we are counting everyone.
    The memorandum is solely clearly focused on congressional 
apportionment, and we are talking about as many as 24 seats in 
the U.S. House of Representatives. It is a significant number 
of representatives in the U.S. House of Representatives.
    So, I appreciate what you are doing. We feel, at least in 
my district, that this is the right thing to do. I think the 
majority of Americans feel it is the right thing to do, and we 
look forward to hearing further reports on the implementation.
    You are doing a great job getting people counted and we 
look forward to the data that will be used to determine the 
correct apportionment as we move forward.
    Madam Chair, I yield back.
    Mr. Dillingham. Ranking Member, could I offer one point?
    The terminologies here vary but, again, the Presidential 
memorandum, in case I misspoke, is focused on the undocumented 
who lack legal status, differentiating on citizenship.
    Chairwoman Maloney. Thank you very much. The gentleman 
yields back.
    I recognize my colleague, who is a chair of one of the 
subcommittees, Jamie Raskin, and I want to thank him for his 
leadership on the census.
    He has had several hearings in his subcommittee and field 
hearings on the importance of counting the hard to count and 
the importance of the census on local and state delivery of 
services. So, I want to thank you for your leadership on the 
census. Thank you for joining us today.
    Mr. Raskin. I mean, I would just return the compliment, 
Madam Chair. You have really been an outspoken and just 
unabashed champion of the census at every turn in this 
Congress, and so thank you for your leadership.
    I remember we have had several hearings on this and one of 
them was in New York City before the nightmare of the COVID-19 
crisis took over.
    So, Mr. Dillingham--Dr. Dillingham--welcome. A few simple 
questions. Is the word ``person'' synonymous with the word 
citizen in the Constitution, according to your----
    Mr. Dillingham. Congressman, I want to thank you and all 
you are doing for the 2020 census and I understand you also 
wear a hat as a constitutional scholar.
    So, as I explained to the chairwoman earlier that it was a 
very dynamic display of democracy here today with differing 
opinions, both as to history and policy and legal analysis, and 
I understand that several lawsuits have been filed that would 
be looking at these definitions.
    So, I have to beg off from offering any legal analysis or 
opinion myself because my job is to administer the 2020 census.
    Mr. Raskin. OK. Just my own little insight on it is that 
when the Founders of the Constitution wanted to use the word 
citizen they used the word citizen, like in Article 3 Section 2 
establishing diversity jurisdiction in Federal courts where a 
citizen from one state could sue a citizen from another state.
    But here, in Article 1 Section 2, the Founders said that 
the apportionment of representatives must be based on, quote, 
``the actual enumeration of the whole number of free persons.'' 
Of free persons.
    So, I mean, can we agree that if the president's new 
interpretation is pasted onto the census, this will be a 
radical departure from everything that we have done for more 
than two centuries?
    Mr. Dillingham. This Presidential memorandum has nothing to 
do with our operation right now with the census. We are 
counting everyone. It has to do with a tabulation that has been 
requested on apportionment.
    Mr. Raskin. Right, and but for more than two centuries the 
census has counted all persons, right, and the administration's 
attempt to try to impose a citizenship question even was 
invalidated by a Supreme Court that Donald Trump helped to 
construct himself. But that Supreme Court said that this was a 
lawless effort by the administration, right.
    So--OK, so you--in other words, you are just going to 
remain agnostic on the constitutional question here?
    Mr. Dillingham. I think I have a----
    Mr. Raskin. Yes.
    Mr. Dillingham [continuing]. Professional obligation is the 
prudent thing to do.
    Mr. Raskin. OK. Would you pronounce, at least on this one? 
Has the text of the Constitution changed in the last two years?
    Mr. Dillingham. Not that I am aware of.
    Mr. Raskin. OK. And how long have you been with the census?
    Mr. Dillingham. Just over a year and a half at this point.
    Mr. Raskin. OK. But it is your understanding that 
noncitizens have always been counted in the census, according 
to the constitutional text?
    Mr. Dillingham. It is my understanding that the 
Presidential memorandum is requesting for a change in the 
tabulation and calculation of--for apportionment purposes.
    Mr. Raskin. OK. Let me switch over to talk about COVID-19. 
Are we taking care of our people sufficiently? Are we--are you 
training your census count takers in all of the proper COVID-19 
precautions?
    Mr. Dillingham. We are certainly trying to. I think we are. 
But we are very vigilant on that. We are continuing to do 
assessments each and every day, seven days a week, certainly, 
with the data from the CDC, from Health and Human Services, the 
state data, the local government data.
    We actually have a fusion center that is monitoring 
developments seven days a week. We have purchased the personal 
protective equipment. We have plans for obtaining more. We have 
a process by which everyone wears their mask.
    So, yes, we are doing everything. We are very diligent and 
we want to make sure that those practices are not only in the 
training but we want to monitor. So, yes, I think we are doing 
an excellent job.
    Mr. Raskin. OK. The reason I ask is that I have heard from 
a field enumerator in training who has quit or is planning to 
quit because of COVID-19, and this person told my staff that 
despite, you know, your formal expressed commitment to taking 
care of everybody they are not getting any real training on how 
to minimize COVID exposure in their work. So, they are given 
the Purell and the cloth mask but no real instructions on how 
to conduct themselves to limit exposure. So, it would be great 
if you could get back to us.
    Mr. Dillingham. Yes. Sure.
    Mr. Raskin. Please do get back to us, if you would, with 
really what your plan is to fully educate the whole staff and 
to make sure that this is something we are on top of because 
enumerators can, obviously, become super spreaders if they are 
not following the right precautions.
    Mr. Dillingham. Congressman, we certainly will, and I will 
say that we do have challenges because a lot of our training is 
virtual training. But we are also improving that training and I 
will say when we are hiring, you know, 500,000--a half a 
million employees, I can't say there is never slippage. But we 
are doing what we can and we will continue to enhance if we 
identify any needs.
    Mr. Raskin. Do you have a publication like COVID-19 rules 
for the road or specific instructions?
    Mr. Dillingham. I don't have the training curriculum with 
me, but we can get you that.
    Mr. Raskin. OK. If you would share it with us----
    Mr. Dillingham. Certainly.
    Mr. Raskin [continuing]. Just so we get that out there. We 
want to make sure, one, that all of our enumerators are 
properly taken care of, and two, the public knows that so that 
no one is afraid to interact with them.
    Mr. Dillingham. Absolutely. And I might point out also, as 
I mentioned in the opening statement that, you know, we are in 
the early stages of launching the enumeration now. So, we are 
learning at this stage, and on August the 11 we will be, 
basically, enumerating nationally.
    So, we have phased this in so that we can learn and it is a 
very dynamic environment with the virus and so we are learning 
as we go and doing what we can to make sure everyone is 
protected.
    Mr. Raskin. Well, I appreciate that, and you can become a 
model to the rest----
    Mr. Dillingham. Thank you.
    Mr. Raskin [continuing]. Of the government and the rest of 
the country. I appreciate it.
    I yield back, Madam Chair.
    Chairwoman Maloney. Thank you. The gentleman's time has 
expired.
    I now represent by video Congressman Gosar. Can you hear 
us? Congressman Gosar, you are now recognized.
    Mr. Gosar. I can hear you. Can you hear me?
    Chairwoman Maloney. Yes, we can. Thank you. You are now 
recognized.
    Mr. Gosar. Thanks, Madam Chairwoman.
    Director Dillingham, we have heard the fear mongering for 
months from my friends on the left and the liberal media 
accomplices of the allegations that the responses to the 2020 
decennial will fall behind previous decennials.
    Could you elaborate, despite the fear being spread by those 
on the left, why the current self-response rate is in fact on 
par or slightly ahead of previous decennials at the same period 
of time?
    Mr. Dillingham. Let me say that, as we pointed out, the 
internet option that we have implemented this year, there was a 
lot of concerns of last year in ensuring that all the 
protections were in place, the technologies were in place, and 
we are very--to some extent, a little bit surprised how people 
prefer the internet option and in this environment it is by far 
the safest option and the most efficient option.
    So, 80 percent of our self-responses are coming in via the 
internet. We still have the telephone option and in different 
times and right now, for various reasons, that is picking up a 
little.
    But frequently people will use the telephone option to just 
ask questions about how they can do the internet option. So, we 
have that, and, of course, they can do the traditional paper 
option.
    So, having those three options for self-response as well as 
expanding our mailings, our extensive outreach activities, are 
making a difference. So, we are very pleased to be where we 
are.
    Mr. Gosar. Can you hear me?
    Mr. Raskin. Yes.
    Mr. Gosar. Can you hear me?
    Mr. Raskin. Yes, we got you.
    Yes, you can proceed.
    Mr. Gosar. Can you hear me?
    Mr. Raskin. Yes. Yes, you can proceed.
    Mr. Gosar. Oh, OK. I am sorry.
    Now, we have heard for months from my liberal friends on 
the left that the integrity of the Bureau's network and backup 
system are inadequate to handle the online response. Did they--
they
    [Inaudible] with this fear before the census started, kind 
of like what we have been seeing today. Has the Bureau's system 
ever crashed as predicted by our liberal friends?
    Mr. Dillingham. No, it has not. It has been tremendously 
successful and, as I said, we have not had a----
    Mr. Raskin. Mr. Gosar, I think you need to mute one of your 
devices. I think you are getting feedback. I think you might 
have us on two different devices. There we go.
    Mr. Dillingham. We have had tremendous success with the 
three options and the favorite option for self-response is the 
internet.
    [Pause.]
    Mr. Gosar. Director Dillingham, the majority likes to say 
that this administration does not want to count everyone. It 
does not want to reach hard-to-count communities.
    Has anyone in the Trump administration, including Secretary 
Ross, ever suggested you do less than your highest level of 
effort to count everyone, including the--reaching the hard-to-
count communities?
    Mr. Dillingham. Well, the latter part of that question is 
absolutely accurate. We are devoting tremendous effort all 
throughout the Census Bureau with seasoned professionals to 
make sure that we reach everyone and, particularly, the hard-
to-count areas.
    [Pause.]
    Mr. Raskin. Mr. Gosar, have we lost you?
    [No response.]
    Mr. Raskin. Mr. Gosar? OK.
    Why don't we proceed at this point then with Ms. Tlaib and 
we will come back to Mr. Gosar when we get him back up.
    Ms. Tlaib, you are recognized now for five minutes.
    Ms. Tlaib. Thank you, Chairman.
    Dr. Dillingham, during our oversight hearing when you last 
testified on February 12 I asked you about the administration's 
failure to include a racial or ethnic category for individuals 
who identify under MENA, which is the Middle Eastern or North 
African category.
    Following that meeting, I sent you a letter along with our 
Oversight Chairwoman Maloney inquiring why this decision was 
made, and I have to say I was pretty, you know, underwhelmed 
with the explanation.
    Since then, I worked with Committee on Appropriations to 
ensure that this issue is a priority in the 2030 census and, 
currently, the Subcommittee on Commerce, Justice, and Science 
report does say, I quote, ``The committee directs the Census 
Bureau to conduct a feasibility study on including a race 
category for individuals identified as MENA, which was not 
ultimately included in the 2020 census questionnaire.''
    So, Dr. Dillingham, will you commit on record to do as the 
committee directs and conduct the study to include a race 
category for individuals who identify as MENA?
    Mr. Dillingham. Congresswoman, I do remember your request. 
My understanding was we did at least partially reply, and there 
may have been some other information that it may be in process.
    Ms. Tlaib. No, I am asking you, we put this in the 
committee----
    Mr. Dillingham. Yes, with regard--with regard to Congress, 
I think you had indicated it was appropriators asking us. We 
are, certainly, very interested in looking at that topic and we 
are very beginning the process of looking at the 2030.
    Ms. Tlaib. Yes. Yes. OK. Yes.
    So, I just want you to know----
    Mr. Dillingham. Yes.
    Ms. Tlaib [continuing]. Dr.--no, I hear you, because the 
20--so the previous administration already decided to do it. 
You all just ignored it. So, are we--so just to be clear, like, 
right now we are saying the committee also expects the 
questions--the MENA category to be on the 2030. Will you 
support----
    Mr. Dillingham. I will support the research as to----
    Ms. Tlaib. Will you support anything
    [Inaudible]
    Mr. Dillingham. Yes, I will support the research into your 
issue and I do think that one of the improvements that was done 
is, in fact, the write-in. But I understand that you wanted 
more than that and we will look into it. Yes, ma'am.
    Ms. Tlaib. So, also will you commit on record to do as the 
committee directs and conduct this study to include--I am 
sorry. The committee report also put in there that the 
committee also expects that the questions on sexual orientation 
and gender identity will also be examined for possible 
inclusion in the 2030 census.
    Will you commit on record to do as the committee directs 
and examine for the possible inclusion question on sexual 
orientation and gender identity?
    Mr. Dillingham. Madam Congresswoman, we will look at that. 
That has been a topic that has, you know, been examined, 
continues to be examined, and we do have questions in some of 
our surveys that, in fact, get to the heart of those questions.
    I think that there is a need to make sure that questions of 
that type would work with the census. But we will, certainly, 
study that.
    Ms. Tlaib. I appreciate that.
    Mr. Dillingham. Thank you.
    Ms. Tlaib. Thank you, and I kind of want to switch subjects 
now.
    On April 13, 2020, Secretary Ross personally called leaders 
in Congress to tell them the administration needed additional 
time to deliver redistricting data because of delays due to the 
coronavirus pandemic.
    In order to honor that request
    [Inaudible] 2020 members of the Oversight Committee 
introduced the fair
    [Inaudible] census that
    [Inaudible] 2020 the delivery deadline
    [Inaudible] the administration had requested well into 
2021.
    Also, the census official leading field operations said in 
May, quote, ``We have passed the point where we could even meet 
the current legislative requirement of December 31. We can't do 
that anymore.''
    Dr. Dillingham, briefly, do you agree with the assessments 
by--that has been put forth by your colleague, Mr. Olson? Why 
or why not?
    Mr. Dillingham. Congresswoman, if you could repeat the 
latter part of your question. But----
    Ms. Tlaib. So, it is--yes, Tim Olson said, ``We have passed 
the point where we could even meet the current legislative 
requirement of December 31. We can't do that anymore.''
    Do you agree with Mr. Olson?
    Mr. Dillingham. Congresswoman, I can assure you that we 
do--are doing continuous assessments and there had been----
    Ms. Tlaib. So, you don't agree with him?
    Mr. Dillingham. I can't--I can't agree with--we got many 
more assessments ahead of us here and we are proceeding with--
--
    Ms. Tlaib. OK. Well----
    Mr. Dillingham [continuing]. As soon as possible----
    Ms. Tlaib. Yes.
    Mr. Dillingham [continuing]. To conduct the census.
    Ms. Tlaib. You know, he runs the field operations, Mr. 
Dillingham.
    Mr. Dillingham. He does.
    Ms. Tlaib. Yes. And he is telling you this is bad--like, we 
are not going to be able to meet the deadlines. This is--I 
don't know, it is common knowledge. I mean, if they are the 
ones on the ground with the direct contact with the people and 
the residents, I think you should listen to them.
    Mr. Dillingham. Congresswoman, I also--I always listen to 
him and he is a very important and knowledgeable member of the 
team.
    Ms. Tlaib. But you are just--OK. Yes. Well, despite the 
operational delays, the White House is now stating that corona 
relief funds will allow the Trump administration to rush 
apportionment count by December before President Trump could 
leave the White House. So, it now appears that the 
administration is trying to finish before December 31.
    You know what this is really about and I got to tell you, I 
just need you to choose your country first and making sure 
that--because, for me, it is not about reapportionment.
    It is also about class sizes, health care, services for our 
residents, and I don't--you know, the constant politicizing of 
our census has been disgusting and, really, undeserving. Our 
residents don't deserve this kind of count.
    Mr. Comer. Madam Chair?
    Ms. Tlaib. They want to be counted. They want to be able 
to----
    Mr. Comer. Madam Chair?
    Ms. Tlaib [continuing]. Move forward and you have people 
out in the field telling you----
    Mr. Comer. She is over time. Madam Chair----
    Ms. Tlaib. Yes. I--well, I yield. I thank you very much.
    Mr. Comer. Madam Chairman?
    Mr. Dillingham. Thank you. Thank you.
    Mr. Comer. Madam Chairman?
    Mr. Sarbanes.
    [Presiding.] This is--this is Congressman Sarbanes. I think 
I have taken over the chairing of the committee----
    Mr. Comer. Who?
    Mr. Sarbanes [continuing]. If I am not mistaken, and would 
yield to Mr. Palmer next for his questions.
    Mr. Comer. OK. Thank you. Just wanted to make sure. She was 
over time. Thank you.
    Mr. Sarbanes. Mr. Palmer, you are recognized.
    Mr. Palmer. I thank the chairman.
    Director Dillingham, for the record, and you can speak 
slowly so that all my colleagues understand it, but does the 
census intend to count everyone?
    Mr. Dillingham. Congressman, it certainly does.
    Mr. Palmer. OK. So, for the record, we are counting 
everyone?
    Mr. Dillingham. We are counting everyone who lives in this 
country and it is their usual residence. That is correct.
    Mr. Palmer. I thank the gentleman, and I think that is the 
proper approach for the Census Bureau, and I don't think we 
should make it about anything else but counting people who are 
in the country.
    Now, let me ask you this. We have got the issue of 
undocumented people living here and, as I raised this point 
earlier in the first panel, a substantial number of those are 
transitory individuals who--about 18 to 20 percent of whom will 
not be here for the next census.
    So, one of the issues that I wanted to ask you about is how 
does the Census Bureau count undocumented immigrants or people 
who live in that transitory situation where they are only here 
for a few years and then they are gone? Do you--do you deal 
with that at all?
    Mr. Dillingham. Well, Congressman, we--if someone is living 
here for a few years, in all likelihood they are going to be 
counted if they are usually residing here.
    Now, that doesn't mean they have legal status. So, one of 
the reasons the president, I assume, who directed us to look at 
the administrative data or for issues similar to that, what is 
the status of some of the people that are usually residing in 
the country and is it an undocumented status or is it in the 
illegal status.
    Mr. Palmer. So----
    Mr. Dillingham. And that is one of the things for the 
Presidential Memorandum.
    Mr. Palmer. So, let me be clear. So, when there is someone 
here who is only going to be here, say, another year or two, 
they will be counted in the census, even though--because you 
don't know when they are leaving, that they will be counted.
    Mr. Dillingham. That is correct.
    Mr. Palmer. Now, this--I want to ask another question, then 
I will come back to that. But do you include short-term 
visitors? I mean, people here who are on student visas who 
might be here for a year getting a Master's or two years 
getting a Ph.D. or maybe even four years for an undergraduate 
degree. Do those--are those people counted?
    Mr. Dillingham. Congressman, usually a year makes a big 
difference. So, it--if they are usually residing here and April 
1 they are residing here and it is their usual residence, we do 
count them.
    Mr. Palmer. OK. Well, that raises and, I think, reinforces 
the point that I tried to make earlier about we should count 
everybody.
    But we shouldn't count everybody for apportionment, because 
you just testified that you count people who are here on 
student visas for the census.
    But I don't think--well, I won't say that I don't think 
anybody would reasonably argue that those people should be 
counted for apportionment because I think there are a number of 
people that are here now would say they should be.
    But I think that raises this--a very serious issue for 
counting people who won't even be here maybe for the next 
election but they would be counted for apportionment and it 
would have a profound impact on representation in Congress for 
a number of states that--and I raised this point as well in the 
previous panel about states that are--declared themselves 
sanctuaries.
    There are 20 metro areas, 60 percent of the unauthorized 
immigrants live in 60 cities--I mean, in 20 metro areas that 
have declared themselves sanctuaries, which creates this, I 
think, an incredible incentive for people to come there because 
they are going to be protected from Federal law enforcement, 
even those who have committed felonies. I mean, this doesn't 
make any sense to me.
    But I do appreciate the fact, for the record, that you are 
counting everybody. I just think that I feel like, and I think 
a lot of my colleagues agree, that we shouldn't be counting 
people who are here temporarily or unlawfully for apportionment 
purposes.
    I thank the gentleman and I yield back.
    Mr. Dillingham. Thank you.
    Chairwoman Maloney. [Presiding.] I thank the--the gentleman 
yields back.
    The chair now recognizes Debbie Wasserman Schultz from 
remote.
    Congresswoman Schultz?
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Chairwoman Maloney. OK, great.
    Ms. Wasserman Schultz. Director Dillingham, just a couple 
of weeks after the Supreme Court struck down the citizenship 
question, the administration issued an executive order that 
instructed the Commerce Department to obtain an estimate of the 
number of citizens and noncitizens by other means.
    And Attorney General Barr was very clear about the purpose 
of doing that. He said, and I quote, ``There is a current 
dispute over whether illegal aliens can be included for 
apportionment purposes. Depending on the resolution of that 
dispute, this data may possibly prove relevant.''
    You appeared before an Oversight Subcommittee just a few 
days later and were asked directly by Representative Pressley 
if you could confirm the citizenship data collected under the 
president's 2019 executive order would not be used in 
apportionment counts and you responded, quote, ``The--we 
produce, I, and apportionment counts. Let me get back to you on 
that.''
    Mr. Dillingham. Yes.
    Ms. Wasserman Schultz. Unquote. When you testified on July 
24, 2019, were you already aware of the president's plans to 
exclude undocumented immigrants from the apportionment counts?
    Mr. Dillingham. No, Congresswoman, I was not.
    Ms. Wasserman Schultz. When did you first become aware that 
the president, the Commerce secretary, or anyone else in the 
administration was planning to exclude undocumented immigrants 
from the apportionment counts?
    Mr. Dillingham. Well, I was only formally aware upon 
issuance of the Presidential memorandum. But there was--I was--
--
    Ms. Wasserman Schultz. When did you first become----
    Mr. Dillingham. There was a press story a couple of days 
earlier.
    Ms. Wasserman Schultz. Reclaiming my time. Reclaiming my 
time.
    When did you first become--not formally, but when did you 
first become aware that the president, the Commerce secretary, 
or anyone else in the administration was planning to exclude 
undocumented immigrants from the apportionment counts?
    Mr. Dillingham. I heard--there was a story in the local 
press here in the D.C. area, perhaps a Capitol Hill newspaper 
or, as I recall, someone reported a story that such a directive 
may be coming down. And it was on a--as I recall, it seemed 
like it was late on a Friday and I was waiting to learn more, 
and then a few days later the directive was issued.
    Ms. Wasserman Schultz. You are the director of the census, 
you learned about the president's intent to issue an executive 
order from the--to exclude undocumented immigrants from 
apportionment counts in a newspaper article?
    Mr. Dillingham. Actually, when I saw the formal----
    Ms. Wasserman Schultz. Is that correct
    [Inaudible]
    Mr. Dillingham. The formal decision, when it was posted on 
the Web.
    Ms. Wasserman Schultz. So, no one gave you a heads up? You 
had no discussions prior to formal notification or seeing a 
newspaper article?
    You had no discussions with anyone at all prior to either 
seeing a newspaper story or a formal production of the 
executive order?
    Mr. Dillingham. That is absolutely correct.
    Ms. Wasserman Schultz. You are under oath. You are under 
oath. You had no----
    Mr. Dillingham. Absolutely. Absolutely, and I will swear to 
it all day long under oath.
    Ms. Wasserman Schultz. OK. Just making sure that we are 
clear. That is unbelievable to me that you are the director of 
the Census and you didn't hear anything about this before the 
formal execution of the EO or a newspaper article.
    Mr. Dillingham. That is correct.
    Ms. Wasserman Schultz. And that is because the decision to 
exclude undocumented immigrants from apportionment counts is, 
clearly, unconstitutional. As a Federal officer, I am sure you 
took an oath.
    You certainly took one here today, but you took an oath to 
uphold and defend the Constitution. Do you not have the 
obligation as the Census director to know how the data your 
agency collects will be used?
    Mr. Dillingham. At no time----
    Ms. Wasserman Schultz. And how do you reconcile this 
memorandum--let me finish my question, please. How do you 
reconcile the recent memorandum with the oath that you swore to 
uphold?
    Mr. Dillingham. Congresswoman, let me explain that the 
Census Bureau produces statistics and data. We have no control 
over its uses.
    Ms. Wasserman Schultz. It certainly is your responsibility 
to know that the data that you collect is used according to the 
Constitution, isn't it?
    Mr. Dillingham. I am aware of the provision for 
apportionment in the Constitution, yes. Yes, Congresswoman.
    Ms. Wasserman Schultz. Your obligation under your oath is 
to make sure that you are--the data that you are collecting is 
that you are aware of how it will be used. How do you reconcile 
the recent memorandum with the oath you swore to uphold? Or are 
you just a data receptacle?
    Mr. Dillingham. Congresswoman, like any Federal statistical 
agency, we produce the best, most comprehensive, complete, and 
accurate data possible and we have received this request in a 
Presidential memorandum to look at our data.
    Ms. Wasserman Schultz. Right. I understand that. Reclaiming 
my time.
    I understand that you have received that request.
    Mr. Dillingham. Yes.
    Ms. Wasserman Schultz. You are responsible for the 
decennial census.
    Mr. Dillingham. That is correct.
    Ms. Wasserman Schultz. And the use of the data according to 
the Constitution. This executive order is not compliant with 
that, and I think anyone looking at the pattern of the 
administration's actions can see that this memorandum is an 
attempt to do an end run around the ruling of the Supreme Court 
and the requirements of the Constitution.
    I only hope that someone leading the Census Bureau, and if 
not you then someone else, will stand up and follow the law, 
not follow a lawless president.
    Thank you. I yield back the balance of my time.
    Mr. Dillingham. Thank you, Congresswoman.
    Chairwoman Maloney. The gentlelady yields back.
    Grothman? Mm-hmm.
    Mr. Grothman. Thank you. Always enjoyable. I am going to 
followup on what the--some of the questions the gentleman from 
Alabama asked.
    If I am in the military and I am from Wisconsin, and I am 
stationed a variety of places over a period of years, never in 
this country--stationed in Germany, stationed in Korea--but I 
just decide to keep Wisconsin as my permanent address--I may 
pay taxes in Wisconsin, I may vote in Wisconsin, even though I 
am not there--where should they count that person for the 
purpose of the census? Or since they are never sleeping in the 
United States should they not count them at all?
    Mr. Dillingham. We have special provisions for counting the 
military, and there is special criteria that, certainly, our 
leadership has been implementing for a period of years, that 
how they count people from either place of deployment or their 
legal residence. We can get back to you with the exact 
criteria, but we do count the military.
    Mr. Grothman. Is that--is that statutory or is that just a 
rule?
    Mr. Dillingham. I will get back to you if there is a 
statutory basis for it. But it is one of--it is our criteria.
    Mr. Grothman. It is kind of relevant as to whether it is 
statutory or a rule, isn't it?
    Mr. Dillingham. It is.
    Mr. Grothman. Very, very relevant.
    Mr. Dillingham. We have a practice--accepted practice.
    Mr. Grothman. Yes. I would like to know that.
    Mr. Dillingham. OK.
    Mr. Grothman. Second question, as far as students are 
concerned.
    Mr. Dillingham. Yes.
    Mr. Grothman. If somebody lives in Wisconsin but goes to 
school in Ohio, you know, returns over summer break, returns 
over--you know, probably given how much people go to school 
nowadays it might be half the time spent at both places, and 
that person, therefore, I think, probably should file taxes in 
Wisconsin and vote in Wisconsin. But you are saying that person 
should be considered a resident of Ohio?
    Mr. Dillingham. Well, we--the enumeration criteria does not 
match the tax requirements, and what we do with college 
students it is where they usually reside and we look at April 
1.
    So, basically, to simplify we generally count, particularly 
full time college students, where they are residing and if they 
are on a college campus outside of their state that is where we 
count them.
    So, that at University of Wisconsin, you will have a lot of 
students from Ohio that would be counted there. It is really to 
capture the count for that locality.
    Mr. Grothman. OK. I would say it is about 50/50 and let us 
say they are on Spring Break on April 1. That doesn't matter, 
though, if they are home with their parents for a week on April 
1?
    Mr. Dillingham. The April 1 is, particularly with the 
pandemic, is not quite as determinative as to where their usual 
residence is.
    Mr. Grothman. OK. So, you are saying--OK. Interesting.
    And with regard to diplomats, if somebody is from France, 
has been living in an apartment in Virginia for six months, you 
count that person for the census or for six years even, you 
count that person as a Virginia resident for purposes of the 
census?
    Mr. Dillingham. It is based on their usual residence. I 
think there are some exceptions for consulates and embassies 
that people are actually living in an embassy. But we do count, 
again, people where they usually reside.
    Mr. Grothman. OK. So, if a student comes here from France 
and is here for three months and then leaves for three months 
and comes here for three months, where are they counted?
    Mr. Dillingham. Well, that might be a tough question as to 
where they usually reside. But I will----
    Mr. Grothman. Usually reside means where they physically 
are?
    Mr. Dillingham. Where they usually physically are. Correct.
    Mr. Grothman. I talked to people a while ago on the last 
panel--I think I have this right--and I gave an example in 
which someone from Iowa, an Iowa resident all the way, car 
registered in Iowa, votes in Iowa, pays tax in Iowa, they come 
to Wisconsin because mom is in home hospice and they want to 
take care of their mom at the end of their life. They intend to 
return to Iowa. At what point, for the purposes of the census, 
is that person going to be counted in Wisconsin instead of 
Iowa?
    Mr. Dillingham. Well, it is probably going to be where they 
claim that they usually reside.
    Mr. Grothman. They don't even know yet, right. They are 
just kind of hanging--they don't know yet. They are hanging you 
out in Wisconsin with mom.
    Two months in? Four months in? When they are there for six 
months----
    Mr. Dillingham. Well, yes. If it is hard for--to determine. 
Usually----
    Mr. Grothman. It is not hard--it is not hard for the 
Wisconsin Department of Revenue to determine. It is not--it is 
not difficult for people who vote to determine where they 
should be.
    Just a minute. We will wait here for a second.
    [Pause.]
    Chairwoman Maloney. Can someone mute their--there is a 
disruption. Can someone mute their devices, please? Please mute 
your devices.
    [Pause.]
    Chairwoman Maloney. Please mute your devices, please. OK.
    I am sorry. You will get extra time, Mr. Grothman. I am 
sorry.
    Mr. Grothman. You did a good job there. You have a career 
in law enforcement waiting for you if you ever move on from 
here.
    Yes, in that situation at what point does that person say, 
I am counted in Iowa instead of Wisconsin, or Wisconsin instead 
of Iowa?
    Mr. Dillingham. It will be an individual factual 
circumstance. I might add, generally, that might help with this 
is that when people, particularly students, move, for example, 
to Madison, Wisconsin--they are from out of--Madison, 
Wisconsin, and they are from out of state, generally, there are 
sort of tradeoffs.
    So, if they come from another state, that they are not 
counted where they are perhaps paying taxes or their parents 
live, they would be--and vice versa, so that is sort of the 
reasons, I think, behind the criteria.
    Mr. Grothman. OK. I will give you a final question because 
people were asking about this race stuff. Obviously, you know, 
with intermarriage so many people in this counter are 
interracial. Who determines what so-called race you are?
    Mr. Dillingham. The respondent determines and can write in.
    Mr. Grothman. Whether you are one-eighth something? Whether 
you are----
    Mr. Dillingham. The respondent determines.
    Mr. Grothman. It has nothing to do--it is entirely 
subjective, unlike where I live?
    Mr. Dillingham. That is correct.
    Mr. Grothman. I could be one-sixteenth Mexican, I am 
Mexican, I am Mexican?
    Mr. Dillingham. That is correct.
    Mr. Grothman. OK. Thanks.
    Chairwoman Maloney. I want to thank the gentleman for his 
line of questions. It was interesting. I would like to add to 
it Americans living abroad that were assigned to--are American 
citizens but they are working abroad or maybe just vacationing 
abroad for several years. Where are they counted?
    Mr. Dillingham. Actually, they are not counted if they are 
not--if they are not usually residing in the U.S., and one of 
the reason, there has been much research and there has been 
prior case law on that, as I understand it, but at the same 
time we have people from those countries that may be living 
here with the same circumstance.
    So, we only count those residing in the country, and if 
they are--if they are abroad for years of study or whatever 
purpose that we don't count them.
    Chairwoman Maloney. Thank you.
    Congressman Sarbanes is recognized.
    Mr. Sarbanes. Thank you. Thank you, Madam Chair. Thank you, 
Dr. Dillingham.
    I wanted to talk to you about the time lines that you are 
working under. Could you review for me the--am I understanding 
it correctly that the field operation that was originally 
scheduled to finish, I guess, maybe the end of July was pushed 
to October as a result of these dynamics that you are--you have 
referred to?
    Mr. Dillingham. Congressman, we did have a shift in 
schedule because of the pandemic. So, in late March, we had to 
really call a halt to our operations that required human 
interactions for reasons of safety, just like the rest of the 
country, the governments and the businesses.
    We, basically, had to suspend our operations, and at a 
point in time we had to start to begin our assessment process, 
well, when do we think, with the current knowledge, we can 
restart and complete the process.
    And as you are well aware, nationally, and, certainly, with 
the president's task force they begin to lay out criteria and 
guidance for what we call reopening and resuming our 
operations, and we are really in the forefront of the Federal 
agencies in getting back to business and opening our 248 
offices all across the Nation.
    We have to do it safely and we have to do it, and also we 
will have to enumerate safely.
    Mr. Sarbanes. Was there also a request by the 
administration--I think it came to Congress--to push back by 
two or three months tabulations related to the apportionment 
and that process from what it would normally be?
    Mr. Dillingham. Congressman, those--my understanding is 
there were discussions but that wasn't at my level, and so that 
is my understanding that there had been some discussions and 
consideration of that and has been also reported in the news.
    But that is not something I personally participated in.
    Mr. Sarbanes. Is it also true--and then is it also true 
that very recently the administration appears to have reversed 
direction on that and is now suggesting that they want the 
census to be wrapped up quickly so that that tabulation that I 
just referred to could actually happen before the end of the 
year? Are you aware of that?
    Mr. Dillingham. I am not aware of all the many reasons 
except to say that the Census Bureau and others really want us 
to proceed as rapidly as possible and to get this--get a 
complete and accurate count as soon as possible.
    Mr. Sarbanes. Mm-hmm. Do you worry about the census being 
compromised if there is pressure to finish it too quickly and 
what would that date be, in your mind?
    Mr. Dillingham. I don't have a date in----
    Mr. Sarbanes. How much time do you need? How much time do 
you need to give us the assurance that the census can be 
conducted in a way that yields a robust result?
    Mr. Dillingham. Well, Congressman, we certainly want a 
complete and accurate census. So, that will be, certainly, a 
consideration as to when we consider the job is done.
    Mr. Sarbanes. Mm-hmm. Well, I mean, my anxiety here is that 
the administration originally seemed to be reasonably 
accommodating the pressure of the pandemic on your efforts by 
requesting some extension of time with respect to how the 
results are tabulated for certain purposes.
    That was in line with your own judgment that you needed to 
push the field operations back by two or three months. So, that 
was consistent.
    But now we are hearing that they are looking for money to 
push the process forward and what I am concerned would be a 
very premature way and would actually undercut your ability to 
get this done properly.
    So, you are sort of being whipsawed right now between these 
two different impulses and I am alarmed at that and I think it 
could undermine the census.
    So, we are going to keep a very close eye on this and try 
to protect the independence of this process from the--this 
politics that are leaning in on you right now.
    With that, I will yield back.
    Mr. Dillingham. Thank you.
    Chairwoman Maloney. I want to thank the gentleman for 
raising that important point. The census professionals have 
told me that they need at least 10 weeks to do a professional 
count and they are starting on August 11, and there has been 
some rumors of trying to complete it by December 31.
    The professionals that I have talked to in the Census 
Bureau say that that is impossible, that they need to have the 
full 10 weeks to get the--they expect to knock on the doors at 
least six times to get an accurate count.
    We are supporting, really, Secretary Ross's suggestion and 
request to extend the time for the census. So, there are others 
that say that for political reasons the president wants it--to 
have this earlier so that he can make determinations about what 
information is sent to the states, and I think that is, 
clearly, unconstitutional and wrong.
    I want to thank you, Mr. Sarbanes, for helping me out 
earlier and becoming the chair. Thank you for your work and for 
your questions.
    I now recognize Congressman Higgins.
    Mr. Higgins. Thank you, Madam Chairwoman.
    Dr. Dillingham, are you present today voluntarily or by 
subpoena, good sir?
    Mr. Dillingham. I am sorry. I am going to have to ask you 
to repeat that question.
    Chairwoman Maloney. He asked if you were here voluntarily 
or by subpoena.
    Mr. Dillingham. No, I am here voluntarily.
    Mr. Higgins. I can repeat my questions, Madam Chair. Thank 
you.
    Chairwoman Maloney. OK.
    Mr. Higgins. Are you here voluntarily or by subpoena, good 
sir?
    Mr. Dillingham. I am here voluntarily. That is correct.
    Mr. Higgins. I think it is important that America 
recognizes that you are voluntarily appearing at a hearing that 
is titled ``Counting Every Person: Safeguarding the 2020 Census 
Against the Trump Administration's Unconstitutional Attacks.''
    Are you a gentleman of integrity and good faith, sir?
    Mr. Dillingham. Certainly, I strive to be. I think I am. I 
have had the distinction of being confirmed by the U.S. Senate 
unanimously on two occasions, the first time in 1990 by the 
committee that was chaired by then Senator Biden, and then most 
recently by Senator Ron Johnson.
    I have served six administrations so I have considerable 
experience, and I think they determined that I met the 
qualifications by statute as well as their criteria for being 
unbiased, objective, and professional.
    Mr. Higgins. Thank you for your service and that 
clarification. You are a gentleman of distinguished 
accomplishment and we very much appreciate your participation 
in the effort to secure an accurate and very thorough census.
    You are this administration's director for the U.S. Census 
Bureau, U.S. Department of Commerce. Is that correct?
    Mr. Dillingham. That is correct.
    Mr. Higgins. So, you are--you are the main guy representing 
the, quote, unquote, ``Trump administration'' as you sit before 
this committee today?
    Mr. Dillingham. Congressman, I will say that my statute--my 
selection was to be nonpartisan and the agency is nonpartisan 
and a pretty independent statistical agency.
    Mr. Higgins. As it should be. But you represent the 
administration's best effort to sure an accurate census. Is 
that correct?
    Mr. Dillingham. For an accurate census, absolutely, 
Congressman.
    Mr. Higgins. And you intend to do just that, sir? You 
stated--you quoted that the president's directive, which 
stated, in part, ``to provide information permitting the 
president to the extent practical to exercise the president's 
discretion to carry out the policy of the exclusion of illegal 
aliens from the apportionment base to the extent feasible and 
to the maximum extent of the president's discretion under the 
law.'' That is a quote from the president's directive.
    You stated that this does not change the Census Bureau's 
plans for field data collection across the Nation. Do you stand 
by that statement, sir?
    Mr. Dillingham. Congressman, I do, that our operations will 
continue as planned in the context of this Presidential 
memorandum. It does not impact. It really is a request for a 
special tabulation for apportionment purposes, which is apart 
from getting a complete and accurate count of people living in 
our Nation.
    Mr. Higgins. Exactly. I very much appreciate you appearing 
before the committee today in service to our Nation, doing your 
very best to lead a large team of dedicated Americans to 
determine a precise count for our census.
    Your appearance before the committee today, despite the 
fact that this was a premeditated effort to identify President 
Trump's administration and the census efforts to be 
unconstitutional, I applaud your courage for appearing today 
minus a subpoena.
    My final question to you, sir, you stated in your written--
in your written testimony that the Census Bureau is working to 
complete data collection as soon as possible and it strives to 
comply with the law and statutory deadlines. Is that--does that 
quantify your efforts, sir?
    Mr. Dillingham. You are exactly right. That is what we are 
trying to do, and the final question was we are proceeding in 
that direction, if that answers your question, sir. I am a 
little bit--I have a hearing problem. I did volunteer for a 
year's service in Iraq and sometimes the----
    Mr. Higgins. That makes two of us.
    Mr. Dillingham [continuing]. Acoustics here are 
challenging.
    Mr. Higgins. That makes two of us.
    Sir, thank you for appearing before us today.
    Madam Chair, I yield.
    Chairwoman Maloney. Thank you.
    Mr. Dillingham. Thank you, Congressman.
    Chairwoman Maloney. Thank you, and we now recognize 
Congressman Welch.
    Mr. Welch. Thank you very much, Madam Chair, for this 
hearing and, Dr. Dillingham, thank you for appearing 
voluntarily.
    A couple of things. One, just an observation. I know you 
can't speak about the administration's position on many of 
these issues. You have got to just do the job as best you can.
    But I note the irony that the position of the 
administration, essentially, is that undocumented immigrants 
are not, quote, ``persons.'' They are not persons. In that 
respect, that analysis shares--it shares the finding of the 
U.S. Supreme Court in Dred Scott, which was the most 
ignominious decision of the Supreme Court in our history, which 
said that African Americans were not persons.
    So, I think that I am just saying that because I think you 
should understand--all should understand why we are appalled by 
that administration position.
    What I would like to ask you about specifically, Doctor, is 
the challenge of getting an accurate count in rural areas, and 
Vermont is quite rural and our response rate is, I think, 47th 
in person and 40th on the internet, and we have challenges with 
access to broadband in many parts of our state, and we also 
have migrant workers who are helping us in our agricultural 
sector. I understand that your Census Bureau Center for 
Economic Studies predicted a 2.3 percent drop in self-responses 
and an eight percent drop in responses in households with 
noncitizens, including--that includes legal noncitizens.
    My question to start is have the census self-response rates 
lagged in rural areas and what among--that is No. 1, and how 
are you going to address that?
    Mr. Dillingham. Sure. Congressman, we track the areas all 
across the country and we do it by census tracts, and anyone in 
the country can go to our website and they can see how their 
jurisdiction, their tract, their community is doing with self-
response rates.
    I don't have the figures here before me, but we are well 
aware that in some rural communities you have special 
challenges and we have very special procedures that we do.
    I discussed earlier, maybe in my prepared statement, about 
our update leave and we also have various ways that we are--
increased mailings that we are doing in the low-response areas 
and we have a variety of things that we will be enlisting in 
the weeks ahead.
    Beginning August the 11th we should be in all communities, 
and I hope that we have already made progress in most of the 
rural communities. But we will do everything we can according 
to our best abilities and informed by the knowledge of the past 
and the previous decennial census and current data.
    Mr. Welch. Well, just to interrupt----
    Mr. Dillingham. Yes.
    Mr. Welch [continuing]. What are some of the specific 
things? It is hard. I mean, it is hard to get access to people 
who are quite skeptical, even suspicious, of government and 
anyone coming from the Census Bureau is perceived by many to be 
a government person.
    So, what are the specific things you are doing, 
particularly among the immigrant community to find them and 
count them?
    Mr. Dillingham. Certainly. One of the--the most important 
thing, well, we have our communications campaign and we have 
very targeted communications even on local radio and whatever 
communications those communities--that will resonate with them 
and they will get the information.
    In addition to that, we, of course, have a partnership 
specialist, usually selected from those areas, that have 
knowledge of those areas. We are also, very importantly, using 
our partners.
    With 400,000 organizations, the largest ever, those 
organizations literally reach into every community in this 
country. Now, I will say that during the pandemic----
    Mr. Welch. I only have a few minutes. I only have a few--I 
only have a few seconds. Just----
    Mr. Dillingham. I am sorry.
    Mr. Welch. If you are unsuccessful in getting a full count, 
how does that undercount adversely affect communities or states 
like Vermont?
    Mr. Dillingham. Well, if you have an undercount, you know, 
the census data is some of the most used data, if not the most 
used data, at least indirectly, in the country.
    So, it is used for, certainly, the allocation of 
resources--Federal, state, and local. It is used for planning. 
It is used for research. It is used for decisionmaking.
    So, there is a--and it is used in the private sector. So, 
it is very useful, and our theme that in the message we send is 
``Help Shape Your Future: Answer the 2020 Census.''
    We are trying to communicate that messages and our 
partnerships are doing a lot in that effort in that we will 
have, you know, a half million people for where we haven't 
received the responses knocking on the doors. But we have more 
than that in our partnerships.
    Mr. Welch. Thank you, and I yield back.
    Thank you, Madam Chair.
    Chairwoman Maloney. We thank you, and we now recognize 
Congressman Roy I believe by WebEx.
    Congressman Roy?
    Mr. Roy. Yes, ma'am. Thank you, Chairwoman. Appreciate it.
    Dr. Dillingham, thank you for your stamina here. I think 
this hearing has been going for a little while. I was present 
for the first panel, dialing in for the second one, but 
appreciate your presence and your service to our country.
    I had just a couple of questions. You know, I asked some 
questions to some of your predecessors earlier. I just want to 
make sure I understand this correctly.
    Am I right in my understanding, and kind of leaping off of 
Mr. Welch's questions, that when you don't actually come in 
contact with a person, don't get a response, go to a house, 
don't find it, that there are systems in place in the Census 
Bureau, for better or worse, right--we could debate the 
efficacy--where you have imputation?
    Essentially, where you go through count imputation, whether 
that is status count imputation for, you know, literally you 
can't find the address of the house, or occupancy imputation 
where you find the house but you can't find a person, or, you 
know, household size imputation where you don't know how many 
people are there, and that it is practice to impute the numbers 
or, you know, the--what you find in one house in a neighborhood 
to the house you don't find or to the individuals you don't 
find.
    And that there is a second category, characteristic 
imputation, where you are imputing the characteristics of 
people in the neighborhood, say, there are five white folks in 
a house over here. We are going to say that there are five 
white folks in this house by imputation.
    Am I, roughly, right? I mean, just a short yes or no and a 
brief explanation, if you need it. Am I, roughly, right that 
that is something that you carry out and engage in for a not 
statistically insignificant number of the people you are, 
quote, ``counting,'' unquote?
    Mr. Dillingham. Congressman, I would have to qualify my 
answer to that. We do use an imputation process when we have 
exhausted all efforts at counting the individuals at that 
residence, as you pointed out.
    So, there is a process. The numbers are low and we hope 
they remain extremely low. But there are times when we have 
reason to believe, evidence, that someone is living in a 
household but we are unable to communicate with them. Then, in 
fact, we do have an imputation accepted method that has been 
accepted by the courts.
    Mr. Roy. Doctor, I am sorry to interrupt because we have 
limited time. I hate this. I would rather have just a nice long 
conversation.
    Mr. Dillingham. Sure.
    Mr. Roy. Do we have a rough estimate of how many that we 
are talking about here? Are we talking about hundreds of 
thousands? Are we talking about millions? When we are talking 
about counting the uncountable, right--that is a phrase I have 
heard used in the census world community and so forth--what are 
we talking about here on the rough numbers?
    Mr. Dillingham. Well, I can get you more precise numbers. 
But we are not talking millions. We are talking about those 
where we have exhausted our efforts and we have reason to 
believe people are living in that household and then in those 
instances there is an imputation option.
    Mr. Roy. OK. I would appreciate a response to that about 
how many numbers and broken down to the extent possible we 
count imputation and characteristic imputation and, you know, 
the various methods you all use to fill in those holes.
    Another question is, Dr. John Abowd, is he--am I correct 
that that is the individual overseeing the special tabulation 
for redistricting?
    Mr. Dillingham. I am not sure if he has direct management 
of that. But he is over our research and methodology section 
that contributes to that process.
    Mr. Roy. Did Mr. Abowd testify against the efforts by the 
administration to count or to ask the question of citizenship 
on the census last year when it was in litigation?
    Mr. Dillingham. I am aware that he was a witness in that 
case, yes.
    Mr. Roy. And he testified against inclusion of that 
question?
    Mr. Dillingham. I have not reviewed his testimony but I 
think it was considered by many to be--that it raised 
questions.
    Mr. Roy. OK. I just think it merits noting that he has got 
an intimate involvement in how we are overseeing the tabulation 
for redistricting and he was testifying against inclusion of 
the question, which is an administrative decision, and I think 
bears some questioning as to how this process is being carried 
out.
    I don't know how much time I have left, probably not a lot. 
I will go ahead and end with that. I would appreciate your 
response to that question, generally, and I do appreciate your 
taking time in being here. Thank you.
    Mr. Dillingham. Thank you, Congressman.
    Chairwoman Maloney. Thank you.
    I now recognize the vice chair of the committee, 
Congressman Gomez from--by remote.
    Mr. Gomez. Thank you, Madam Chair.
    Mr. Dillingham, thank you for being here with us.
    Mr. Dillingham. Thank you.
    Mr. Gomez. There is a lot of uncertainty, but one thing is 
definitely clear, that if the Census Bureau is not allowed to 
continue its count through October and has time to produce the 
data and they have--as you requested, there is going to be a 
significant undercount when it comes to the population of the 
United States.
    So, I am going to ask you a series of questions that I need 
answers to.
    Mr.--Dr. Dillingham, it is my understanding that OMB sent 
language to the appropriators requesting an additional $448 
million in funding but not granting your request to extend the 
statutory deadline for the data.
    Did you see the OMB language before it was sent?
    Mr. Dillingham. No. No, I did not. But I am aware we put in 
a request for a----
    Mr. Gomez. All right. Thank----
    Mr. Dillingham [continuing]. A billion dollars and I got 
approximately half of that in the Senate bill, I guess.
    Mr. Gomez. OK. Good to know.
    So, you didn't see it. So, therefore, you did not approve 
it, correct?
    Mr. Dillingham. Let me--let me ask you again. Will you 
describe what it is? I am aware that we were requesting 
additional funds as part of the appropriations process. I 
wasn't involved in the discussions, negotiations.
    Mr. Gomez. Correct. Also in your request--hold on. Your 
request was also to extend the statutory deadlines for the 
dating and they sent it without including that language. So, 
you are saying that you never saw the language before it was 
sent. So, has the record----
    Mr. Dillingham. I will--let me--let me----
    Mr. Gomez. I have to go on to the next question.
    Mr. Dillingham. Sure.
    Mr. Gomez. Have you discussed with Leader McConnell the 
need----
    Mr. Dillingham. Let me correct. Let me correct.
    There have been discussions about the schedule and our 
ability to continually assess it. So, I am aware of that topic.
    Mr. Gomez. Yes, but you did not see the language before it 
was sent, as you stated. Have you discussed with Leader 
McConnell the need for the extension?
    Mr. Dillingham. Have I discussed with who? Excuse me.
    Mr. Gomez. Leader Mitch McConnell in the Senate. The need 
for the extension.
    Mr. Dillingham. Oh, I have--I have not discussed with House 
or Senate leadership any specifics about that.
    Mr. Gomez. OK. In this new plan, is it the idea of career 
Census officials that are pulling back the enumeration date, 
like not granting the extension, to do the in-person 
enumeration through October and to ask for--originally 
requested for a four-month extension to get the data to 
Congress by April 21? Is the new deadlines and new plans, is 
that the idea of career Census officials?
    Mr. Dillingham. I can, certainly, say that in discussions 
we have made assessments along the way and they have discussed 
with the House and Senate staffs who we have briefed on a 
weekly basis, and I am sure probably--I am not privy to those 
discussions but I am sure the topic of extension time and a 
shift in schedule were discussed.
    Mr. Gomez. Is the new schedule one prepared by career 
Census officials?
    Mr. Dillingham. I will say that we make assessments and, 
certainly, our career officials are involved in those 
recommendations. Absolutely. We listen to our career people as 
to where we--their assessment as to where we are.
    Mr. Gomez. So, are you still sticking to the Bureau's 
request for Congress to--for a four-month extension to April 
2021 off of the December 31 statutory deadline for delivering 
the president the populations total required to reapportion the 
House of Representatives?
    Mr. Dillingham. Congressman, to be clear, someone asked me 
earlier am I aware that discussions have been held between the 
administration and Congress.
    Mr. Gomez. OK. Let me ask you again.
    Mr. Dillingham. I am, but I am not party to those.
    Mr. Gomez. I reclaim my time.
    Mr. Dillingham. Yes.
    Mr. Gomez. You support your original request, the Bureau's, 
which you are in charge of----
    Mr. Dillingham. Yes, correct.
    Mr. Gomez [continuing]. Request to Congress to extend the 
delivery of the data to April 2021?
    Mr. Dillingham. Congressman, all requests, as my 
understanding, go through the Office of Management and Budget. 
We do not directly----
    Mr. Gomez. I am asking you, do you still stand by your 
original request? I yield--I reclaim my time. Do you still 
stand by that extension deadline request that you made--the 
Bureau made?
    Mr. Dillingham. We have, for planning purposes, made 
assessments and continue to do so.
    Mr. Gomez. Yes, sir. I am looking for a yes or no. It seems 
like there is a--there is an obvious pattern that you are not 
in control of the Census Bureau and that the political 
appointees of this administration are.
    You know your name will go down in history if this is the 
worst census ever conducted by the U.S. Government. You are not 
going to run away and just--and say that this was only because 
of the Trump administration later on. You will be responsible. 
Your name will be associated with it.
    So, we are going to keep pushing until we have 
accountability and a complete and accurate count of every 
person in the United States.
    With that, I yield back.
    Mr. Dillingham. That is our mission, Congressman, and let 
me say that I am not involved directly with the Hill 
negotiations on the--on revising the schedule.
    Chairwoman Maloney. I thank the gentleman for his question 
and his passion, and now I recognize Congresswoman Miller.
    Mrs. Miller. Thank you, Chairwoman Maloney, and thank you, 
Ranking Member Comer.
    Dr. Dillingham, I want to personally thank you for what you 
are undertaking to do that is a Herculean effort to complete 
the census this year in the midst of a pandemic. I wish you all 
the best of luck and Congress stands ready to support you any 
way we can in any essential information or mandate once this is 
completed.
    My district is a representation of how difficult the census 
can be to compete. Four of my 18 counties in my district have 
100 percent of their population living in hard-to-count 
neighborhoods.
    I spent last year making sure that I visited each one of 
these counties and I can tell you from firsthand experience how 
rural my community in West Virginia is, and this has only been 
exacerbated by the coronavirus and the pandemic but, actually, 
in a way, it helped us with this because we were very slow to 
get the pandemic and we haven't had it to the proportion that 
has gone on in the country.
    It is critical that we count each of our constituents and 
then once we have that count that we are apportioning 
congressional seats to each of the states fairly.
    As an American citizen, the representation you have in the 
Federal Government should always be fair and accurate. Counting 
people living in the United States illegally in apportionment 
is an attack on our democratic institutions and seeks to take 
away the vote, the voice, of the American people.
    I strongly support President Trump's actions to protect the 
sanctity of our constitutionally mandated process for 
apportionment and protecting the voice and the representation 
of the American people in Congress.
    Is the first 2020 census counting of all the people in the 
United States, regardless of legal residency status? Yes or no.
    Mr. Dillingham. Congresswoman, I don't want to get into the 
details of people that may be not establishing residency, may 
be temporary. That was another discussion with a Congressman.
    But your question, I think, goes to the heart also of the 
last question and comment. We are absolutely dedicated to a 
complete and accurate count of the people residing in the 
United States, and I do think that we are poised--we were 
poised, I think, not to have one of the worst but, in fact, to 
have the very best census ever and that remains our goal.
    So, we have not only embraced all sorts of innovations, all 
sorts of technologies, but our goal is to have the very best 
count possible, a complete and accurate count of everyone.
    Mrs. Miller. Thank you.
    Does the apportionment process play any role in how the 
census is conducted or is congressional apportionment only 
tabulated once the census count has been concluded?
    Mr. Dillingham. We do the complete census count of everyone 
and then we are looking, particularly as pointed out, at other 
data sources to determine whether we can identify a group that 
the president has recommended to subtract from the 
apportionment count.
    It is a tabulation. So, we will have a complete and 
accurate count but we are also working to determine the data 
and methodologies that might supply that additional 
information.
    Again, we are a statistical agency and a data-producing 
agency, not a policy agency.
    Mrs. Miller. And that is how you will be able to implement 
the apportionment memorandum, correct?
    Mr. Dillingham. That is the way we are proceeding. You are 
correct, Congresswoman.
    Mrs. Miller. All right. Thank you.
    I yield back my time.
    Chairwoman Maloney. Congressman Lynch is recognized via 
remote. Congressman Lynch?
    Mr. Lynch. Thank you, Madam Chair.
    Chairwoman Maloney. OK.
    Mr. Lynch. Yes. Can you hear me? Can you hear me?
    Mr. Dillingham. Yes, I can. Yes, I can.
    Chairwoman Maloney. Yes, we can. Yes, we can.
    Mr. Lynch. OK. All right. Thank you.
    Dr. Dillingham, back in June--so I represent, along with 
Congresswoman Pressley, I represent the Boston area.
    Mr. Dillingham. Sure.
    Mr. Lynch. We have got hundreds of thousands of students 
that normally attend school within my district and Ms. 
Pressley's district as well.
    So, Boston is traditionally one of the more difficult 
larger cities to count, I think, partly because of the influx 
of students.
    You sent a letter back in June to the college presidents 
asking them for their cooperation in tendering the rolls--the 
roll of students, the lists of students that are attending and 
their addresses as of April 2020.
    I just would like to get some update on how that is going. 
I am a bit concerned because we are experiencing right now an 
undercount in the process.
    I have been working with our fantastic Secretary of State 
Bill Galvin. This is his third stint. He has been around a 
while, like me. He does a great job on this.
    But we got running behind our historic count levels 
compared to previous census operations, and I am just wondering 
how we are making out on the student assessment in terms of 
tracking them.
    You know, a lot of the students are learning remotely so 
they may not be in their intended location. The schools have 
closed down. They are not even in the same city. How are we 
dealing with that?
    Mr. Dillingham. Congressman, that is an excellent question. 
Let me say this. I thought I might have the facts and figures 
with me. I can't put my hands on them.
    But we are making progress. But as I said in my opening 
statement, we want to do that as accurately, as efficiently, 
and as soon as possible. So, even though we are making 
progress, there is still some confusion among the colleges and 
universities because there are some special provisions for 
protecting student information.
    So, there is a grouping of colleges or some colleges, and I 
understand I think you have the most colleges per geographical 
area in the country, and we want--we want to get that 
information at least in roster form and it will save millions 
of dollars if we can get it accurately and efficiently, 
particularly the students that are living off campus.
    The House passed a bill with a provision in it and I will 
bring that to your attention. But that is--we are making 
progress. I seem to recall that maybe 60 percent of the 
colleges, but I will check the record on that.
    We want all the colleges, and we--and the concern is that 
perhaps that we wouldn't protect the information. We protect 
the data better than anyone in the country that I am aware of.
    We understand colleges do a lot, but I think we protect it 
as well if not better, and we have Federal law on our side and 
we have all the safeguards for that information. We want it and 
we would like to get it efficiently. We appreciate your 
interest and other Members of Congress.
    Mr. Lynch. Well, Dr. Dillingham, if I could just ask you. 
You know, we can't solve everything on this call. But if I 
could get your commitment that my colleagues from the Boston--
for the Massachusetts delegation that are interested in this 
and we have got a ton of colleges and universities to myself 
and Ms. Pressley----
    Mr. Dillingham. Yes.
    Mr. Lynch [continuing]. And Secretary Bill Galvin, if we 
could talk with you in your office just to get an assessment on 
that because time is short, as you know. Is that possible?
    Mr. Dillingham. Absolutely. You will get some assessment 
this week.
    Mr. Lynch. OK.
    Mr. Dillingham. Yes, Congressman.
    Mr. Lynch. All right. All right. Thank you so much, and I 
will yield back the balance of my time.
    Thank you, Madam Chair.
    Chairwoman Maloney. Thank you very much. Thank you very 
much.
    And I now recognize Congresswoman Porter.
    Ms. Porter. Thank you very much.
    Mr. Dillingham, is the Census Bureau using state 
administrative records to conduct the 2020 census operations?
    Mr. Dillingham. We do use administrative data for some of 
our purposes of trying to discover whether there is duplication 
in the management of the census. I can't tell you exactly which 
data sets.
    Ms. Porter. Super. Is the Census Bureau using these records 
or are going to be using these records to determine the 
citizenship status of individuals?
    Mr. Dillingham. We do have administrative records that will 
be used for us to looking at the numbers of citizens and 
noncitizens. That is correct.
    Ms. Porter. OK. Under the Privacy Act, there should be a 
system of records notice--it is called an SORN--explaining what 
these administrative records will be used for. Have you 
published a SORN, a system of record notice?
    Mr. Dillingham. It is my understanding we have complied 
with all the regulatory needs. But I will double check. We can 
get back to you on specifics.
    Ms. Porter. OK. So, do you know if that SORN explains what 
the records will be used for as required by the Office of 
Management and Budget?
    Mr. Dillingham. Are you talking about our administrative 
records?
    Ms. Porter. Yes.
    Mr. Dillingham. Are we--are we sharing that information 
with the Office of Management and Budget?
    Ms. Porter. Yes.
    Mr. Dillingham. We actually have to have their permission 
to do that.
    Ms. Porter. Great. Does that statement that you gave to the 
Office of Management and Budget and that system of record 
notice, does it say anything--does it disclose to the American 
public that you will be using administrative records to 
determine if someone is a citizen?
    Mr. Dillingham. Well, we--the executive order is quite 
transparent and points that out and actually the agencies too 
that will be providing this data. So----
    Ms. Porter. But, respectfully, sir--respectfully, sir, do 
you have an obligation to comply with the Privacy Act----
    Mr. Dillingham. Yes.
    Ms. Porter [continuing]. And to file that system of record 
notice and to require the statement of purpose with the Office 
of Management and Budget? So, I am asking you do those 
statements, which you are responsible for, advise the American 
public as required in Congress, as required in OMB, as required 
that the administrative records will be used to determine 
citizenship status?
    Mr. Dillingham. Congresswoman, I will double check on that. 
But it would certainly be my understanding.
    Ms. Porter. OK. I actually have it in front of me.
    Madam Chairwoman, I ask to enter the system of record 
notice and the OMB purpose statement into the record.
    Chairwoman Maloney. Without objection, yes.
    Ms. Porter. So, the answer, Mr. Dillingham, is no. These 
disclosures don't make any mention that you will be using 
administrative records for citizenship, and since you are going 
to be using these records, both Federal administrative records 
to help determine citizenship, you should have submitted a 
request to the Office of Management and Budget. You should have 
submitted supported statements explaining exactly how those 
Federal records would be used.
    The notices are very clear. They say indicate how, by whom, 
and for what purpose the information is to be used. The 
president's executive order doesn't waive or relieve you of the 
requirement to be transparent.
    Will you commit to filing a new system of record notice 
that clearly advises that administrative records will be used 
to determine citizenship status?
    Mr. Dillingham. I am not sure I understood the last part of 
your question. Would I be--would I be assured that I do what?
    Ms. Porter. Will you please commit to following the law----
    Mr. Dillingham. We will----
    Ms. Porter [continuing]. With regard to the Privacy Act and 
filing a new system of record notice and a new statement of 
purpose to the OMB? If, in fact, I am correct that your 
existing statement makes no mention of using the administrative 
records for the purpose of determining citizenship when that in 
fact is--you have testified is your intent?
    Mr. Dillingham. Congresswoman, I will certainly ask our 
legal counsel to look in the statement of records notice to see 
if we are in compliance.
    Ms. Porter. Thank you very much.
    My last question for you is will you count every person 
regardless of citizenship because that is what is required by 
the Constitution?
    Mr. Dillingham. As I have said here today, we are going to 
count everyone living in this Nation.
    Ms. Porter. OK. So, the Constitution says that 
representatives shall be apportioned among the several states 
according to their respective numbers, which shall be 
determined by adding the whole number of free persons.
    In the Constitution, what do you think person means in that 
context?
    Mr. Dillingham. Congresswoman, that was a topic of the 
first panel here and, as I said in my opening remarks, 
discussing the policies and history and, particularly, the 
legal analysis isn't one of the--it wouldn't be prudent for me 
at this time.
    As the director of the Census Bureau, we have to get the 
work done and I am not going to engage, and quite frankly, I am 
not prepared to engage in the legal analysis or the policy 
debate.
    We are a statistical agency producing statistical products, 
and if they are legal we will produce them and it will be the 
best available data that we have.
    Ms. Porter. Mr. Dillingham, I appreciate that. But you 
can't wax on about your faithful execution of your 
constitutional duty and then dodge questions about the 
Constitution in the same hearing.
    But I do appreciate your following up on the systems of 
record notice under the Privacy Act and I will followup with 
you directly about that.
    I yield back.
    Mr. Dillingham. Thank you so much.
    Chairwoman Maloney. I thank the gentlelady for her 
questions, and before I recognize Representative Ranking Member 
Comer for his closing remarks, I want to seek clarity on one 
thing, if I could, Mr. Director.
    I asked you earlier if you would send this committee the 
results of the Bureau's analysis under the president's memo, 
and you responded that the Bureau would be transparent.
    Mr. Dillingham. That is correct.
    Chairwoman Maloney. So, can I take that as a yes that you 
will share the results of the Bureau's analysis?
    Mr. Dillingham. It is the policy and practice of the Bureau 
to share with the world any final decisions we make on that. 
But in the discussions of it, and I cannot pledge that. I can 
say that as we--as decisions are made they will be transparent 
for everyone and particularly the users of the data.
    Chairwoman Maloney. OK. I now recognize Ranking Member 
Comer for his closing remarks.
    Mr. Comer. Thank you, Chairman Maloney. I appreciate, 
again, you calling this hearing today on the 2020 census.
    I want to reiterate what I said at the beginning of this 
hearing this morning by saying that everyone should complete 
their census form and engage with census enumerators if they 
come to your door. Very important that every single American is 
counted.
    I support the president's action last week to exclude 
illegal immigrants from the apportionment count, as do a 
majority of Americans.
    Including illegal immigrants in the count for 
representation in Congress only dilutes the representation of 
all Americans who vote in elections and makes a mockery of our 
basic principle of one person one vote.
    I just want to make some points to correct the record about 
some things that we have heard today. Democrats have made some 
very misleading or incorrect statements that I would like to 
take this opportunity to correct.
    First, we have heard from Democrats that the president's 
memorandum means that illegal immigrants are not counted for 
purposes of the 2020 census. This is not correct.
    Illegal immigrants are still counted for purposes of the 
2020 census. The Presidential memorandum does not direct the 
Census Bureau not to count illegal immigrants.
    It only affects the subsequent use of census data to 
conduct the apportionment of congressional seats and Electoral 
College votes among the States.
    Illegal immigrants, while counted for the census, will be 
excluded from the apportionment base.
    Second, we have heard from Democrats that the president's 
memorandum will divert funding or actual Federal funding 
flowing to states as a result of the 2020 census. This is also 
incorrect.
    The president's memorandum does not direct or divert any 
Federal funding or exclude illegal immigrants from being 
considered in future funding decisions. Complete census 2020 
data, once tabulated, will be available for Congress, Federal 
agencies, state legislatures, and municipalities to use when 
making funding decisions.
    We have also heard from Democrats that the Supreme Court 
ruled that asking whether someone is a citizen is 
unconstitutional. That is not correct.
    In fact, the Supreme Court actually held that asking 
whether someone is a U.S. citizen on the census is lawful. The 
justices said that, quote, ``In light of the early 
understanding of and long practice under the enumeration 
clause, we conclude that it permits Congress and, by extension, 
the Secretary of Commerce, to inquire about citizenship on the 
census questionnaire,'' unquote.
    Although the administration had failed to comply with some 
procedural requirements in reinstating the question, which had 
appeared on previous census forms, the question itself was not 
ruled to be constitutional.
    We have also heard that the president's memorandum is 
unconstitutional. Not so, says the constitutional law expert, 
Dr. Eastman, who testified here this morning.
    We heard from him that the proper understanding of the 
Constitution is that we should only apportion seats based on 
the citizenry and not foreign inhabitants, especially those who 
are here illegally.
    They are here illegally. Counting those unlawfully present 
creates perverse incentives, dilutes representation of voters 
in states with fewer illegal immigrants, and undermines the 
principle of one person one vote.
    Representation should matter to everyone. It is a simple 
question of fairness.
    I yield back.
    Chairwoman Maloney. I want to thank the ranking member and 
all of the participants today, all of our panelists, and 
especially you, Director. I thank you for your public service 
and for voluntarily coming here today to be with us.
    I want to close by saying that it is an undisputed fact 
that the coronavirus has changed everything in our country. It 
has changed everything, the way we do things, and I would say 
that the coronavirus has changed the census.
    Because of the tremendous challenges, the concern for your 
enumerators' health, the enumeration was put off. From your 
testimony today, you say the enumeration for the hard-to-count 
will begin August 10.
    When you put this off, you also--or rather, Secretary Ross 
asked us to put off the date for collecting the information and 
also for sending the apportionment to the states from October 
2020 to the end of April 2021.
    Our Congress, our members of our Democratic Caucus, we 
passed a bill in the coronavirus and we included the date 
change that you requested.
    So, it is against this backdrop of all these challenges 
that you are confronted with the hard-to- count, with the 
coronavirus, and a--I would call it a disruptive and historic 
disease that has really overburdened the Census Bureau and 
created more challenges not just with the Census Bureau but to 
all of government.
    And it is against this backdrop that President Trump issued 
what I consider an illegal memorandum last week and the purpose 
that we called this hearing, this emergency hearing, is in 
response to that memorandum.
    This memo would dramatically change the manner in which the 
census count is reported. I agree with my colleague that you 
have testified and I applaud you that everyone will be counted. 
We will all work hard to get undocumented, everyone counted in 
the census.
    But on Monday, I want to point out that the Bureau posted 
on its website that the Census Bureau is working toward the 
plan to complete field data collection by October 31, 2020.
    Yet, I noticed today that this notice has been removed from 
your website. Yet, it hasn't been replaced with a new date or 
with any date on when the field data collection is supposed to 
happen.
    Now, I believe we should do what the census professionals 
say they need, that they need this postponement to get the 
field data by October 31 and to report it later in April 2021.
    But it has been reported in the press that the 
administration is trying to rush the apportionment count and 
trying to push it back to December 31 before President Trump 
would leave the White House if he, possibly--we don't know what 
the outcome of the election is--but he would be leaving the 
house before the election results, if he loses the election.
    So, I am concerned that the administration is seeking to 
rush the process and sacrifice the accuracy of the census for 
political gain, that the president's intent is to have all of 
this done before he leaves office so that he can do what I 
believe is an illegal action.
    So, I hope that you will live up to the standards of 
professionalism, stand by the request of Secretary Ross. I did 
check with the professionals in New York who are working on the 
census and they are working with the numbers that Secretary 
Ross requested, that the data is completed by October 2020 and 
that it is translated to the states by April 2021.
    I also want to say that, without objection, all members 
will have five legislative days with which to submit additional 
written questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response, and I ask our 
witnesses to please respond as promptly as they are able.
    I now say that this hearing is adjourned.
    [Whereupon, at 2:28 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
